<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2020

_______________________________________________________________________
_______________________________________________________________________


                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                                __________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES


                   JOSE E. SERRANO, New York, Chairman

  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  BRENDA L. LAWRENCE, Michigan
  CHARLIE CRIST, Florida
  ED CASE, Hawaii
  MARCY KAPTUR, Ohio

  ROBERT B. ADERHOLT, Alabama
  MARTHA ROBY, Alabama
  STEVEN M. PALAZZO, Mississippi
  TOM GRAVES, Georgia


  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

             Bob Bonner, Jeff Ashford, Matt Smith, BG Wright,
           TJ Lowdermilk, Shannon McCully, and Trisha Castaneda
                            Subcommittee Staff

                                __________

                                  PART 7

  White House Office of Science and Technology Policy...     1
  DOJ Community Relations Service.......................    43
  Science , Technology, Engineering, and Mathematics 
     (STEM) Engagement..................................    69
  NASA's Proposal to Advance the Next Moon Landing 
     by 4 Years.........................................   131
  Additional Material...................................   203

                                   
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   

                                __________

          Printed for the use of the Committee on Appropriations
          
                  U.S. GOVERNMENT PUBLISHING OFFICE
39-448                    WASHINGTON : 2020







                      COMMITTEE ON APPROPRIATIONS

                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  BETTY McCOLLUM, Minnesota
  TIM RYAN, Ohio
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington
  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  MARK POCAN, Wisconsin
  KATHERINE M. CLARK, Massachusetts
  PETE AGUILAR, California
  LOIS FRANKEL, Florida
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  KAY GRANGER, Texas
  HAROLD ROGERS, Kentucky
  ROBERT B. ADERHOLT, Alabama
  MICHAEL K. SIMPSON, Idaho
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  CHUCK FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  JOHN H. RUTHERFORD, Florida
  WILL HURD, Texas

                 Shalanda Young, Clerk and Staff Director

                                   (ii)



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2020

                              ----------                              

                                          Wednesday, July 24, 2019.

                   WHITE HOUSE OFFICE OF SCIENCE AND 
                           TECHNOLOGY POLICY

                                WITNESS

KELVIN DROEGEMEIER, DIRECTOR, WHITE HOUSE OFFICE OF SCIENCE AND 
    TECHNOLOGY POLICY
    Mr. Serrano. We would like to welcome Dr. Kelvin 
Droegemeier, Director of the White House Office of Science and 
Technology Police, OSTP, to the subcommittee.
    I'm sorry we couldn't give you an audience as big as the 
other hearing, but I am sure you read----
    [Laughter.]
    Mr. Serrano [continuing]. Members of the audience are 
smiling, the TV cameras are missing, but I am sure that you 
would rather be here than there, you know.
    OSTP is the interagency science and technology policy 
coordinator across the Federal Government and has a vital role 
in advising the President with sound scientific and 
technological advice.
    That is a tough job under this administration. Since 
January 2017, there has been a consistent effort to undermine 
the Federal agencies that make the United States the world 
leader in science and technology. In addition, there seems to 
have been clear attempts to bury the unbiased research and 
conclusions of the scientists who work for the Federal 
Government.
    Nowhere is that more prominent than in the discussion of 
climate change. The Trump administration has pursued a 
relentless agenda of climate change denial. By withdrawing from 
the Paris Climate Change Agreement, and attempting to bury the 
stunning conclusions of the Fourth National Climate Assessment, 
this administration has shown that it is not committed to 
addressing climate change.
    Recently, a State Department intelligence official, Rod 
Schoonover, spoke before the House Intelligence Committee about 
the security risks the U.S. faces due to climate change. White 
House officials refused to allow him to submit a written 
statement that climate impacts could, quote, ``possibly be 
catastrophic.'' He ended up resigning from the State Department 
as a result of this incident.
    Tackling climate change is not about scoring political 
points; it is about confronting an immediate crisis that 
affects the future of billions of people around the world. We 
have a moral responsibility to address it now. Only those who 
close their eyes cannot see the urgent need to act, but those 
seem to be the very people you need to convince.
    Unfortunately, that is not the only scientific controversy 
in this administration. There are issues involving scientific 
advisory boards, staffing at your office, and moving the 
locations of science advisors out of Washington, DC. All of 
these have an impact on the ability of our Nation to remain a 
leader in the scientific fields.
    This subcommittee is committed to continue to provide the 
resources necessary to build the workforce of tomorrow, create 
good-paying jobs at home, and advance scientific progress. In 
the fiscal year 2020 Commerce, Justice, Science appropriations 
bill, we provided strong increases in funding for scientific 
agencies like NSF, NIST, NOAA, and NASA.
    In particular, this subcommittee has been very focused on 
providing robust funding for STEM initiatives, to ensure that 
young men and women of all backgrounds and geographic locations 
have access to a STEM education. I have also been particularly 
focused on fostering greater minority participation in STEM 
research programs, so that the STEM field fully reflects the 
great diversity of our Nation.
    In addition, this committee, in a bipartisan manner, has 
dedicated substantial resources to advancing space exploration 
and maintaining U.S. leadership in space. While I support a 
continued human presence in space, I remain concerned about the 
estimated costs in excess of $20 billion over the next few 
years to unnecessarily speed up by just 4 years the schedule 
for returning American astronauts to the Moon. Arbitrarily 
changing this schedule will have grave consequences for other 
vital programs across the science fields and other programs 
across the government.
    And I want to just make a point on that. Mr. Aderholt and I 
are big supporters of NASA, I just disagree with spending this 
money on moving something up a couple of years. It is not that 
we oppose going to the Moon; in fact, we are hoping to send 
some people to stay there, but we won't mention those names 
right now. [Laughter.]
    Mr. Serrano. Mr. Aderholt and I may disagree again. But we 
are big supporters and we intend to continue to work on that 
together.
    Thank you, once again, Director, for joining us today, and 
I look forward to hearing your testimony.
    I would like to recognize at this time the aforementioned 
Mr. Aderholt.
    Mr. Aderholt. Thank you for yielding, Mr. Chairman. And, 
now we have marked up the Commerce, Justice, Science bill for 
fiscal year 2020 and it awaits further action, it is important 
for the committee to hold these oversight hearings, and better 
understand our agencies and programs under our jurisdiction. 
And, of course, that is no other better than to have this 
hearing today with the White House Office of Science and 
Technology Policy.
    Like the chairman, I would also like to welcome you to the 
subcommittee, Mr. Droegemeier. And thank you for joining us 
this morning, as the chairman mentioned, to talk about the 
important work of the White House Office of Science and 
Technology Policy, the fiscal year 2020 budget request, and 
also the Administration's research and development priorities.
    If I understand it correctly, you are the first 
meteorologist to lead the White House Office of Science and 
Technology Policy. And as someone with a very strong interest 
in the weather and coming from an area of the country that is 
prone to catastrophic tornadoes, I am very interested to learn 
how your career and the extreme weather events, how it shapes 
the vital work you perform at OSTP.
    As the Director of OSTP, you have a very important job. Not 
only do you formulate Federal R&D budgets and advise the White 
House on such critical issues as quantum information science, 
5G, and STEM education initiatives, but under your leadership 
OSTP coordinates all science and technology policy across the 
entire Federal Government. OSTP ensures that the United States 
is pursuing the most effective interagency research initiative 
and investing in cutting-edge industries, like artificial 
intelligence and advanced manufacturing, to ensure that we are 
equipped to continue leading the world in science and 
technology, and that we are not falling behind our competitors, 
for example, like China.
    Here, on this committee, Commerce, Justice, Science 
Subcommittee of Appropriations, we have a long history of 
bipartisan support for investment in fundamental science 
research. And, from time to time, we may disagree on how we 
fund it and how to spend the best, as the chairman indicated, 
and that may be the case, but our members on both sides of the 
aisle recognize that research investment spurs innovation and 
innovation drives the economy, it strengthens national 
security, and ensures that the United States remains the global 
leader in technology advancement.
    And to ensure that the United States stays on that cutting 
edge of technology, and remains competitive well into the 
future and for future generations, we must continue to invest 
in our Nation's students and in the STEM education programs.
    The fiscal year 2020 budget request, the House passed 
funding mark for the Office of Science and Technology Policy, 
of course, is $5 million. Our goal today is really try to 
better understand how this funding enables you at OSTP to 
continue science initiatives to build our Nation's initiatives 
for the future, pursue emerging technologies, and ensure that 
the United States remains the world leader in innovative 
research and also in technology.
    With that, I look forward to your testimony this morning 
and the thoughtful discussion that we will have ahead of us.
    So, thank you, Mr. Chairman, for organizing this important 
hearing, and I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Director Droegemeier, the plan is for you to make a 5-
minute statement. Your full statement will go in the record. 
And after that, we will open up to questions under a strict 5-
minute rule. Sir.
    Dr. Droegemeier. Very good. Good morning, everyone.
    Chairman Serrano, Ranking Member Aderholt, distinguished 
members of the committee. It is truly my great honor to be here 
to testify as Director of the White House Office of Science and 
Technology Policy. I look forward to discussing our priorities 
at OSTP, our vision for science and technology in America, the 
fiscal year 2020 budget, and of course your questions.
    Now, as you know, last week marked the 50th anniversary of 
the Apollo 11 Mission that landed the first man on the Moon. 
This landmark achievement captured the attention of the entire 
world and also sparked the scientific curiosity of every 
American.
    Now, a half a century later, our Nation has entered a new, 
bold era in science and technology, and one that truly 
leverages our uniquely American capabilities.
    They are, first, substantial Federal Government funding of 
basic and applied research; second, private companies that 
collectively invest about $380 billion per year in research and 
development; third, a post-secondary education system that 
boasts some of the best research universities in the world; 
fourth, non-profit organizations that invest tens of billions 
of dollars per year in research; and, finally, a system of 
National and Federal laboratories that are without equal 
anywhere on Earth.
    From all of these sectors combined have come breakthroughs 
in medicine and physics, and engineering and biology, and many 
other fields that allow us to tackle the greatest challenges of 
our time and to help Americans live healthier, safer, and more 
prosperous lives.
    Now, as a university educator who has dedicated his entire 
career to research, I truly believe in my heart there has never 
been a better or more exciting time to be involved in research 
than right now, right here in America. Since my confirmation 
hearing last January, I have focused OSTP's efforts on 
strengthening America's global leadership in science and 
technology. And that means, among many other things, ensuring 
that environments in which research is performed are set up to 
foster discovery and innovation.
    Toward that particular end, in May the National Science and 
Technology Council, which actually sits within OSTP and which I 
have the privilege of chairing on behalf of the President, 
launched something we call the Joint Committee on Research 
Environments, or JCORE.
    JCORE's mission is to ensure that America's research 
environments--and by that I mean the laboratory, the classroom, 
the studio, the field, wherever research is done--upholds the 
highest standards of integrity, ethics, and safety; that these 
environments foster diversity, they promote productivity, they 
are free from harassment, and they serve as a model to the 
world by reflecting our core American values.
    JCORE's four subcommittees address the following four 
issues: research security, safe and inclusive research 
environments, rigor and integrity in research, and reducing 
research administrative burdens.
    Now, although JCORE is a priority for OSTP, a wealth of 
other exciting work is underway that touches many, many 
critical areas I know that are of interest to you. To give you 
a sense of that portfolio, we have made incredible progress in 
supporting American leadership in Industries of the Future, as 
we heard, advancing ocean science and technology, enhancing our 
Nation's space weather preparedness, promoting our vibrant 
bioeconomy, and strengthening partnerships within government 
and the other sectors that I mentioned.
    As OSTP Director, I have placed strong emphasis on STEM 
education, enhancing diversity, and also on workforce 
development. We believe, and I believe personally, that 
Americans of all backgrounds should have access to STEM 
education and skills, with special attention to lifelong 
learning, to nontraditional educational pathways into the 
skilled technical workforce. In fact, OSTP released a national 
strategy for STEM education last winter and we are now taking 
steps to coordinate its implementation.
    Another important core duty of OSTP's is to assist the 
Nation in setting R&D priorities for our Federal agencies. In 
collaboration with the Office of Management and Budget, we are 
currently in the process of developing the fiscal year 2021 
Budget Priorities Memo, which is set for release later this 
summer.
    The Administration's fiscal year 2020 proposed budget for 
research and development put forward a robust vision for 
strategic investment in Industries of the Future, in the 
security of the American people, while also supporting basic 
R&D across the Federal Government enterprise. Central to that 
approach is a commitment to responsible stewardship of taxpayer 
dollars, adherence to statutory budget caps, and recognition 
that we must fully and effectively leverage our entire multi-
sector R&D ecosystem.
    And, finally, let me add that it is my personal great 
privilege to lead a very talented and very diverse staff at 
OSTP. This office features some of our Nation's foremost 
leaders in artificial intelligence, and ocean science and 
neuroscience, medical science, quantum computing, and many, 
many other fields.
    We are making extraordinary progress to advance America's 
science and technology leadership, and I am really, really 
proud to be here to share it with you today. And I truly, in 
the months coming forward, look forward to working with you, 
and I very much appreciate the opportunity that you give me to 
testify today and to collaborate with you in the future.
    Thank you very much and I look forward to your questions. 
Thank you, sir.
    Mr. Serrano. I am tempted to make the first question, can 
you tell us what the weather is going to be this weekend, but--
--
    [Laughter.]
    Dr. Droegemeier. That is an easy one. I hope the rest of 
them are easy. It is going to be--well, it is clear and sunny, 
which to me is not nice weather. I like storms, I like rain, I 
like wind. And I don't like tornadoes so much, but I like to 
see the weather in action. So clear skies, summertime is so 
boring for me, but it is going to be nice, if that is how you 
define nice, yes.
    Mr. Serrano. Okay. I'm almost sorry I asked. [Laughter.]
    Mr. Serrano. But not sorry. In your opinion as a scientist, 
do you believe that the Earth's climate is changing due to 
increased levels of carbon dioxide as a result of human 
activities?
    Dr. Droegemeier. Yes, sir. And I would like to answer that 
question by asking another question rhetorically and that is, 
are we doing the best we can to provide the kinds of guidance 
that the lawmakers and the Administration really needs to make 
major decisions about the climate 100 years from now.
    And so now comes the answer to your question--and the 
answer to the question I posed, I think, is no--but what we do 
understand is this, that greenhouse gases are increasing with 
time. We do see that the Earth's average global temperature is 
warming. And the question is, what is the connection between 
the two? And there is a very strong connection. In fact, we 
have strong evidence from isotopic analysis of carbon, and so 
on and so forth, that the increase that we have seen in the 
last 70 to 100 years of the global mean temperature is 
predominantly due to human cause or so-called anthropogenic 
effects.
    And by analogy I would say, do you remember the days back 
in the Cold War when sniffer planes would go out and sort of, 
you know, try to see if somebody had done an underground 
nuclear explosion. And they would sort of capture material in 
the air and say, okay, that particular isotope of, say, you 
know, uranium could only have happened if in fact there was an 
explosion of an atomic device.
    That is the sort of evidence--there are many, many other 
lines of evidence that we have, but that is the kind of 
evidence that we have that links the increase that we are 
seeing in global temperatures with the greenhouse gas 
emissions.
    Mr. Serrano. So, but you said no to the answer and then you 
gave us a lot of reasons why it is a yes. It is a little 
confusing, though I must say, to me at least.
    Dr. Droegemeier. Yes, sir. Thank you, and I appreciate the 
opportunity to clarify. So my question was, are we doing the 
best we can? And my answer to that was, no.
    So what I just mentioned is the facts as we see them and we 
understand those facts based on our physical understanding of 
how the atmosphere works. And the climate models that we have, 
even simple theories, are what really back that up and say, 
yes, we know why the increase of temperature should be higher 
over land and ice, why the ocean should be getting warmer, why 
they should be getting more acidic, and things like that, some 
of the basic understandings. What we don't understand is how 
those effects at the global scale translate down to local and 
regional effects, which themselves can in turn affect the 
larger scales.
    And so that is where--and if you want me to elaborate, I 
can--where we really, I think, have more work to do to really 
provide informed judgments about what the climate system will 
look like 100 years from now.
    Mr. Serrano. Good. Now, the Presidential Committee on 
Climate Security is led by a well-known climate science denier, 
Will Happer, who disputes the overwhelming consensus of climate 
scientists. Emails obtained from a request show that Happer 
pressured NASA to alter or eliminate climate change references 
on NASA websites, something NASA has not done. It would appear 
that the role of this Presidential Committee is to attack 
scientific findings.
    To what extent does your office take direction from the 
Presidential Committee on Climate Security?
    Dr. Droegemeier. Well, actually, sir, the reporting in the 
press has been incorrect: there is no such committee at this 
time, no such committee exists.
    Mr. Serrano. No committee exists?
    Dr. Droegemeier. That is correct.
    Mr. Serrano. So you are the only one in town, so to speak?
    Dr. Droegemeier. Well, a lot of folks advise the President, 
rightly so, on matters of science policy. I am not the only 
one, there are a lot of great folks, depending on what the 
particular topic is, but no such committee has been established 
at this point.
    Mr. Serrano. So you are saying for the record that the 
Presidential Committee on Climate Security does not exist?
    Dr. Droegemeier. That is correct.
    Mr. Serrano. Very interesting. Well, then that throws out 
like half of my questions here.
    Can you walk us through the process of an agency or 
department getting statements to Congress approved?
    Dr. Droegemeier. There is a process, a so-called clearance 
process, that is used in the White House complex. It depends on 
the topic in terms of what so-called EOP components, Executive 
Office of the President components actually get that. If it is 
something to do with science, you know, we will get it, if it 
is something to do with domestic policy, maybe other folks get 
it.
    So not everybody sees everything and, if they did, they 
wouldn't be able to do their regular job. So it just depends on 
the topic and there is a process that plays out to get a lot of 
input on whatever the issue is and whatever the document is 
right.
    Mr. Serrano. Are you aware of any formal or informal 
guidance regarding the editing of reports or congressional 
testimony with respect to climate change?
    Dr. Droegemeier. I believe that some of those things go 
through a clearance process. Sometimes at the agencies, 
sometimes we don't see them. If it is something within an 
agency, typically we wouldn't see that. It is only, for 
example, if it is coming out of the White House.
    So, again, the process depends upon the nature of the 
activity or the document.
    Mr. Serrano. So there might be clearance at the White House 
that you don't know about, is that----
    Dr. Droegemeier. That is correct, that is correct. Right.
    Mr. Serrano. And at the agency that you don't have to know 
about or----
    Dr. Droegemeier. That is correct. We do communicate with 
agencies and collaborate. We have got wonderful relationships 
with them, but, you know, we are not involved in a lot of the 
minutia, the various things that they do, and sometimes they 
ask and sometimes they just do their thing.
    Mr. Serrano. My time is up.
    Mr. Aderholt.
    Mr. Aderholt. Thank you.
    Last month, the National Science and Technology Council 
released an update to the National Artificial Intelligence 
Research and Development Strategic Plan, which focused on eight 
strategic priorities, and those included the making long-term 
investments in artificial intelligence research; gaining a 
better understanding of ethical, legal, and societal 
implications of artificial intelligence; and a new focus on 
expanding public-private partnerships to accelerate the 
advancement of artificial intelligence.
    The question would be, what is the Administration's 
priorities for implementing this updated artificial 
intelligence plan, and how is the plan likely to impact future 
budget requests in this type of research and development for 
the funding?
    Dr. Droegemeier. Thank you, sir, for that question.
    I think, as you all know, artificial intelligence is 
extraordinarily important for the future. It is one of the so-
called industries of the future that was highlighted in the 
President's budget this year, he mentioned it in his State of 
the Union address. The others are advanced manufacturing, 
quantum information science, and I think synthetic biology and 
5G wireless technology. So those are what we kind of 
collectively call industries of the future.
    The AI Initiative, the American AI Initiative the President 
signed the Executive Order for on February 11th--I remember it 
well, because it was the day I got sworn in ceremonially by the 
Vice President--has three pieces to it: R&D, workforce 
development, and then also the regulatory framework.
    So what Mr. Aderholt just mentioned, what came out just 
last month was the update to the R&D strategic plan. So that is 
kind of the R&D piece of that. And there are, as you say, seven 
or eight different strategies.
    First of all, the important thing to note is that OSTP 
really helps coordinate, as we heard earlier from you and the 
chairman, coordinate across the Government in terms of the 
interagency; that is what the National Science and Technology 
Council does. And we have in the context of artificial 
intelligence a special committee, we call it a select 
committee, which involves the agency heads themselves. 
Sometimes subcommittees are, you know, agency folks, but these 
are actually the agency heads, which is a testimony to the 
importance of AI.
    So part of what we do in that role is to make sure that the 
agency budgets and budget planning align with the strategic 
goals that you just mentioned. And so there was actually a data 
call issued not long ago to the agencies to look at how they 
are spending their money, because one of the things that is 
difficult is, how do you define AI? You know, AI is software, 
it is hardware, it is all kinds of things.
    And so in the John McCain National Defense Authorization 
Act that was signed, I believe, a year or two ago, it actually 
put out a formal definition, which is now in law, about AI. So 
we are kind of following that definition and that is guidance 
to the agencies about how much are you really spending. So in 
the non-DOD, non-classified area, it is about a billion dollars 
a year, and so it encompasses lots and lots of things.
    So part of the answer to your question is, in this role of 
the NSTC subcommittee--or select committee, I should say, you 
know, help the agencies determine how to direct that funding, 
how to make sure that it invests commensurate with the plan.
    For example, NSF, in working with the agencies, they fund a 
lot of research into ethics of AI, because the regulatory 
framework is extremely important, there is a lot of work going 
on. DARPA, the Defense Advanced Research Project Agency, funds 
work in explainable AI. Okay, AI is telling you this is the 
answer, how do you know it is right? It might be statistically 
unbiased, it might be socially incredibly biased. How do we 
deal with those differences? So there is a lot of important 
work and a lot of questions.
    And then, finally, the partnerships that you mentioned, 
sir, are a really critical part of my personal agenda coming 
into OSTP. We talk a lot about partnerships as kind of a 
throwaway word, but, frankly, in America we don't do nearly as 
well with partnerships as we really could. So that is something 
that we are diving very deeply in. And by partnerships I mean 
agencies and private companies, private companies and 
universities, at the institutional level, at the individual 
researcher level.
    And those four sectors I mentioned--the private sector, the 
government sector, the nonprofits, and the universities--if we 
bring those together more effectively, we will get so much more 
out of our enterprise than what we are getting now. So I would 
say we have a V8 engine maybe running on six cylinders; when we 
get those other two cylinders going through partnerships, we 
will be able to really do some extraordinary things. There are 
wonderful partnerships out there, I don't want to suggest there 
aren't, but we can do even more, and that is part of the AI 
plan.
    Mr. Aderholt. So what is the amount of spending on the 
unclassified AI research alone, did you say----
    Dr. Droegemeier. Well, so the unclassified includes 
Department of Defense. The numbers that we have right now are 
the unclassified--excluding the unclassified--excuse me, 
excluding the classified and excluding the Department of 
Defense. So, with those two exclusions, it is about $1 billion 
a year across the----
    Mr. Aderholt. So $1 billion. Okay.
    Dr. Droegemeier. Yes, sir.
    Mr. Aderholt. And you have talked a little bit about it, 
but how is OSTP tackling the challenges in defining artificial 
intelligence so that we can effectively track the Government's 
efforts?
    Dr. Droegemeier. Right. So right now we are using the 
definition that was in the Defense Authorization Act that was a 
couple years, the John McCain Act.
    Mr. Aderholt. John McCain.
    Dr. Droegemeier. And that is kind of the working definition 
now. There is opportunity, I think, to tweak that as we learn 
more and things progress, but that is the working definition at 
the moment.
    Mr. Aderholt. Okay. Thank you, Mr. Chairman.
    Dr. Droegemeier. Yes, sir.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And welcome, 
Director Droegemeier.
    Dr. Droegemeier. Thank you, sir.
    Mr. Cartwright. Congratulations on your nomination and 
confirmation to the position of Director of OSTP. There was a 
2-year vacancy after Dr. John Holdren and one thing I wanted to 
ask off the bat was--obviously, big shoes to fill--have you had 
a chance to consult with Dr. Holdren over the years?
    Dr. Droegemeier. I have. And I have worked with John, he is 
a good friend of mine. I have the highest respect for him; I 
think he did a wonderful job leading OSTP.
    Mr. Cartwright. I feel the same way and I wish you all the 
best luck.
    Dr. Droegemeier. Thank you.
    Mr. Cartwright. Now, I was glad to see the broad support 
for your nomination. I was particularly heartened by some of 
your comments over the years, particularly in your confirmation 
hearing when you said integrity in science is everything, and 
you said science has to lead the way in telling us what the 
facts are, and that you agree with--as you said today, you 
agree with the overwhelming consensus among scientists that 
global warming is strongly connected to human activity, as you 
say, anthropogenic--I can't even say that--but I congratulate 
you not only for saying it, but for repeating it here in 
committee.
    Here is my question. In June 2017, you and Dr. Daniel Reed 
wrote an opinion article published in the Des Moines Register 
regarding science and research funding in the fiscal year 2018 
budget, and in that article you argue against cuts; cuts to 
science, cuts to research funding. You implore the White House 
and Congress to work in a bipartisan manner to preserve the 
Federal investment in basic research that has long enjoyed 
bipartisan support.
    You stated, quote, ``Though the benefits of short-term 
savings in the yearly Federal budgets may appear appealing, 
they result in insidious, long-term consequences. Due to under-
funding, we risk losing an entire generation of researchers who 
produce these miracles when we need them most. Rebounding from 
the loss of talent is neither immediate nor inexpensive,'' 
unquote.
    Did you say that?
    Dr. Droegemeier. I believe so.
    Mr. Cartwright. Good line. The article highlighted the 
important role scientific research plays on economic 
development by citing the fact that, since World War II, 
science and technology have been responsible for more than half 
of U.S. economic growth. In fact, you said, quote, ``Addressing 
massive Federal debt and deficits depends in part on our 
ability to grow the economy by creating and innovating entirely 
new technologies and services that all begins with research,'' 
unquote.
    Did you say that?
    Dr. Droegemeier. I believe so, yes, sir.
    Mr. Cartwright. Good. But we fast forward, Doctor, to March 
of this year and the President's fiscal year 2020 budget, which 
was an all-out assault on scientific research in this country. 
You issued a statement calling the budget request, quote, ``an 
important down payment on America's future,'' unquote, that, 
quote, ``promotes responsible spending by prioritizing high-
impact programs that have been shown to be effective,'' 
unquote.
    Now, this Congress and, specifically, this subcommittee 
here in this room rejected the President's gutting of 
scientific research, but I think it is important to highlight 
the list of requests we got in the President's budget this year 
that would have cut federally-supported scientific research.
    We start with the NASA budget. He wanted it cut by 2.2 
percent with an 8 percent drop in science portfolio; he wanted 
an 11-percent reduction in overall R&D; he wanted a 12 percent 
reduction in the National Science Foundation; he wanted an 
overall cut to the National Institutes of Health by 13 percent; 
he wanted a 15-percent cut in the National Cancer Institute; he 
wanted a 17-percent cut in the Department of Energy, Office of 
Science budget; he wanted a 30-percent cut in the National 
Institute of Standards and Technology, NIST, 30 percent; he 
wanted a one-third cut overall to the Environmental Protection 
Agency, including a nearly 40-percent cut in its science and 
technology programs; and he wanted an 86-percent cut in the 
Department of Energy, Office of Energy Efficiency and Renewable 
Energy. All of that came over to us in the budget this year.
    Question: did you provide any guidance to the President 
regarding these significant cuts to funding science and 
technology across the Federal budget?
    Dr. Droegemeier. No, sir, I didn't. That budget was already 
in place when I arrived and got sworn in in January. Yes, sir.
    Mr. Cartwright. Thank you, Doctor.
    Dr. Droegemeier. Thank you.
    Mr. Cartwright. I yield back.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. And thank you, 
Director Droegemeier, for being here today.
    I want to speak with you today about STEM engagement, 
particularly those programs geared towards workforce education 
and training. Federal agencies should prioritize initiatives to 
re-skill Americans for the present and future job market, and 
since taking office President Trump has worked to improve STEM 
education and increase STEM employment.
    How are you planning to provide STEM-filled opportunities 
for Americans of all ages in both rural and urban areas? And 
can you also discuss how the 2020 budget request affects the 
implementation of the 2018 Strategic Plan for STEM Education?
    Dr. Droegemeier. Absolutely. Thank you for that question.
    As a STEM educator my whole career, STEM is very important 
to me. I also was the Cabinet Secretary of Science and 
Technology in Governor Fallin's cabinet in Oklahoma and STEM 
was a big deal there, and I keynoted some of her STEM 
conferences and so on. So STEM is really, extraordinarily 
important to me personally. It is the future of our economy, 
frankly, in so many different ways.
    And coming from a so-called EPSCoR state, I think most of 
you know what EPSCoR is, you know, I am all about making sure 
everybody, as I mentioned in my opening statement, has access 
to opportunity.
    This Government invests about $3 billion a year in STEM 
education programs. That is not just STEM education and 
research, but it is also programs that support after-school 
learning and things like that. There are some 160 different 
programs that are doing really extraordinary things, but I kind 
of characterize it as we are planting a lot of flowers, a 
thousand flowers are blooming, but I think we need to look at 
planning some really lush, wonderful gardens and having more 
connective tissue among those various programs. So that is one 
of the things that we are looking to do.
    With regard specifically to this Administration, last 
December we released a 5-year STEM Strategic Plan for the 
Nation. And it was truly an extraordinary plan in the sense 
that it wasn't just the Government sitting down and saying, 
what should we do, it actually convened the entire Nation of 
stakeholders, about three to four people from every state and 
territory. So about 180 people came to Washington--teachers, 
superintendents, principals, things like that, and even some 
folks in the private sector who do other kinds of learning and 
up-skilling like robotics competitions and so on--we got 
together and we said, as a nation, where do we want to go in 
STEM?
    And it was really an extraordinary conversation that led to 
this report, which we kind of see as a Northstar report. And I 
think it is frankly one of the best STEM reports that we have 
seen, because everyone that attended that and everyone who is 
involved in STEM education will see themselves in that plan. 
And it has got three pillars: one is the STEM workforce of the 
future; the other one is a STEM-literate society, which we all 
know is extremely important; the third one is really critical 
and that is diversity enhancement. So one of the three pillars 
is diversity enhancement.
    With regard to the skilled technical workforce, let me 
define what I mean by that term. It means folks who are beyond 
high school, but below the baccalaureate level. So they might 
have 2-year college, they might have a skilled training in say 
a career tech or something like that. There has been a very 
strong focus on those folks here in the Administration. Ivanka 
Trump has pledged to the American worker and there are now 
around 11 million people to be up-skilled and re-skilled 
through pledges made by private companies. Truly extraordinary.
    We are working on veterans, using data and analytics, and 
machine learning and AI, to help veterans as they separate from 
the service to get on pathways beyond what the simple job 
description they came out of the military with. Okay, I did 
this. Well, if you did that, it turns out you did five other 
things you are not even aware of.
    The other important thing, I think, is that we want to make 
sure that we don't forget about the importance of these. When 
we look at the--you all saw the picture of the black hole, the 
image there and things, there were a lot of people who were 
involved in managing those telescopes, building the 
instrumentation. They may not have a college degree, but they 
are extremely important. People who are welders, who build 
cryogenic tanks and things like that. So they kind of go 
unnoticed a lot of times in these great scientific discoveries, 
but without the skilled technical workforce, we would be in a 
world of hurt.
    So there is a huge focus in the Administration, and the 
actual Science Board as well, looking at the skilled technical 
workforce and how we make sure that we have the totality across 
STEM--and I call it seamless STEM--from PhD all the way to high 
school, we have got to have all those workers engaged from 
every part of the country, every zip code. Nobody is left 
behind, we have got to bring them all to the table, because the 
problems we have to solve are so immense that it is an all-
hands-on-deck proposition.
    Mr. Palazzo. Thank you for that response.
    In your testimony, you also speak of OSTP's work with 
advance in ocean science and technology. Could you please 
expand on that valuable work?
    Dr. Droegemeier. Sure, absolutely. The President has been 
very, very strong on ocean policy. He signed an Executive Order 
that created the Ocean Policy Committee, the OPC, which I have 
the privilege of co-chairing with Mary Neumayr, the chairman of 
the Council on Environmental Quality. There are a lot of things 
going on. We have a Decadal Ocean Vision now, we have a 
strategic plan. There is a National Ocean Partnership Program, 
there are regional ocean partnerships. There is work on harmful 
algal blooms in the midst of that, there is work on mapping the 
Extended Economic Zone--I think it is called the Exclusive 
Economic Zone, which is a huge area of the United States you 
don't think about because it is under water--in terms of things 
like energy and fishing, and quality of life and recreation, 
and so on.
    Plastics, marine debris, is a huge thing. And we are going 
to be holding a Science and Technology Summit, I think it is in 
probably November-December of this year, to bring together 
private sector, nonprofits, government, universities. To talk 
about these compelling problems and, back to the word 
``partnership,'' how in partnership we can solve these 
together.
    So the ocean enterprise is really, extraordinarily vibrant 
in the Trump administration, I think we are making very good 
progress, and not only just in oceans, but things like harmful 
algal blooms for the Great Lakes and Florida, and some of the 
coastal regions that are subject to these very, very difficult 
challenges.
    Mr. Palazzo. Thank you for your testimony.
    Dr. Droegemeier. Yes, sir.
    Mr. Serrano. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman. Thank you, Doctor, for 
being here today.
    I wanted to follow up with what Mr. Palazzo was talking in 
terms of STEM. To maintain U.S. leadership in science and 
technology, we must ensure the ecosystem of universities, 
nonprofits, industry, can attract and support the best talent. 
I know that this May the White House formed this new joint 
committee to boost support for research committees that you are 
leading. And I wanted to know, more specifically, how is this 
joint committee working with industry? And also how is it 
working with the higher education community and what more can 
Congress probably help with?
    Dr. Droegemeier. Thank you. That is a really great question 
and such an important one. And, frankly, this is really, I 
would say, among my highest priorities is this new joint 
committee, because as a researcher, as a former vice president 
for research, I lived in the midst of those research 
environments and I saw a lot of things happening, as I have 
certainly talked to a lot of people over my career, of things 
where I feel the research environment has got to be right. If 
women don't feel comfortable coming into it, if they are in it 
and they leave, that is really, really, really bad news.
    Our environments have to reflect our American values and, 
frankly, we hear people talk about Safe Spaces. I dream of the 
day and believe we can make it happen, and certainly, with your 
help, as you have just mentioned, where the research 
environment is the place people run to, because that is where 
their ideas are respected; that is where they are treated well; 
that is where they can vigorously debate and walk away and go 
to dinner and be complete friends; where we really saw the 
tough challenges and no ideas beyond being able to be 
discussed. That is the environment I believe we have and that 
is attainable.
    With regard to STEM, it is extremely important, especially 
that these environments are effective. So this National Science 
and Technology Council, as we heard, is the organization that 
coordinates the intergovernmental activities. Research security 
is one of them, which we can talk about. I want to make sure I 
answer your question. Another one is issues of things like 
inclusiveness and safety, a/k/a sexual harassment, we need to 
make sure those issues are addressed. It is a cultural change, 
it is not going to be easy, but it is critical, I think.
    Another one is rigor and integrity in research. And then 
another one, which is really important in terms of budgets, is 
research administrative burden, which is now after the past 20 
or so years is not going down, it roughly is the same steady 
state for the last 20 years, about 40 to 45 percent of faculty 
researcher time spent on Federal grants is spent on doing 
compliance activities that are in many ways unrelated to the 
research. Some of that compliance is very important, but 44, 45 
percent is an awfully big number.
    Ms. Meng. Thank you. And you talk about administrative 
burdens. I know that--or I have heard that are often diverse 
sets of rules with DOE, NIH, NSF, are there plans to sort of 
standardize and make more uniform these sets of rules?
    Dr. Droegemeier. You are absolutely right. And actually one 
of the easiest things that we can do, among many, is to what we 
call harmonize or standardize those things to the extent 
possible. Now, some agencies are different, but I think at the 
top level we have got to have this standardization. So if 
you're writing a research proposal and every agency, as you 
mentioned, uses a different form, uses a different form for 
what work you are already doing for your biographical sketch. I 
all of those are different, you are spending massive amounts of 
time not undoing science, but on dealing with these kinds of 
non-uniformities.
    So we have an entire list of things. And the Federal 
Demonstration Partnership, which it says it is Federal, it is 
National Academies and it's the university and it's the Federal 
Government. I have gotten together over the years to say what 
do we need to do? And, frankly, we are not making nearly as 
much progress as we need to, because I can't think of anything 
worse than a research who spent a lot of time and money 
becoming an expert and then not using that intellectual talent 
to do science. So this is really a top priority and we have a 
whole lost of things that we are going down, sort of knocking 
down one by one, and the harmonization is one of the most easy, 
I think, to address and one of the most important.
    Ms. Meng. Is there a sort of time line for----
    Dr. Droegemeier. Fast, fast, fast. You know, I think in the 
last several years, like I said, with the latest survey that 
just came out, the numbers are no different, and we have got to 
solve this. I would sort of be reluctant to monetize it, but 
some people have, they said it is two to $3 billion of lost 
capacity that we could get back if we address some of these 
issues. So, to me, it is an imperative for a variety of 
reasons, but especially for making sure that we do lead the 
world in science and technology.
    Ms. Meng. And I just want to end with a comment. I thank 
you for addressing the issue of sexual harassment and gender 
discrimination in this scientific space. I just want to make 
sure that as you are undertaking on this topic, that 
individuals who are reporting this sort of harassment, that 
they are protected, their privacy, by the Federal Government.
    Dr. Droegemeier. Absolutely right. It is a complicated set 
of issues that gets into Title IX and things like that, but it 
is extraordinarily important, because if people don't feel 
comfortable coming to the research environment, the rest of it 
doesn't matter, because we might educate a lot of researchers, 
but if the environment is wrong, they are not going to come 
into it and then we lose. And we lose the trust of the taxpayer 
and the tremendous social contract we have with taxpayers that 
entrust us to spend these dollars wisely.
    Ms. Meng. Thank you. I yield back.
    Dr. Droegemeier. Thank you.
    Mr. Serrano. Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    I want to thank you, sir, for coming here today to testify. 
The Subcommittee on Machine Learning and AI, called MLAI 
subcommittee, was formed by the President Obama administration 
and renewed by the Trump administration. Now, outlined in 
function number 6, it states that the subcommittee will publish 
and update a strategic plan for unclassified MLAI research and 
development.
    Are you aware of these reports and, if so, is there a way 
that OSTP can share these reports with Congress? I strongly 
believe that these reports will be able to provide a great deal 
of guidance to Congress as we work to appropriate funds for AI 
R&D.
    Dr. Droegemeier. Yes. Thank you for that good question. I 
have a list here of all the reports and we have got a whole big 
spreadsheet that says, you know, what the target date is and so 
on, and these are all public reports, so we would be delighted 
to share them with you.
    Mrs. Lawrence. Okay.
    Dr. Droegemeier. Yes.
    Mrs. Lawrence. Well, through the chair, I would hope that 
that would happen.
    You know AI, the AI Now Institute based out of New York 
University, released a report in April of 2019 entitled, 
``Discriminating systems: Gender, Race, and Power in AI.'' 
Their findings show that we have a severe diversity crisis in 
the AI sector across gender and race. The report stated that 
``fixing the pipeline won't fix AI's diversity problems.''
    I know the diversity, inclusion, safety, and security of 
our researchers in the R&D enterprise is an issue that is very 
important to you. How do we tackle this issue? And this is 
becoming a very increasing level of concern, as people are 
unfamiliar with AI and we hear how it can impact minorities and 
people of color.
    So, could you please comment on that?
    Dr. Droegemeier. Oh, thank you, that is a marvelous 
question. So you are not asking about the people pipeline, you 
are asking about AI itself; right?
    Mrs. Lawrence. AI itself.
    Dr. Droegemeier. Right. So it is a really, really important 
point you bring up, and as I mentioned, there is a lot of work 
going on now in terms of the ethics of AI and the 
explainability and so on.
    The key thing here is sort of twofold. One is the actual 
algorithms, and the second thing is the data with which these 
systems are trained. And frankly, if you are training it with 
biased data, then the results you are going to get are biased. 
And I also would like to say that statistically, we could say 
okay, this result is unbiased, but that doesn't mean it is 
socially unbiased. Excuse me. Let me say that again and make 
sure I said it right.
    It could be statistically unbiased, but socially biased. 
That is what I want to say.
    Mrs. Lawrence. Exactly.
    Dr. Droegemeier. And we have got to figure that out because 
that--you know, the social bias versus statistical, that could 
be a pretty wide gulf, and how do we navigate that. So a lot of 
work is being invested, a lot of time is being invested in 
studying these things in the university system. It is part of 
the conversation as we go through this whole thing.
    We signed on with 41 other nations on a set of AI 
principles in the OECD countries, the Organization of Economic 
Cooperation and Development, earlier this year. So that helped 
set the framework. But ultimately, it is the R&D that needs to 
be done to make sure that we understand the training aspects, 
the algorithms themselves. And then once those are in place, 
how do we know where the bias is happening, if it is bias, and 
how do we judge that.
    So you bring up an extraordinarily important point that a 
lot of folks are working on, but we can't let down our 
vigilance to make sure that at every step of the way that we 
are no top of that.
    Mrs. Lawrence. I feel very strongly that we should, and as 
part of our civil rights and as part of our expectations of 
equality in America, that we, as Congress, need to have an 
ethical standard when it comes to diversity and inclusion, 
because if we don't establish that, how do we understand or how 
do we regulate that biases are not being programmed into AI.
    The last question that----
    Dr. Droegemeier. Could I just ask----
    Mrs. Lawrence. Yes.
    Dr. Droegemeier. When we talk about, you know, the research 
environment, I would love to work with you on that because part 
of the thing is how do you define these things. And if you are 
in the middle of research environment and there is harassment 
and things like that, how do you recognize it and how do you 
define it? So I would very much enjoy working with you on that. 
I think there is some overlap that we could benefit by talking.
    Mrs. Lawrence. Absolutely.
    Dr. Droegemeier. Thank you.
    Mrs. Lawrence. And the last thing I would say, the NIST 
released standards for trustworthy AI, and I strongly believe 
that we need a comprehensive understanding of the current uses 
and the risks. And I want to make sure that, and you have said 
that, that we are creating standards and that we also are 
recognizing the risk in AI research.
    Dr. Droegemeier. Absolutely. And I would hasten to add that 
my colleague, Michael Kratsios, who right now is testifying 
before the Senate Commerce Committee to be confirmed, 
hopefully, as the chief technology officer, has been doing 
extraordinary work and he leads our tech portfolio, and he is a 
phenomenal person. We have engaged--somebody asked me earlier 
and I forgot to mention this, we have engaged industry very, 
very strongly and heavily on this whole AI portfolio, industry, 
academia, and government, they are all at the table.
    And so absolutely. And Michael and I will work very closely 
together on that and I assure you that we will give it full 
attention. Thank you so much for that point.
    Mrs. Lawrence. Thank you, and I yield back.
    Mr. Case. Thank you, Doctor. You know, of all of the 
billions, and billions, and billions of dollars we authorize 
for scientific and technology research and advancement for--
just for basic science and research advancement for, you know, 
economic and social good, and purposes, and for our own policy 
guidance, I think nothing concerns me more than politics 
getting into the middle of all of that. Then political goals 
coming to bear on influencing what is researched, influencing 
the outcome of that research, and suppressing the outcome 
where--inconsistent with the goals.
    And you are well aware that claims have been made in that 
department from the perspective of climate change, or from the 
perspective of, you know, women's health in the terms of the 
great and continuing abortion debate, and in many other areas. 
You know, one example of that would be the Union of Concerned 
Scientists, which a couple of years ago claimed that Director 
of the Interior had suppressed a report on health conditions in 
Appalachia from surface coal mining, presumably because he did 
not want to call into question those operations. And we have 
spent a great deal of time over the years, trying to assure 
scientific integrity.
    We have a GAO process that goes back ten plus years now. We 
have the previous administration asking for scientific 
integrity principles and guidelines and requirements, really, 
to be adopted across the entire federal government. We have a 
GAO report from just a couple of months ago, April, which was 
followed up on just a month ago, in which the GAO essentially 
said that the scientific integrity guidelines and principles 
had been inconsistently applied across the administration. And 
the basic complaint that GAO had was that in these various 
departments, there was not a sufficient education and 
enforcement component to really drive home the point that 
scientists are free to do their research and to insulate them 
from these pressures.
    And I think you are in charge, in large part, of assuring 
that scientific integrity effort across the entire 
administration. And so I simply want to ask you, is this a 
concern of yours? Where do you rank it in terms of the 
concerns? And what are you doing about it?
    Dr. Droegemeier. Right. Yes, thank you. No. Very, very good 
question. So in my confirmation hearing last August 23rd, that 
question was put to me in a similar way, and I said without 
equivocation that I strongly support ethical behavior and 
research that, I think, science has to be conducted in the 
federal government, I would say, for example, which is what I 
think you are talking about, in an unfettered way without 
political influence. I think that is extraordinarily important. 
You cannot have political influence determining scientific 
outcomes, scientific directions, and things like that.
    The GAO report, I read that. There were nine--I think nine 
agencies that were evaluated and so on. And I think as you also 
alluded to, the 2010 memo from my predecessor, John Holdren, 
asked agencies to put forward their plans to OSDP and so on. 
The subcommittee I mentioned in the JCORE, this Joint Committee 
on Research Environments, has a subcommittee on research 
integrity and ethics, ethical behavior, robust. It also gets to 
things like reproducibility, which is different from integrity, 
but it is related to it and can be.
    In JCORE, we looked at this issue and talked about it of 
the issues of which you speak and said, well, the GAO report--
at that time, GAO was doing its thing. We weren't sure when the 
report was going to come out. So we said we are really going to 
focus on the research process itself and not the political 
piece that you mention. But that is of great importance. I 
think it is important to the taxpayer to ensure that they know 
that our government is functioning with the utmost integrity as 
it conducts science and so on. So you are right.
    We do have a role to play. I think we were going to wait 
and see how--give agencies a time to respond to the GAO report, 
which would take a few months and so on, and then sort of see 
where we are with that. I could easily envision at some point 
appropriately down the road, after I have a chance to respond, 
that this JCORE group could serve as the mechanism to address 
the kinds of--sort of update the things you are talking about.
    Mr. Case. And Congress has also taken an interest through 
the introduction of legislation, for example, the Scientific 
Integrity Act which is introduced by my colleague Paul Tonko on 
the House side and my colleague Senator Schatz on the Senate 
side, has a number of close sponsors, including myself, to 
express this specific concern. Would you be receptive to 
legislation along those lines to drive these points home so 
that we really can have very, very honest, and insulated, and 
real scientific results? And so scientists out there are not 
concerned that their product is being influenced, compromised, 
and so we can have the right science to make our decisions.
    Dr. Droegemeier. Right. Yes, sir. I am always happy to work 
with Congress on any matter, and this one is extremely 
important, integrity across the board.
    Mr. Case. Thank you, sir.
    Dr. Droegemeier. Yes, sir. Thank you.
    Mr. Serrano. We will begin our second round. Now, Doctor, 
the administration has proposed a $1.6 billion budget amendment 
that is just a down payment on the over $20 billion in 
additional funding that would be required to launch the man 
moon mission four years early. Is it either technically 
possible, financially responsible, or necessary to launch the 
man moon mission four years early and an additional $20 billion 
cost simply to meet a political deadline?
    Dr. Droegemeier. Thank you for that question. My 
understanding is that that $1.6 billion is a down payment, as 
you say, on something that will be less than $20 billion. I am 
a member of the National Space Council, which the vice 
president chairs.
    I think going to the moon is a really critical step in the 
mission to Mars, which is the president's very high priority, I 
think as you know. I would leave it to Administrator 
Bridenstine to speak specifically to the issues you mentioned 
about budgets, and cost, and schedule, and things like that. 
But I think overall as a Nation, the president set the goal of 
going to the moon by 2024, landing on the moon, and then having 
a sustainable presence by 2028.
    And so I think there are a lot of things that play into 
that, and a lot of things, especially, with the relationship to 
going to Mars.
    Mr. Serrano. Well, the director--the NASA director, of 
course, supports going to the moon. He understands the problems 
with finding the money. He also understands that this committee 
has been very generous to NASA and will continue to do so.
    So my question to you is, by the way, you said it would 
cost less than $20 billion?
    Dr. Droegemeier. I think--the numbers I have heard, the 1.6 
billion is a down payment on something and it is over a five 
year period, I believe, that would be less than $20 billion. 
That is the latest debt that I have heard.
    Mr. Serrano. You don't know how much less----
    Dr. Droegemeier. Sorry?
    Mr. Serrano. You don't know how much less?
    Dr. Droegemeier. I don't know how much less, but I heard it 
was less than $20 billion, yes.
    Mr. Serrano. Now, what can we gain, other than to the 
ability to claim we were there first this time around?
    Dr. Droegemeier. Right. Right. Again, I think all the 
details of that, I think Jim Bridenstine could answer more than 
I could. I think it is more than sort of a political thing. I 
think there are--again, it ties into the mission of going to 
Mars. It ties in with the timelines of what private companies 
are doing, because the space launch system, of course, is a 
government system, but there are other things about getting 
crewed individuals to ISS. So it is a pretty complicated--sort 
of, complicated ecosystem, and I think Jim is much better 
suited to addressing that than I am. But what I told you is 
what my understanding of the situation, right.
    Mr. Serrano. This committee has a lot of faith in your 
abilities and your honesty. So I would hope that when the 
discussions come around, you let them know that we are serious 
in continuing to be helpful to NASA, and to space explorations, 
but that this is a big ask at a difficult time. And I think if 
you stay tuned to the news, you will see how difficult it is 
going to get in the next few days around here about dollars and 
cents. A lot of dollars and a lot of cents.
    Dr. Droegemeier. Thank you for your support of NASA, sir. 
And I have great relationships with Mr. Bridenstine. He was in 
Congress from Oklahoma. We know each other quite well and 
worked together. And I feel like we can have, you know, good 
discussions and I can learn a lot by talking with him and also 
service on the space council.
    Mr. Serrano. Well, one of the things that I have repeatedly 
said to the committee, which they are tired of hearing already, 
but you haven't heard it yet, is that my experience, I have 
never seen an auditorium of children and young people, high 
school people, any age, as excited when an astronaut visits. 
And so there is excitement in the public, and there is support 
in the public----
    Dr. Droegemeier. Right.
    Mr. Serrano [continuing]. For man, space flights. It is 
just that we have to pay for a lot of other things, so----
    Dr. Droegemeier. Right.
    Mr. Serrano [continuing]. Just keep that in mind.
    Dr. Droegemeier. I tell you. I met with a middle school 
group of kids from Florida, and they are launching CubeSats. 
These are kids in middle school. They are building CubeSats. 
And they are real technology. It is not just a fun toy. I mean, 
it is really extraordinary. So it really underscores the point 
you just made about the excitement and the inspiration that 
that can provide to the next generation of stem learners. Yes.
    Mr. Serrano. Let me go just a little bit here over time and 
just ask you about the--last week, the press reported that the 
science division had no staff. Given the scientific challenges 
we face, this is troubling to say the least. How many positions 
are currently vacant at the agency?
    Dr. Droegemeier. You know, a lot people sent that to me. It 
was done in 2017. People didn't look at the date on the 
article. It was actually from 2017. So people that sent it to 
me, they said, ``What is going on? OSTP is empty.'' I said, 
``Look on the date of the article. It is actually 2017.''
    So no, we actually have 80 people at OSTP. And if you take 
out the contractors and the interns, it is about--it is not 
about, it is 62 people. If you take out the administrative 
staff, I think it is about 49 and we have 26 MDs and Ph.D.s in 
that group. So it is really extraordinary. And the science 
staff is well staffed up.
    Yes, so that article is actually two years out of date. I 
don't know, somebody released it and it got out there. But yes, 
it was written two years ago.
    Mr. Serrano. Okay. So in closing this round here, starting 
this round, at the Mueller hearing, they are waiting for a 
bombshell statement. We found out there is no presidential 
committee and now that you are fully staffed, so this is the 
news of the day.
    Mr. Aderholt.
    Dr. Droegemeier. Thank you, sir.
    Mr. Aderholt. I appreciate, Mr. Droegemeier, you mentioned 
the 50th anniversary of the landing. I had the privilege to be 
at that event on Saturday out at Cape Canaveral with the vice 
president, and to celebrate that 50 year mark. So it was great.
    And of course, I am very encouraged about what NASA's 
mission is and what--our ability to go back to the moon in the 
very near future, and I think we can do that, and we are going 
to do everything we can to make sure that happens. And I 
appreciate the chairman's support for NASA funding and how we 
can continue to make that happen.
    Let me follow up with one question on artificial 
intelligence that--in your opinion, and again just in closing 
before we go on to something else, do you think the U.S. has 
fallen behind in--with our competitors, like say China, that as 
we fund artificial intelligence research and other emerging 
technologies?
    Dr. Droegemeier. No. In fact, I think that we are really 
the world leader in AI. I think that is also true in quantum. I 
had the privilege of visiting Oxford University about two, 
three weeks ago. They have a massive quantum activity in that 
university, and they had spoken many times with the person at 
OSTP. His name is Dr. Jake Taylor, who runs our National 
Quantum Coordination Office. He spoke very highly of him and 
how wonderfully linked together we are in quantum.
    So I think we lead those areas. I do think we have to be 
vigilant and continue to focus on those. And certainly, the 
president's high priorities. I think sometimes when you hear 
other countries, namely China, investing and they say we spend, 
you know, $10 billion or whatever, that might be over a 10 year 
period of time, but there is no mention of that perhaps.
    Also, it might be, as we talked earlier, what do you call 
AI? It might be there is something going on. There is a half a 
percent of AI and they maybe count the whole thing. So I am not 
saying they are being completely disingenuous, but I am just 
saying that one of the things we are trying to do is to really 
understand what the investments of other countries are vis a 
vis what we are doing. But regardless of that, we need to be 
really focused on the industries of the future because they are 
a huge part of our economy and the world structure going 
forward.
    Mr. Aderholt. Okay. I think it is imperative that we win 
this race to deploy 5G technology.
    Dr. Droegemeier. Right.
    Mr. Aderholt. Of course, NOAA and NASA claim that the FCC's 
out-of-band emission limits for the 24 gigahertz band will 
result in interference that could harm the collection of 
weather data via satellite by NOAA. Has the Administration 
reached a compromise regarding the allocation of federal 
spectrum for 5G use?
    Dr. Droegemeier. So there are really some robust 
discussions going on there. We have a long history in America 
of folks that have compelling needs and spectrum living next 
door to each other and being good neighbors. So I really feel 
that we will get there. I really do.
    Mr. Aderholt. So you have--has a compromise been reached 
or----
    Dr. Droegemeier. There is still discussions going on.
    Mr. Aderholt. So that has not been finalized?
    Dr. Droegemeier. It is still underway. It has not been 
finalized yet, no.
    Mr. Aderholt. Do you believe it is possible to advance 5G 
use without compromising our Nation's interest in weather 
forecasting and other technologies that we would want to 
pursue?
    Dr. Droegemeier. I believe that we will get there. You 
know, technology is an amazing thing. It provides lots of 
methodologies to get to a good end point. And so I think this 
issue has been looked at very carefully, and so I believe we 
will get there.
    One thing I would just add is when you look at our 5G 
deployment in America versus what some other countries are 
doing, there is different parts of the spectrum. And the reason 
that we are looking at all the different parts is certain parts 
have different characteristics. So if you look at the really 
high frequencies, you can push a ton of data over those things, 
but they are very short distance and they don't go through 
buildings. Okay, well, that is not great. So Okay, how do you 
deal with that?
    Well, the very opposite end of the spectrum, low end, goes 
very long distances. It can go through buildings. But you can't 
push nearly as much data. So what we are doing in the U.S. is 
taking the low, mid, and high band spectrum and pushing all of 
those forward at the same time. Other countries aren't doing 
that. So we are being, I think, really progressive in how we 
are going to be deploying our 5G systems.
    Mr. Aderholt. I mentioned in my opening statement that I 
was very interested in the perspective you bring to your 
office, given your extensive career in meteorology and extreme 
weather events. In southeast, which is of course where I am 
from, the State of Alabama in particular, we have experienced 
some of the most destructive, deadly, and intense tornadoes in 
the country. Matter of fact, I have heard a statistic that I 
think as far as any state dealing with deadly tornadoes, 
Alabama ranks number one, which surprises a lot of people, 
especially they think it is out maybe your way where those 
numbers would be.
    But in March, for example, over two dozen people lost their 
lives when an EF-4 tornado tore through east Alabama. And that 
is why many of my constituents and others in the southeast 
value the federal research programs like NOAA's VORTEX 
Southeast, because it brings federal agencies together to help 
us better understand how environmental factors in the region 
affect tornado formation, the intensity, and their paths.
    And despite the fact that the fiscal year 2020 budget 
request proposed, terminating important weather research 
programs, like the NOAA's Vortex Southeast, can you speak to 
the importance of these programs in furthering our 
understanding of the unique characteristics of tornadoes in the 
southeast, and how additional federal research, done in 
coordination with the universities, could be the key to saving 
lives and protecting property?
    Dr. Droegemeier. Yes. Thank you, sir. Well, first of all, I 
would say my thoughts and prayers go out to those folks who 
were affected by tornadoes, because being from Oklahoma, I see 
the devastation all too often, and it is really just 
extraordinary. Lives are torn apart, disrupted. But the hardy 
people of Alabama are rebuilding, just like the hardy people of 
Oklahoma. And so it is important that we do everything we can 
to understand the nature of these storms.
    And frankly, the storms in the southeast are different, and 
that is why there was this program. For those of you maybe not 
familiar with it, the whole VORTEX program stood up about 1995, 
I believe it was. It stands for Verification of the Origin and 
Rotation and Tornadoes Experiment. The acronym winner above 
all.
    And so it really is focused on exactly what it says. How do 
storms--how do these storms acquire rotation? In the southeast, 
compared to the midwest and Oklahoma, where we have these 
supercell storms, a lot of the tornadoes in the southeast come 
out of lines. They are kind of innocuous looking. Some of these 
F-4 tornadoes have come out of what we thought were fairly 
innocuous lines. Sometimes there is a heavy rain, you don't see 
the tornado, and all of a sudden you find this devastating 
tornado where you don't really have as much lead time as you do 
in Oklahoma, where these are much longer tracked storms.
    So fundamentally, there are new things to be learned there. 
The VORTEX Southeast program, I think has been in place, the 
current one is a four year program that would--scheduled to end 
after the 2020 data collection period, I think next spring if I 
remember right. And so there is a lot of data that has already 
been collected. And this isn't the only campaign, I think, they 
have had in southeast.
    I think the key thing is to gather as much data as we can, 
and analyze it, and really try to understand how these 
tornadoes are different in the southeast, which will probably 
help us in Oklahoma. And Oklahoma, understanding those 
tornadoes will also help us in the southeast. So it is really, 
really important. Folks die every year from these storms.
    The other thing I would mention very quickly, though, is 
that we are also tackling this, the social behavioral science 
dimensions of this. Because at the end of the day, all the 
science and technology of the world won't keep people from 
dying. At the end of the day, if we are going to get to the 
goal of zero deaths, which is a goal I really feel strongly 
about, then we have to understand how people behave under 
certain threats of warning, and if they live in a mobile home 
park, what we need to do to protect them in ways different than 
if somebody has got a basement with a well built home.
    So the totality of the problem, I think, is critical, but 
VORTEX Southeast is very important. These programs are very 
important.
    Mr. Aderholt. By the way, I am proud that the subcommittee 
was able to work together under the chairman's leadership to 
restore the VORTEX Southeast funding in the 2020 House bill.
    Mr. Serrano. Couldn't have done it without you.
    Mr. Aderholt. Okay. Glad I could help.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Dr. Droegemeier, I want to follow up on Mr. Aderholt's 
questioning about 5G. You know, we were going to have a hearing 
here with commerce secretary Wilbur Ross this year, but he 
skipped the hearing. So I didn't have a chance to question him 
about 5G development.
    OSTP appears to be involved in 5G development, am I correct 
in that?
    Dr. Droegemeier. Yes.
    Mr. Cartwright. In the research and in the deployment, 
right?
    Dr. Droegemeier. In the research and also looking at--well, 
working with USDA, for example, and the rural broadband 
initiative, and all those sorts of things, and what we actually 
need the R&D that is needed. Also, in terms of things like 
protecting our assets, right. That as well. So there are many 
different ways, correct. But it is one of the five industries 
of the future, right.
    Mr. Cartwright. And you are working with the 
administration, the FCC, the Commerce Department on this 
important issue?
    Dr. Droegemeier. That is correct.
    Mr. Cartwright. All right. Good. I am sure you agree that 
cybersecurity and data encryption are critically important 
issues with respect to the development of 5G in the U.S., 
right?
    Dr. Droegemeier. Yes.
    Mr. Cartwright. And here is what I am after. Will you 
assure this committee that OSTP will either take a lead role on 
this issue, or at a minimum, make certain that the FCC and the 
Commerce Department understand our subcommittee's concerns.
    Dr. Droegemeier. About cybersecurity?
    Mr. Cartwright. And 5G development.
    Dr. Droegemeier. Yes. Yes, indeed. Well 5G, of course, the 
president says we want to win the global race to 5G. So that is 
a marker in the ground. The other thing, cybersecurity, I 
mentioned in my confirmation hearing, I think is one of the 
gravest threats that we have to America and it is absolutely a 
top priority. So we will love to work with you and certainly 
all of the other agencies, yes.
    Mr. Cartwright. Good. I will take that commitment, Doctor. 
I would also like to revisit a comment you made in your 
confirmation hearing. You said, ``I believe science is 
extremely important in informing policy. I think science needs 
to be conducted free from political interference.'' Still feel 
the same way?
    Dr. Droegemeier. Absolutely.
    Mr. Cartwright. All right. So a series of recently 
published reports highlights the USDA's decision, abruptly, to 
suspend its bee population study, which closely coincided with 
the EPA's decision to lift restrictions and broaden the use of 
the pesticide, Sulfoxaflor. The reports further highlight the 
fact that Dow Chemical, the parent company, the manufacturer of 
Sulfoxaflur, gave $1 million to the Trump Administration for 
its 2017 inauguration.
    Does this sound to you like science that is being conducted 
free from political interference?
    Dr. Droegemeier. Well, I would say the conduct of science 
in those studies is what I say needs to be free from political 
interference. I think how the science informs policy is another 
matter.
    Mr. Cartwright. Now, the USDA recently scaled back and 
ultimately cancelled a science-based study on the impact of a 
proposed sulfite oar mine on the Minnesota boundary waters 
canoe area--wilderness area, despite commitments to Congress to 
finish the study. And on the heels of that decision, the DOI 
approved the renewal of mining leases to a subsidiary owned by 
a Chilean company, without understanding the full impacts.
    Now, the owner of that company purchased the $5.5 million 
mansion here in Washington, DC in late 2016 and rents that 
house to Ivanka Trump and Jared Kushner. Does this sound like 
science that is conducted free from political interference?
    Dr. Droegemeier. Again, I am not familiar with that 
situation----
    Mr. Cartwright. Fair enough. I will move on to the next 
one.
    A recent political report indicates that the USDA's 
agricultural research service is refusing to publicize dozens 
of scientific reports on the effects of climate change. The 
report highlights research that documents the link between 
higher atmospheric CO<INF>2</INF> concentrations and the 
lowering of rice grain nutritional value, which could have a 
significant impact on populations who rely on rice as a 
significant portion of their diet. Rather than issuing a press 
statement to publicize these important findings, the USDA 
withheld their own press release and actively sought to prevent 
dissemination of the findings by the agency's research 
partners.
    The University of Washington communications director said, 
``It was so unusual to have an agency basically say don't do a 
press release. We stand for spreading the word about the 
science we do, especially when it has a potential impact on 
millions and millions of people.'' That is what he said. 
Doctor, does that sound like science that is conducted free 
from political interference?
    Dr. Droegemeier. Again, I think the scientific research 
itself might have been conducted free from interference. What 
is actually done with that, I think, is another matter.
    Mr. Cartwright. And finally, a Washington----
    Dr. Droegemeier. But I am not familiar--I read that, but I 
am not familiar with it, in the paper, yes.
    Mr. Cartwright. A Washington Post article reported that the 
Department of the Interior ordered the National Academies of 
Sciences, Engineering, and Medicine to halt a study of health 
risks for residents near surface coal mining sites in the 
Appalachian mountains, citing a ``changing budget situation.'' 
The Department's Inspector General, however, concluded that, 
``Departmental officials were unable to provide specific 
criteria,'' to explain why that study was cancelled.
    Now, I am from northeastern Pennsylvania and my district 
faces years of mine reclamation and cleanup, and studies such 
as these are critical to providing the best information to make 
the most informed decisions now and for future generations. 
This appears to be another in a series of efforts by this 
administration to suppress scientific research that could reach 
conclusions that are contrary to its political efforts.
    As a general principle, is it good science to cancel 
scientific studies, such as this one, without credible 
justifications? Do you agree that this example, at least, 
appears to be politically motivated?
    Dr. Droegemeier. I would have to learn more about that, to 
be honest, to really give you a thoughtful answer. I do--would 
tell you, though, that I think the president has funded more 
superfund site cleanups in this administration than the other 
previous administrations have.
    Mr. Cartwright. Well, I will ask you to look into those 
questions that----
    Dr. Droegemeier. Sure.
    Mr. Cartwright [continuing]. You were unable to answer.
    Dr. Droegemeier. I would be happy to.
    Mr. Cartwright. And I appreciate your testimony, Doctor.
    Dr. Droegemeier. Sure, thank you.
    Mr. Cartwright. Yield back.
    Mr. Serrano. Doctor, concerns have been expressed about the 
potential influence of foreign governments on scientists who 
receive federal funding. While we want to protect our 
investments in science, we also want to encourage collaboration 
and ensure that individuals aren't targeted due to their race 
or country of origin. Does OSTP plan to coordinate with federal 
grant making departments and agencies to develop consistent 
policy as to what constitutes foreign influence?
    Dr. Droegemeier. The answer is absolutely, yes. One of the 
four subcommittees of the Joint Committee on Research 
Environments is exactly that. We call it the Subcommittee on 
Research Security. It will address all of these issues and 
convene not only the interagency, but also the academic 
community, the private sector. We have already begun this, 
working with the national academies, with professional 
societies.
    Now, let me just say that it is extremely important to 
recognize that science is an international endeavor, and we as 
a Nation have benefitted immensely from having scientists of--
come in here from other countries and work with us. They win 
Nobel prizes, they start Fortune-100 and 500 companies. We also 
have to make sure that we appropriately balance the openness of 
our research environment, which also is extremely critical to 
our success and has been with the protection of our assets. So 
finding that balance is very, very important. And we don't want 
to stigmatize individuals who are coming from other countries.
    In fact, the president in his plan for immigration 
mentioned he wants the best and brightest coming here, studying 
here, and staying here. So that is an unequivocal message, I 
think, that our doors are open with the important caveat that 
you come here legally, you come here through the front door, 
and also you adhere to the other part of our JCORE, and that is 
you act with integrity and uphold the values, which are 
fundamental to the research process itself.
    Research itself, we just talked about, has to be conducted 
with integrity. So if you are coming here from another country, 
or even if you are here from the U.S., you are a citizen, and 
you are not acting with integrity, you don't belong in the 
research enterprise because you are fundamentally working 
against the entrusted situation that we have with taxpayers and 
how we actually need to conduct research to know that it is 
free from undue influence of any other kind, other than just 
trying to discover how nature works.
    So we are on top of that very strongly, sir. And I am happy 
to say that because there is a lot of good work happening, but 
we have to make sure that we have harmonization and agreement, 
and everybody sort of works together on this important problem.
    Mr. Serrano. This is not directed at you, because you are 
only quoting the president, but I can't help myself. I don't 
think I ever saw on the Statue of Liberty, ``Give me your best 
and your brightest,'' I saw, you give me, ``Give me your poor 
and your tired,'' and it goes to the hurting and yearning. But 
anyway, will universities and other research institutions be 
required to monitor their employees with respect to any 
inappropriate foreign ties that they might have?
    Dr. Droegemeier. Of course, our work is still ongoing, but 
I can tell you that some universities are already taking 
measures to do that.
    Mr. Serrano. Yeah.
    Dr. Droegemeier. And what we have to make sure, now back to 
another subcommittee of JCORE's to make sure that we don't 
create additional burdens and additional processes that aren't 
going to be effective. So that is why we brought in the 
intelligence community, the law enforcement community, FBI. We 
have brought in the National Security Agency. They are all 
involved with this new Subcommittee on Research Security.
    So we have got all the right folks at the table, including 
the academic enterprise. Now, universities are obviously free 
to do whatever they want to do. But we think that if we come up 
with a series of best practices--not we. When I say we, I mean 
the community with OSTP convening. But that is probably the 
best way to get to a solution. Yes.
    Mr. Serrano. Thank you. Mr. Aderholt.
    Mr. Aderholt. The FCC has approved the operation of very 
large constellations of commercial satellites in low earth 
orbit, and plans to approve more, of my understanding. This 
activity involves important policy issues involving orbital 
assignments, orbital debris mitigation, frequency interference, 
spectrum allocation, and degradation of astronomical 
observation, among other things.
    What is OSTP's role in regard to these matters?
    Dr. Droegemeier. That is a really great question, and so 
number one, first and foremost, we have a seat on the National 
Space Council. And so I am privileged to have that seat, that 
of course is chaired by the vice president. We also have a lot 
of work going on in the area of things like space debris, space 
traffic management, through some of the orders that were issued 
as part of the so-called space policy directives that were 
issued when the space council was stood up.
    So we have issued reports on those sorts of things and it 
is very critical that we work with, and are working with, all 
of the groups that have equities in that, including the FCC, 
the commerce department, the military, and so on.
    Our low earth orbit space assets are really, really 
critical. And in my confirmation hearing, we talked a lot about 
the ISS, the International Space Station, how we want to not 
cede low earth orbit to other countries. So this is really 
important that the commercial enterprise be able to operate in 
low earth orbit, with safety, with the ability to track the 
management, and also things like space weather. The space 
weather plan that we put out looks at what the impacts of 
coronal mass ejections from the sun would do in terms of some 
of these assets, as well as electromagnetic pulses from high 
altitude nuclear explosions.
    So we are very heavily involved in all of those things.
    Mr. Aderholt. Do you--so based on that, do you believe that 
OSTP has a responsibility to protect the scientific assets of 
the U.S., as we mentioned the space station and scientific 
satellites in orbit from low earth orbit space junk?
    Dr. Droegemeier. So not necessarily protecting, but being 
involved in the conversation about the science and technology 
that is needed to do that and some of the policies that are in 
place. So the actual protection part could be, you know, the 
Commerce Department, for example, and regulating launches, and 
the FAA, and the FCC, and also the military. So we are one of 
several folks at the table.
    Mr. Aderholt. Is OSTP actively protecting these assets and 
licensing discussions?
    Dr. Droegemeier. In terms of spectrum licenses or launch 
licenses?
    Mr. Aderholt. Yes, launch.
    Dr. Droegemeier. Launch licenses? I don't think--I would 
have to maybe get back to you on this. I don't believe we are 
involved too much. Although one thing we did do in the National 
Space Council is look at streamlining the mechanisms by which 
one actually obtains a license. So you can--if you get, I 
think, one license, you can launch a whole bunch of vehicles, 
you know, with that one license rather than going back every 
time.
    So we are trying to reduce the regulatory burden to empower 
space commerce. So that is one example. But the actual 
licensure itself, I think we are not involved in that directly, 
except for the policy of streamlining it.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Dr. Droegemeier. Thank you, sir.
    Mr. Serrano. Thank you for coming before us and your 
answers to our questions. We hope to see you again and keep 
working on these issues. This is a very important area, one 
that we take seriously, this committee, and we will continue to 
do that kind of work in a bipartisan fashion, and I mean that 
sincerely.
    Dr. Droegemeier. Thank you, sir, very much for your good 
work and I really look forward to working with you. Very good 
questions, very good engagement. Thank you for the great work 
you do.
    Mr. Serrano. Thank you.
    Dr. Droegemeier. Thank you, sir.
    Mr. Serrano. Committee is adjourned.

    [Answers to submitted questions follow.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                     Tuesday, September 10, 2019.  

                   OVERSIGHT HEARING--DOJ COMMUNITY 
                           RELATIONS SERVICE

                                WITNESS

GERRI RATLIFF, DEPUTY DIRECTOR, COMMUNITY RELATIONS SERVICE
    Mr. Serrano. Welcome, Mr. Aderholt, and we will welcome the 
other members. I hope you had a good August recess and thought 
a lot about me, and I thought a lot about you.
    Mr. Aderholt. Oh yes. Thank you. Absolutely.
    Mr. Serrano. For the members here who may be surprised to 
have a hearing today, let me mention our thinking. I want to 
ensure I will continue our oversight responsibilities this fall 
so that we can better understand the agencies this subcommittee 
oversees, and so we can discuss what changes have occurred in 
these agencies under this administration.
    Today we welcome Gerri Ratliff, the deputy director of the 
Community Relations Service at the Department of Justice, a 
position she has held since January 2017. Deputy Director 
Ratliff has a broad prior Federal management experience with 
the National Science Foundation, the U.S. Citizenship and 
Immigration Services, and the former Immigration and 
Naturalization Service. She also served as counsel to the 
Deputy Attorney General for immigration policy and special 
counsel for the Justice Department's Office of Legislative 
Affairs.
    The Community Relations Service, or CRS, has a unique 
mission within the Justice Department. Rather than being 
focused on law enforcement or the administration of justice, it 
fills the gap the administration of justice--it fills the gap 
that exists before those roles come into play. CRS is a small 
part of the Department of Justice, but it has an important role 
and helping to reduce tension and find common ground when 
discrimination, violence, or hate crimes occur in our Nation's 
communities. CRS serves as America's peacemaker and acts as a 
first responder to help rebuild bridges and areas beset by 
fundamental issues involving civil rights violations.
    Those efforts range from efforts to reset dialogues between 
law enforcement and communities after to violence to reacting 
to hate crimes, to addressing bias in educational systems. Last 
year alone, CRS mediated in 282 cases across a range of issues 
at no cost to local communities in order to defuse tensions and 
promote solutions.
    All of this is done with a relatively small budget. In 
fiscal year 2019, CRS received $15.5 million. The House bill 
passed in June, it included an increase of $1.5 million, 
bringing the agency to a total of $17 million to help the 
agency address new work in civil rights cold cases.
    I believe that CRS' work is unique and needed, especially 
at this time in our Nation's history. Unfortunately, this 
administration does not appear to agree with this assessment. 
They have recommended essentially eliminating this office in 
their past budget request by trying to bring together CRS 
within the larger civil rights division. But without proposing 
an equal increase in funding for that division to accommodate 
new personnel.
    Aside from the serious budgetary impacts of that proposal, 
that proposal also misconstrues the very different roles that 
these two parts of DOJ have. The Civil Rights Division has an 
important role in prosecuting violations of the law. But it is 
an investigatory body. CRS, on the other hand, is seeking to 
build trust and propose solutions.
    I am thankful that this committee under both Republicans 
and Democrats has rejected this proposal. I hope that this 
hearing will be educational and informational for the members 
here today.
    I look forward to hearing more about the work that CRS does 
on behalf of our Nation and how a proposed funding increase 
will strengthen your efforts.
    With that, let me turn to my friend, Mr. Aderholt, for his 
comments.
    Mr. Aderholt. Thank you for yielding. I, too, would like to 
welcome our witness, Ms. Ratliff, to the Commerce, Justice, 
Science Subcommittee on Appropriations as you testify regarding 
the work of the Community Relations Service.
    As we will be learning now more about this from our 
witness, the Community Relations Service, of course, assists 
State and local communities in the prevention and the 
resolution of tension, violence, and civil disorders relating 
to actual or perceived discrimination on the basis of race, 
color, national origin, gender, gender identity, sexual 
orientation, religion, and disability.
    CRS legacy extends back actually to Selma, Alabama, where 
it helped maintain peace during two of the three marches by Dr. 
Martin Luther King.
    One thing that I look forward to today is to learn more 
about the day-to-day operations of CRS and the original 
offices. The techniques that CRS has found to be most useful in 
resolving local conflicts, and how CRS works with our State and 
local law enforcement partners in order to facilitate and 
improve public understanding of their efforts to make our 
communities safer.
    For fiscal year 2020 the Community Relations Service was 
once again the subject of consolidation proposal in the 
President's budget. Rather than request an appropriation for 
the CRS, the fiscal year 2020 budget, instead proposes to 
consolidate the functions of CRS into the Civil Rights Division 
of the Department of Justice. The division responsible for 
enforcing civil rights laws and consulting with individuals and 
groups who call upon the Department of Justice in connection to 
civil right matters.
    According to the budget justification, the consolidation 
would appropriately right-size the Federal Government's role in 
local conflict resolutions while eliminating duplicative 
functions and improving efficiency. However, in contrast, the 
fiscal year 2020 CJS, Commerce, Justice, Science, and Related 
Agencies Appropriations Act that was passed by the House this 
session maintains CRS' independent component within the 
Department of Justice and increased the funding by $1.5 
million.
    Nevertheless, we must continually review the accounts under 
the jurisdiction of the subcommittee to find the efficiencies 
and eliminate the duplications. For this reason, I thank the 
chairman for holding this hearing so that we can learn a little 
bit more about it today.
    Certainly left unaddressed, deep-seated social conflicts 
can erode public trust and they can threaten the peace and the 
safety inside our communities.
    Accordingly, I deeply appreciate the efforts of our 
Department of Justice to protect the rights of all individuals, 
to live free from violence, to also live free from 
discrimination, and to also be able to worship freely.
    So, again, thank you, Ms. Ratliff, for appearing before us 
today. I look forward to your testimony. And, Mr. Chairman, 
with that I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Deputy Director, you are now recognized for your comments 
for your opening statement. Please try to keep it to 5 minutes, 
and as you know, we will include the full statement in the 
record. Thank you.
    Ms. Ratliff. Thank you, Mr. Chairman.
    Chairman Serrano, Ranking Member Aderholt, and other 
distinguished members of the subcommittee, thank you for this 
opportunity to speak with you today. I am pleased to provide an 
overview of the mission and work of the U.S. Department of 
Justice Community Relations Service, or CRS. CRS serves as 
America's peacemaker for communities and conflict by mediating 
disputes and enhancing community capacity to independently 
prevent and resolve future conflicts.
    CRS was established under Title 10 of the Civil Rights Act 
of 1964, and its mandate was expanded under the Matthew 
Shepherd and James Byrd, Jr., Hate Crimes Prevention Act of 
2009. CRS works with stakeholders to resolve community 
conflicts and prevent and respond to alleged violent hate 
crimes arising from differences of race, color, national 
origin, gender, gender identity, sexual orientation, religion, 
or disability.
    With our unique mission, CRS is the only Federal agency 
dedicated to assisting State and local units of government, 
private and public organizations, law enforcement and community 
groups, to build capacity to resolve conflicts based on our 
statutory categories. CRS helps facilitate the development of 
mutual understanding and agreement as alternatives to violence 
or litigation.
    CRS conciliation specialists are impartial and do not 
investigate or prosecute. Over the years, CRS has monitored 
almost every major civil rights related public demonstration 
across the country, helping to ensure organizers are properly 
trained to maintain peace during these events, and providing on 
the ground conciliation support.
    Our conciliation specialists share their mediation, 
facilitation of dialogue, training and consultation expertise, 
with communities experiencing conflict across the U.S. and in 
its territories.
    CRS staff travel to cities and towns to work directly with 
stakeholders, and assist them in developing strategies to 
reduce tensions. Topics of discussion frequently include 
tensions related to race, color, and national origin; police 
community relations; perceived hate crimes and bias incidents; 
tribal conflicts; and protests and demonstrations. The 
dialogues help communities develop action plans for building 
trust and strengthening relationships between groups, as well 
as resolving conflicts in neighborhoods and schools.
    CRS' programs include the Bias Incidents and Hate Crimes 
forums and Protecting Places of Worship forums that convene 
local and Federal law enforcement and community organizations 
in educational discussions about hate crime laws and reporting, 
approaches to combat and respond to bias incidents and hate 
crimes, and best practices to help communities protect places 
of worship.
    With 16 conciliation specialists and 5 regional directors, 
CRS has provided services to community groups this year in over 
150 cases through the end of the third quarter of this year.
    As in prior years, the majority of our cases are based on 
race, color, and national origin. However, this year cases 
based on religion have also become an area of focus. For 
example, CRS has supported communities in 19 instances this 
year related to anti-semitism from the Tree of Life Synagogue 
massacre in Pittsburgh to the shooting at a Poway Synagogue in 
southern California. Incidents such as these increase tensions 
not only in the local communities in which they occur, but 
around the country as well.
    We anticipate that the trend this year of responding to an 
increased number of religion-based bias incidents and hate 
crimes will continue in fiscal year 2020, in addition to our 
work in our other jurisdictional categories. And, as always, we 
expect incidents and tensions based on race to comprise the 
larger share of our work.
    Programmatic activities planned for fiscal year 2020 
include completing updates to three facilitated dialogue 
programs and related tools and resources, and a new training 
course for stakeholders on skills for facilitating multiparty 
meetings. In terms of program evaluation, we will collect day 
of session feedback on the content and delivery of all of our 
trainings and programs, and we plan to pilot an assessment 
process to measure the longer term impact of our programs, such 
as capacity building, strengthening police community relations, 
and the degree to which participants have applied the knowledge 
and skills learned in the trainings.
    These evaluations will aid CRS in the ongoing improvement 
of our programs and allow the agency to respond to the ever 
changing needs of our diverse stakeholders.
    Thank you for the opportunity to discuss the work of CRS 
and our commitment to serving communities as America's 
peacemaker. I look forward to answering any questions you may 
have.

                       CRS' PROCESS FOR REQUESTS

    Mr. Serrano. Thank you so much. I would like to start by 
going over some nuts and bolts of how CRS performs. CRS' 
conciliation specialists provide their assistance on a 
voluntary basis at the request of officials or community 
leaders.
    Could you walk the committee through how such requests come 
in and how CRS decides which to support?
    Ms. Ratliff. Thank you for that question, Mr. Chairman.
    First of all, we receive requests from stakeholders for 
services, we receive referrals from offices like our U.S. 
Attorneys offices when they see an incident that they think 
might be appropriate for CRS to look at, and also we 
proactively identify opportunities to provide services and then 
can reach out to stakeholders explaining what our mission is 
and what our programs are, and then working with them if they 
accept our offer of services.
    The way we identify which cases to pursue is really based 
on priority. Every year there is always going to be more 
potential cases across the country than any office could 
address. We also work with communities not just in addressing 
tensions and conflicts, but communities working to proactively 
prevent as well as respond to hate crimes.
    So we are able to prioritize the cases where we think we 
will have the most impact, where we think there is an 
opportunity to build community capacity, we are small. And so 
part of our approach is helping communities develop the 
capacity independently in the future to assess and resolve 
their own tensions to leverage our resources across an even 
greater spectrum.
    So our cases come from stakeholders who are interested in 
our services where we think we will have the most impact, where 
there are the greatest tensions, and that is just an evaluation 
that is carried on at headquarters and the local level.
    Mr. Serrano. But there are cases where you see a need to 
offer your services and not wait for the folks locally to tell 
you they need your help?
    Ms. Ratliff. Yes, Mr. Chairman. We are able to proactively 
reach out. If a community has not worked with us previously, we 
will offer as a matter of outreach to go to them and describe 
our mission and what our programs and services are, and often 
they will then over time work with us to decide if any of our 
range of services might meet their needs. Some communities are 
already able to address their needs on their own.

                       PROACTIVE OUTREACH BY CRS

    Mr. Serrano. Right, because that was the question I had. 
The engagement usually happens after a hate crime, a police 
shooting, you know, a conflict at a school, public facilities, 
after the event takes place, unfortunately.
    So we wanted to know how you promote a path to provide 
proactive support, which is what you started to answer, and if 
you have any further to say.
    Ms. Ratliff. Thank you, Mr. Chairman.
    Yes, we have quite an array of ways that we do our 
proactive outreach. When we see that local elected officials 
have turned over or new city leaders have been appointed, new 
community leaders have come to the community, we will 
proactively contact them to introduce ourselves. It is very 
important that we have reached out ahead of an incident to 
develop a relationship and trust. So our conciliators are going 
throughout their region to establish those relationships and 
renew and strengthen those relationships.
    We also have materials on our website. We have conducted 
webinars to explain our programs, in particular, our Hate Crime 
forums and Protected Places of Worship programs. We participate 
in conferences to make presentations about our services or to 
have a booth with our brochures and even our annual report to 
Congress that does describe our services and significant cases. 
We try to take advantage of any opportunity to do that 
proactive outreach so that relationships are in place before an 
incident occurs.
    Mr. Serrano. Let me just, not dry this subject up but, so 
when you say proactive, you said you are making yourself 
available and known to the community in case they need your 
help. But do you see an area or you read in the paper 
something, that there is something brewing, or some accusations 
have been made, and you step in and say, you know, we can help 
deal with this.
    Ms. Ratliff. Yes, absolutely, Mr. Chairman. Part of the 
conciliator's job is to monitor the news, monitor social media, 
be aware of public sources of information that would give them 
evidence of where there may be a growing tension in one of the 
cities in their jurisdiction. And then they will assess and 
monitor either offsite, by making phone calls, by going onsite, 
to introduce themselves to the relevant stakeholders or to 
strengthen the relationships that are already in place.

                               MEDIATION

    Mr. Serrano. Now, when CRS takes on a role that is 
mediated, does it reduce the likelihood that litigation might 
otherwise be pursued?
    Ms. Ratliff. Mr. Chairman, we hope so. There have been 
cases that we have successfully concluded a mediation agreement 
and then there was not litigation, and so we would like to say 
that our work was a part of that reason to avoid the 
litigation.

                               PUBLICITY

    Mr. Serrano. Let me just--we are aware that CRS provides 
its services in a discreet manner that reduces the potential 
for misunderstanding and avoids unnecessary publicity that 
might interfere with confidence building and communications. 
How do you reconcile this with the potential benefits 
publicizing CRS contributions to reducing conflict in 
communities, positive advertising, if you will.
    Ms. Ratliff. Mr. Chairman, we do take advantage of, in your 
words, positive advertising in a way that does not reveal 
confidential details of our cases. For example, in our annual 
report we do get waivers from parties before we divulge any 
details at all, even at a high level about our cases.
    When we provide outreach, we do include relevant case 
summaries where we have been given permission from the parties 
and do not reveal details that would identify the particular 
parties involved, and certainly not specific conversations that 
occurred.
    But there is a lot that we can do and that we do do to try 
to get the word out about the kinds of cases that we work on, 
the programs and trainings we offer. Certainly we can discuss 
and hand out our brochures, and as I mentioned, our webinars, 
to talk about those services without stepping over the line of 
confidentiality.
    Mr. Serrano. Thank you. Mr. Aderholt.
    Mr. Aderholt. Thank you.

             CRS DAILY TASKS IN REGIONAL OFFICES DAILY WORK

    I understand the Community Relations Service stands ready 
to offer its conflict resolution service to communities across 
the U.S., and I know there are examples of CRS having a 
positive impact on communities, as you have mentioned. Judging 
from your fiscal year 2018 annual report, CRS responds to a 
wide variety of isolated conflicts. What is the typical day 
like at one of your regional or your I would say 10 regional 
offices, I believe. Is that right?
    Ms. Ratliff. Mr. Aderholt, we have 10 regional offices and 
four field offices that report to a regional office.
    Mr. Aderholt. Four field offices. What is a typical day 
like when they are not actually engaged in a particular dispute 
resolution and activity on the ground or in a community.
    Ms. Ratliff. Thank you for that question. Most people who 
are aware of CRS know that we work to diffuse situations of 
actual conflict, such as a violent demonstration. That is 
certainly not 40 hours a week of work, and thank goodness it is 
not. But the bigger bulk of our work involves conflicts that 
don't include a present potential for violence or actual 
violence. Our facilitated dialogue programs, our mediations, 
our trainings, are typically conducted after weeks or months of 
planning.
    So a lot of what our field staff are doing is working with 
community groups to plan these events that take leg work to be 
successful.
    For example, this year we conducted seven mediations. A 
mediation is not something that you do in a day. It is 
successful only after careful planning, working with the 
parties on the right agenda, and multiple sessions. Our 
trainings are very similar where we work with a planning group 
to make sure all the right stakeholders are involved, that the 
word gets out so we have a successful event, and that there are 
elements included in the planning that we call a ``leave 
behind''.
    We don't ever like to do an event that is one session and 
then go away. We like to leave in place a structure, capacity 
building, if you will, where a working group or a council is 
left in place where locally they can then take what we have 
discussed in the training or the facilitated dialogue, and turn 
it into actions that are fitting of their local situation that 
they are empowered to then work on, implementing solutions on 
their own or with our support to address the tensions that led 
them to come to us in the first place.
    These are activities that again, are not quelling the 
violence on the street, but are very, very important to 
addressing underlying tensions, historical tensions. We also 
conduct a lot of outreach. It takes time to develop and 
strengthen relationships that must be in place before we can 
successfully go to a party when there is an incident and have 
trust already in place.
    We also encourage our facilitators in the field to share 
their expertise, which they do quite a bit, on panels, Federal, 
State, and local panels, task forces and working groups that 
work to increase capacity to reduce tensions and to prevent and 
respond to hate crimes. And they also share their expertise in 
meetings with senior government officials, working with the 
U.S. Attorneys offices, local officials, city mayors, chiefs of 
police, and others.

                         CENTRALIZED CRS OFFICE

    Mr. Aderholt. Thank you. According to your website, CRS has 
regional and field offices, as we mentioned, that are 
strategically located throughout the country to maximize 
availability of CRS services, meet the unique needs of the 
community they serve, and enable staff to deploy in the 
communities quickly in times of crisis. Some of these field 
offices serve a five or more State area.
    Couldn't a centralized CRS staff serve a vast majority of 
these States and the communities just as well.
    Ms. Ratliff. Congressman Aderholt, we have found 
historically that developing those local relationships before 
there is an incident is a key way to success. However, wherever 
we are located, whether centrally or spread out across the 
United States, CRS staff will work to achieve our mission as 
efficiently and effectively as possible.

                     ALLOCATION TO REGIONAL OFFICES

    Mr. Aderholt. How do you allocate--determine allocation of 
resources among these regional offices?
    Ms. Ratliff. Congressman Aderholt, first of all, we replace 
staff who have left through attrition or retirement (when 
someone has left an office) because we are small. The average 
number of staff per office currently is two or so, give or 
take.
    Mr. Aderholt. Is that in the regional offices or the field 
offices?
    Ms. Ratliff. Each field office currently has one staff and 
then our regional offices currently have on average two staff 
more at other points in our history. So when there is 
attrition, that becomes a priority.
    So as we are able to hire we will replace staff who have 
left, however, we are always mindful of case load and tension 
trends. So we also take into account if two regions each have 
lost a conciliator and we are going to hire one person, we will 
allocate the new hire to the region where we see by the 
caseload there is the greater need.
    Mr. Aderholt. And as you mentioned earlier there are--you 
have got 10 region offices and four field offices. Correct?
    Ms. Ratliff. Yes, sir.

                    REGIONAL OFFICE VS. FIELD OFFICE

    Mr. Aderholt. Now, what is really the role of a regional 
office as opposed to a field office?
    Ms. Ratliff. Congressman Aderholt, in many ways the roles 
are the same. The field office enables us to stretch our 
ability to develop relationships into a large city where the 
field office is located. For example, in the region that is 
situated in Atlanta, we have a field office in Miami. The staff 
in Atlanta are very busy covering their eight State 
jurisdictions. The population in Miami is such that it 
justifies having additional staff in our view, dedicated there 
to develop those relationships, not just in Miami, but 
throughout Florida, so that when there is an incident staff are 
close by able to more quickly deploy, and already have those 
relationships in place.

                        ALLOCATION OF RESOURCES

    Mr. Aderholt. And do you know the percentage of your budget 
that is spent annually on costs associated with travel and 
deployments?
    Ms. Ratliff. We can get you the specific figure. We do 
track that and it varies year to year, depending on the 
tensions and conflicts that the country is experiencing.

                       REGIONAL OFFICE DEPLOYMENT

    Mr. Aderholt. And I know you don't have the exact numbers. 
Do you have an average number of days a year that a CRS staff 
in the regional office are actually deployed actually in the 
local community?
    Ms. Ratliff. Again, it does vary significantly year to year 
based on need, but we could get you specific figures for the 
last few years if that would be helpful.

                     CRS ENGAGEMENT WITH COMMUNITY

    Mr. Aderholt. And then, lastly, when CRS deploys to a 
particular community that is in conflict or that is perceived 
to be in conflict, do its specialists seek out and work 
directly with the stakeholders?
    Ms. Ratliff. Congressman Aderholt, yes, absolutely. Our 
work is essentially supporting what stakeholders are doing.
    Mr. Aderholt. And they seek them out?
    Ms. Ratliff. Yes, absolutely. We seek out all of the 
stakeholders who are related to a tension, whether it is a 
community group, a neighborhood, the local law enforcement, the 
local Federal officials, the local elected officials, faith-
based leaders, our mission is to neutrally work with all 
affected parties.
    Mr. Aderholt. Okay. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And Deputy Director Ratliff, thank you for joining us today 
and thank you for your work.

                        CRS ANNUAL REPORT (2018)

    I want to start by reviewing some numbers with you, numbers 
that appeared in your recently published Community Relations 
Service 2018 Annual Report, that highlights the enormous and 
growing problem of hate crime in this country.

                    FBI HATE CRIME STATISTICS REPORT

    The FBI's Hate Crime Statistics Report released on November 
13, 2018, showed a 17 percent increase in reported hate crimes 
from 2016 to 2017, including the following: An 18 percent 
increase in hate crimes related to race, ethnicity, and 
ancestry. A 23 percent increase in hate crimes related to 
religion. A 66 percent increase in hate crimes related to 
disability. A 48 percent increase in hate crimes related to 
gender. And increases in hate crimes related to sexual 
orientation and gender identity.
    As far as I went with it, to the best of your knowledge, is 
that an accurate rendition of the statistics in the report?
    Ms. Ratliff. Yes, Congressman, I believe it is.
    Mr. Cartwright. You agree that the increase in hate crimes 
is a statistically significant figure, and that this is an 
issue that requires attention from the Department of Justice 
and Congress?
    Ms. Ratliff. Congressman, I am not a statistician, so I 
would hesitate to comment on its statistical significance.
    Mr. Cartwright. Okay. Would you agree that it is an issue 
that requires attention?
    Ms. Ratliff. Well, the Community Relations Service 
certainly treats it as an issue that requires attention and, 
so, yes, sir.
    Mr. Cartwright. Okay. Are the trends that I outlined just 
now, are they acceptable or do they require additional 
attention and action?
    Ms. Ratliff. Congressman, in the eyes of CRS, our staff, 
and just through the years, we have worked as America's 
peacemaker through many turbulent times from the marches in 
Selma to the post-9/11 backlash against Arab, Muslim, and Sikh 
communities to the violent demonstrations in Charlottesville in 
2017. We have seen turbulence throughout each decade of our 
existence and we proceed with our work to address the 
challenges of today as we have done throughout the years.
    Mr. Cartwright. It was a yes or no question. Are the trends 
I outlined acceptable?
    Ms. Ratliff. Congressman, even one hate crime is not 
acceptable. So I would say no.
    Mr. Cartwright. Thank you.

                        CRS ANNUAL REPORT (2018)

    Now the 2018 CRS Annual Report also states, quote, ``with 
its unique mission, CRS is the only Federal agency dedicated to 
assisting State and local units of government, private and 
public organizations, law enforcement and community groups, to 
resolve conflicts based on these aspects of identity, whether 
related to an individual's race, religion, gender, or other 
statutory category,'' unquote.
    It also states that, quote, ``CRS works with community 
groups to resolve community conflicts and prevent and respond 
to alleged violent hate crimes arising from differences of 
race, color, national origin, gender, gender identity, sexual 
orientation, religion, or disability,'' and from your testimony 
this morning, I take it that was very much in line with these 
statements as well. Correct?
    Ms. Ratliff. Yes, Congressman.

                         CRS BUDGET ELIMINATION

    Mr. Cartwright. But the administration's fiscal year 2020 
budget request eliminated the Community Relations Service and 
moved the function to the Civil Rights Division. Correct?
    Ms. Ratliff. Congressman, yes.
    Mr. Cartwright. While the community has rejected--excuse 
me. While this committee has rejected this proposal, if it went 
through the net result would have been a reduction in staffing 
from 54 employees to 15 employees, and a budget reduction from 
$15.5 million to less than a third of that, $5 million.
    The question is, are your employees busy? Do they have 
enough work? I assume they must have enough work given the 
alarming increase in hate crimes reported by the FBI.
    Ms. Ratliff. Congressman, our conciliators are busy. There 
is always more work than can be done.
    Mr. Cartwright. So if they are busy, why would you want to 
dramatically reduce their workforce?
    Ms. Ratliff. CRS is committed at any funding level, 
Congressman, doing all that we can to work with communities who 
are seeking to reduce tensions and prevent and respond to hate 
crimes. At any funding level there will be more work that can 
be done to support communities, and that is why we prioritize 
the cases where we think we will have the most impact.
    Mr. Cartwright. Well, in light of the worsening statistics 
that we have seen and the unique role that CRS plays in 
addressing those issues, what sense does it make for DOJ to gut 
the programs that are best suited to address hate crimes and 
violence in our communities?
    Ms. Ratliff. We are committed to working as efficiently and 
effectively as possible. There are always ways that we can 
leverage our resources and technology to do even more with what 
we have. And, again, no matter the year and no matter the 
funding level, there is more work than any office could do to 
support communities working on these issues, and at any funding 
level we must prioritize the cases where we can have the most 
impact.
    Mr. Cartwright. Last question. Don't you think this sends 
the wrong message? Cutting funding, cutting employees, cutting 
the budget for this really important agency?
    Ms. Ratliff. Mr. Congressman, CRS is focused on achieving 
our mission and fulfilling our mandates.
    Mr. Cartwright. Thank you.
    I yield back, Mr. Chairman.
    Mr. Serrano. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman. And thank you, Director, 
for being here today.
    First, I want to express my appreciation for CRS and the 
team you have in our home State of New York. Two years ago I 
held an event at our local Jamaica Muslim center to address the 
growing concerns of hate crimes and hate related incidents. And 
CRS played an integral role in addressing a lot of the concerns 
that came from our constituents.
    Additionally, I want to commend you for your collaborative 
work to develop and launch the DOJ hate crimes website. 
Hopefully, that will be very helpful. I want to piggyback a 
little bit about what my chairman and Mr. Cartwright have 
talked about, specifically in regards to anti-immigrant 
sentiment.

                     INCREASED ANTI-IMMIGRANT BIAS

    I wanted to know what specific steps are being taken to 
address some of this increasing anti-immigrant bias around the 
country?
    Ms. Ratliff. Congresswoman Meng, immigration status is not 
one of our jurisdictional categories, however, there of course 
is overlap with some of our categories. And when an incident is 
jurisdictional, we will work with the community groups, whether 
the perception is of a tension related to race, color, or 
national origin, or under our Hate Crimes Prevention Act 
jurisdiction, related to preventing or responding to a hate 
crime.
    So throughout our caseload you will see jurisdictional 
incidents where the community groups may, from their 
perceptions, think there is an immigration status related 
issue, and from our perspective we are working with them on our 
jurisdictional categories.
    So that work would include our facilitated dialogues, our 
trainings, our mediations, our consultations in sharing best 
practices.
    Ms. Meng. Thank you.

                         DOJ DEPARTMENT SUPPORT

    What type of support do you receive from other DOJ 
divisions to maybe collaborate on strategies to address some of 
the these. For example, white supremacists, field hate 
violence, and how is CRS collaborating with local law 
enforcement around the country to address these issues?
    Ms. Ratliff. Thank you for that question. We do leverage 
department resources when appropriate. We also work together on 
department initiatives, including the one you mentioned. Under 
the Hate Crimes Enforcement and Prevention Initiative, we have 
played a large role in the development of the hate crimes 
website as well as community facing hate crimes training that 
will be piloted next year.
    There are times during deployments where we will work with 
the COPS Office to conduct facilitated dialogues between law 
enforcement agencies or between a law enforcement agency and 
community groups dealing with conflict.
    Some of the Department of Justice components we would not 
have reason to work directly with, but we are always 
coordinating with our colleagues and coworkers to share 
resources and best practices.
    In terms of local law enforcement, many--in fact, most of 
our cases, the largest slice of our cases--involve in one way 
or another local law enforcement, so they are always one of our 
first stops in introducing ourselves, getting their perspective 
as we are neutral in terms of conflicts, and supporting their 
needs, sharing best practices that we are aware of, and 
referring them to other experts as needed, to hear from their 
perspective directly, and also to support their needs as we 
support all of our stakeholders' needs.
    Ms. Meng. Thank you.

                         NEWLY UPDATED PROGRAMS

    And, finally, I just wanted to ask about two of the more 
newly updated programs engaging and building partnerships with 
Muslim Americans and partnerships with Sikh Americans. As you 
know, these programs include presentations designed to raise 
cultural awareness about Muslims and Sikhs and share best 
practices with law enforcement.
    I wanted to ask about the current status of those two 
programs and presentations. Are they being actively deployed? 
Are the materials publicly available?
    Ms. Ratliff. Thank you for that question as well. The 
engaging and building partnerships with Muslim Americans and 
Sikh Americans trainings, actually two parallel trainings, are 
ones that we recently updated over the last 2 years. We worked 
with Muslim American and Sikh American groups to advise us on 
the content. We conducted a focus group of law enforcement 
because they are the target audience for these trainings to 
make sure that the content resonated with them and their needs.
    And we just recently held the law enforcement focus group, 
updated the content to meet their needs, and we will now be in 
fiscal year 2020 rolling out the new content for use across the 
country when requested.
    So far this fiscal year we have facilitated the trainings 
in Texas and New Jersey, again, conducting evaluations at the 
end of each session to refine the content. And the model we are 
using is using a local subject matter expert to be the face of 
the content.
    So, for example, when we are facilitating the Muslim 
American training, we will use a Muslim American expert who we 
have trained to present the content and answer questions, and 
then our conciliator is also present as an overall facilitator 
and to guide the audience to developing action plans for what 
actions they can take, based on the training, to better 
strengthen their own engagement with those populations.
    Ms. Meng. Would you be able to share some of these 
materials and trainings with our committee?
    Ms. Ratliff. Yes, absolutely.
    Ms. Meng. Thank you so much. I yield back.
    Mr. Serrano. Thank you. Mr. Crist.
    Mr. Crist. Thank you very much, Mr. Chairman. And, 
Director, thank you for being with us today. You have 
incredibly important work to do, and we appreciate you taking 
the time to speak with us.

                               FBI REPORT

    As Congressman Cartwright mentioned, in your written 
testimony you state that an FBI report showed that a 17 percent 
increase in hate crimes has occurred between 2016 and 2017. 
And, of course, that is just the reported hate crimes.
    You also state that CRS anticipates this trend to continue 
and that your office will be asked to respond to even more 
occurrences in fiscal year 2020. Given this, would you agree 
that CRS' work is increasingly important in today's society?
    Ms. Ratliff. Congressman, we believe that our work has been 
important since the 1960s when we were founded. As the specific 
nature of the conflicts facing this country have changed with 
the decades, we have adapted to meet the diverse needs of our 
stakeholders, but we have felt that each year each decade has 
brought its own very important challenges, including today.

                              HATE CRIMES

    Mr. Crist. Does your agency have the ability or the 
expertise to try to analyze what hate crimes are occurring in 
our present day society at all? Do you devote any work to that?
    Ms. Ratliff. Congressman, did you say to analyze why they 
are occurring?
    We do not have a unit dedicated to specifically analyzing 
why hate crimes are occurring. We are always, all of us, 
seeking best practices and research, working with experts to 
try to understand the latest research that would inform our 
programs. But we certainly could not speak as to the source for 
these hate crimes and bias incidents.
    Mr. Crist. Do you think it would be a good idea to try to 
learn what some of the causes might be of current hate crimes 
in America?
    Ms. Ratliff. I think that the causes of hate crimes and 
bias incidents, there is certainly not one cause I think they 
are very complex issues that are based on the community, based 
on the community group affected, based on the locality as to 
why a hate crime or a bias incident would occur. When there are 
historical tensions, they also play into perceptions and 
reactions.
    There are agencies, even within the Justice Department, the 
Office of Justice Programs has a mission that includes research 
and awarding grants to experts to conduct research.
    And I am not an expert on the scope of their grants and 
research, but as a small agency, we remain focused on our core 
mission, which is to support communities working to reduce the 
tensions and respond to hate crimes, and certainly at this time 
we are not seeking to divert from that mission.

                           ELIMINATION OF CRS

    Mr. Crist. Can you share with us why you believe the 
administration has proposed to eliminate your agency?
    Ms. Ratliff. The administration is focused on streamlining 
and prioritizing efficiency and effectiveness.
    Mr. Crist. Do you think given the recent increase in hate 
crimes in America that it's a good idea to do away with your 
agency?
    Ms. Ratliff. At CRS we are focused on advancing our 
mission, on working on our mandate of impartiality, and 
supporting community groups.
    Mr. Crist. What is your mission?
    Ms. Ratliff. Our mission under the Civil Rights Act of 1964 
is to work with communities that are seeking to reduce tensions 
and conflicts based on race, color, and national origin.
    Our mission was expanded in 2009 with the Hate Crimes 
Prevention Act to include five other categories: religion, 
disability, sexual orientation, gender, and gender identity, 
where we can support communities who are working on tensions 
related to those five categories as well as race, color, and 
national origin, to respond to and prevent violent hate crimes 
and the perceptions thereof.

                EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

    Mr. Crist. Thank you. Are you aware that the Department of 
Justice has been pressuring the Equal Employment Opportunity 
Commission to reverse its position that the Civil Rights Act 
prohibits employment discrimination based on gender identity or 
sexual orientation?
    Ms. Ratliff. Congressman, I am not aware of the details of 
that issue.
    Mr. Crist. I didn't ask if you are aware of the details, I 
was asking if you were aware of it at all.
    Ms. Ratliff. No, I am not, Congressman.
    Mr. Crist. Let me make you aware of it.
    Ms. Ratliff. Thank you, sir.
    Mr. Crist. I am reading from a Blumberg Law Daily Labor 
Report posted August 13, 2019. The Trump Justice Department is 
urging the Federal Employment Rights Agency to change its 
position and tell the U.S. Supreme Court to rule that 
businesses can discriminate against transgender employees 
without violating the law.
    So now we are all aware of it. What do you think of that?
    Ms. Ratliff. Congressman, I am focused on supporting CRS' 
work. We do work with communities addressing transgender 
related conflicts and tensions. In fact, this fiscal year we 
have had 12 such cases in States ranging from Florida, 
Illinois, South Carolina, Tennessee, Michigan, North Carolina, 
Washington State, Missouri, and DC.
    There have been cases, as I am sure you are very well, 
where a transgender women has been sexually assaulted, a black 
transgender woman was fatality shot, another transgender woman 
was murdered. Those are very concerning cases where we have had 
the privilege of working with community groups to support their 
work to prevent and respond to these types of heinous 
incidents.
    Following up on that work, we have just updated a training 
that we will be piloting in the next few months is for local 
law enforcement who are interested in strengthening their 
engagement with transgender communities. It is called Engaging 
and Building Relationships with Transgender Communities. So 
this is a very important part of our jurisdiction.
    Mr. Crist. Having said that, and I appreciate you using the 
adjective heinous in relation to those cases that you are 
handling and helping with currently, I would have to assume 
then that if there was a reversal of protecting people of 
transgender, that that would be equally heinous.
    Ms. Ratliff. Congressman, we are focused on our work.
    Mr. Crist. And that currently is your work, but if the 
Department of Justice is successful it wouldn't be your work 
anymore. Is that good or not good?
    Ms. Ratliff. Congressman, we are focused on our work and 
fulfilling our mission as America's peacemaker and we are 
committed to that mission.
    Mr. Crist. Thank you.
    Mr. Serrano. Mr. Case.
    Mr. Case. Thank you. And thank you to your staff for your 
critical work, getting much more critical. Just a couple of 
kind of logistical questions to understand. You have talked 
about stakeholders a number of times, who are they? I mean, who 
can come to you?
    Ms. Ratliff. Congressman, anyone can come to us. We work 
with Federal, State, and local elected officials, city 
managers. We work with law enforcement at the Federal, State, 
and local level. We work with faith-based groups, schools. We 
would work with civil rights organizations, community groups.
    We want to and must work with all groups related to a 
conflict because as a neutral body we must hear from all sides 
and equally work with them so that we have all of their trust.
    Mr. Case. And you talked about how U.S. Attorneys are one 
of your sources. Correct?
    Ms. Ratliff. Yes.

                        U.S. ATTORNEY ENGAGEMENT

    Mr. Case. What are they bringing to you? I am trying to get 
to a big picture of--you and your department, CRS, are kind of 
acute observers, independent observers of the state of our 
society. So I am trying to use you to understand what you think 
is happening out there and where the priorities should be.
    So U.S. Attorneys, what are they telling you they want you 
to work on?
    Ms. Ratliff. Well, Congressman, the U.S. Attorneys are, in 
terms of their intersection with our mission, they certainly 
are focused on hate crimes, prevention, and enforcement.
    The Department, as a priority, of course, is focused on 
hate crimes, including a department level working group that 
includes CRS as well as the U.S. Attorneys offices's Civil 
Rights Division, et cetera.
    Mr. Case. Are they primarily bringing to you hate crimes? 
Is that their concern, the U.S. Attorneys?
    Ms. Ratliff. U.S. Attorneys will refer hate crime related 
incidents to us. They also will refer, when they believe it is 
appropriate, incidents that would fall under our Civil Rights 
Act jurisdiction. If there is an officer involved shooting, for 
example, and there is a perception that it was motivated by 
race, color, or natural origin.
    They have at times suggested CFS to the local law 
enforcement and at the same time suggested that we reach out to 
offer our services. I think we hear from them related to both 
of our jurisdictions.

                             CRS RESOURCES

    Mr. Case. Okay. I think your testimony was that you have 
covered about 150 cases through 3 quarters of this year. How 
many more are out there if you would have taken if you had the 
resources, I mean, just that you would feel credible. Let's say 
that you could just really take any case that you felt was a 
priority and that should be taken, what kind of volume are we 
talking about? Are we talking about 3 times that, 5 times that, 
150 about right?
    Ms. Ratliff. Congressman, we are not able to quantify that.
    Mr. Case. I am just for your gut. I am asking for a--I am 
not asking your to quantify it, I am asking you for what you 
think. How many things come into the office or that you 
prioritize that you think, yeah, this would be worth working on 
through the same timeframe?
    Ms. Ratliff. Congressman, part of the difficulty in 
answering your question is that there are times when we reach 
out to a community group and the timing is not right from their 
perspective to work with us. So I don't know how many cases 
would fall into that category that we wouldn't have been able--
wouldn't have had the opportunity to address anyway.
    Mr. Case. Would you say that there is a lot more demand for 
what you do or other people do in society than what we are 
actually doing, is that a better way to answer this or are we 
about right right now?
    Ms. Ratliff. Congressman, I would say, yes, that has been 
true each year of our 55 years of existence.
    Mr. Case. Okay. When you sit down among your folks and 
evaluate your cases and take a look at your cases and look at--
I assume that you look at themes within your cases and root 
causes within your cases and try to extract some bigger picture 
lessons and initiatives, are there areas where you believe that 
Federal law is insufficient where you say to yourself, wow, I 
just wish we had a law that did this? Are there areas of that? 
Are we deficient in our hate crimes Federal legislation, our 
civil rights legislation, our race-based legislation?
    Ms. Ratliff. Congressman, that is not something we have 
analyzed. We have not identified any such areas.
    Mr. Case. Any gut feelings for that? Are there areas where 
the communities that you work with feel that there is not 
enough attention from the Federal Government?
    Ms. Ratliff. Congressman, that is something that we can 
take back to the department.
    Mr. Case. I just think you are perfectly suited to give 
that kind of advice because you are working independently with 
a lot of folks who will be very upfront with you about what 
they think. So that is the reason for my question. I am just 
trying to get a sense of where should we be hitting here.

                        AREAS OF CONCERN FOR CRS

    So then in the same spirit, you know, you have worked over 
a number of decades now. If you look out into the future, you 
have prioritized hate crimes, part of that is statutory and 
part of that is your observation. You have also identified in 
your testimony that areas of concern from a religion division 
perspective are on the rise. Are there one or two areas where 
you are just saying from your own priorities, yeah, we have got 
to work in that area a lot more because we have got to get 
ahead of that?
    Ms. Ratliff. Congressman, we care about all areas of our 
jurisdiction equally. We are concerned that every year the 
largest percentage of our cases are not just related to race 
but related to African American tensions, the overwhelmingly 
largest percentage of our cases every year since our inception.
    We also are concerned that religion-based cases, including 
anti-semitism-related cases, are rising. We are concerned with 
the number of hate crimes being committed against LGBTQ 
individuals, particularly transgender cases.
    We are concerned about all of our categories of 
jurisdiction. We are concerned about disability-related 
incidents. But even though our numbers are small in that area, 
we care very much about those cases.
    We watch our statistics. We look for trends. We try to 
respond. At the end of the day, we care about every single case 
and every case that goes unworked.
    Mr. Case. Understood. Thank you very much.
    Mr. Serrano. I have to say that--and I am not trying to be 
sarcastic--if we were grading you on being a loyal soldier, you 
would have done very well today.
    Ms. Ratliff. Thank you, Mr. Chairman.
    Mr. Serrano. Did you almost say Mr. President? No. It would 
have been a slip.
    But we have been around long enough to understand in all 
administrations what role the White House plays in the budget, 
and it is clear to this subcommittee on this side--and I 
venture to say that the other side knows it too--that they are 
trying to get rid of your agency and that is why they are 
trying to put it somewhere else.
    And you answered the questions the way you were supposed 
to, but please understand that the people who gave you more 
money in the budget last time was this subcommittee, in a 
bipartisan fashion. It was not the intention of the 
administration to do that. It was their intention to move you 
and push you out, and we have seen that in many places.
    The 2020 request proposed moving CRS functions within the 
Civil Rights Division. As you know, the House-passed 
appropriations bill did not support this action. In part, this 
reflected the view that CRS' mission needs to be expanded, not 
shrunk; but also that CRS not having a law enforcement or 
prosecution function does not seem a good fit for the Civil 
Rights Division, which is expected to carry out those functions 
and to do so with vigor.

               RELATIONSHIP BETWEEN CRS AND CIVIL RIGHTS

    What relationship does CRS have with the Civil Rights 
Division and with other DOJ enforcement agencies, such as the 
FBI, who investigate crimes such as hate crimes and 
discrimination? Can you work together or must you be strictly 
separated so as to keep your credibility as a peacemaker and 
not a score settler?
    Ms. Ratliff. Mr. Chairman----

                              CRS MISSION

    Mr. Serrano. Because, by the way, we do see your unique 
mission or the way the agency has developed it, where you go in 
and you try to make peace; whereas, we expect other agencies to 
go in and grab somebody by the neck or by the arm and say, why 
did you do that, you know, you can't do that.
    So how do you answer that question now?
    Ms. Ratliff. Thank you for the question, Mr. Chairman. We 
do leverage Department resources, where appropriate, as I 
mentioned earlier. That is mostly on Department-level 
programmatic initiatives, such as working together to implement 
the hate crimes website and community-facing hate crimes 
training.
    We do not share confidential details of our cases with 
other components of the Justice Department. We do at times have 
appropriate case to coordinate with, for example, as I 
mentioned before, the COPS Office, when we are both working to 
facilitate dialogue between local law enforcement and community 
groups or between law enforcement groups. Those would be cases 
where we are certainly not divulging any confidential 
information.
    We work with the Civil Rights Division, never in detail on 
cases, but, for example, if they call us in to support, for 
example, the announcement of a prosecutorial declination, then 
we would work with them to support the needs of the community 
and their understanding of the basis for that decision and 
working to reduce the potential for violence.
    But we would rather fall on our swords than divulge 
confidential information to any inappropriate source.

                            CONFIDENTIALITY

    Mr. Serrano. So you do work with these agencies, but there 
is still information that you don't give them or pass on to 
them, because you need that information in order to build your 
trust in the community. Is that it?
    Ms. Ratliff. Yes, Mr. Chairman. We could not do our work. 
We would have no trust if we were not able to keep our 
information confidential.

            CRS NORTHEASTERN REGIONAL OFFICE AND PUERTO RICO

    Mr. Serrano. Thank you. Does CRS Northeastern Regional 
Office, based in Manhattan, handle CRS' work in Puerto Rico and 
the Virgin Islands? In 2017, for example, school officials in 
Hato Rey, Puerto Rico, requested CRS services to help address 
community concerns about disparate treatment, based on race and 
color. How does CRS follow issues in Puerto Rico from such a 
distance? Is it all done with a team flown from New York?
    Ms. Ratliff. Mr. Chairman, the work in Puerto Rico is very 
important to us. We had six cases in Puerto Rico in fiscal year 
2018. Not only did we have staff volunteer to deploy in support 
of FEMA for the hurricane recovery efforts, but we also have 
staff dedicated to the needs that relate to our jurisdiction in 
Puerto Rico.
    For example, most of those cases in fiscal year 2018 had to 
do with perceptions of disparate access to resources relating 
to the hurricane recovery. Those were cases where we were able 
to work with FEMA and the local stakeholders to share 
information and ensure that access to recovery resources was as 
fair and equitable as possible.
    In addition, the schools in Puerto Rico have asked us to 
come back, not this year, but as soon as they feel ready, to 
work with them to address school-based tensions, and we look 
forward to doing that work.
    Mr. Serrano. So a lot of your work was with FEMA and 
agencies and such and trying to find out how they were treating 
Puerto Rico. I mean, we heard about it. We saw it in many 
cases, but it was hard at times to prove that they were not 
getting the same fair treatment that they should have been 
getting and that other people got.
    Ms. Ratliff. Mr. Chairman, in addition, there are often 
perceptions of disparate access in a chaotic environment, which 
is just as damaging as actual disparate impact as well. And we 
work on both categories to try to mitigate those impacts.

                CAPACITY OF NORTHEASTERN REGIONAL OFFICE

    Mr. Serrano. Deploying CRS personnel so far away must 
entail a significant commitment of personnel for a length of 
time. How does the Northeastern Regional Office ensure it has 
the capacity to meet demand for its services?
    Ms. Ratliff. Mr. Chairman, our conciliators and regional 
directors coordinate among themselves to ensure that we are 
meeting the highest needs. So if there is a case in New York 
that one of our two conciliators who are located there can't 
get to because they are meeting other needs within the region, 
we will, through headquarters, coordinate with the other 
regions to identify staff to deploy to the region. Our 
interregional deployments are a tool we use to ensure that we 
are meeting the highest needs where we can have the biggest 
impact.

                        CRS ANNUAL REPORT (2018)

    Mr. Serrano. Going back to FEMA for a second, your 2018 
report described the positive role that CRS conciliation 
specialists served in facilitating FEMA operations in Puerto 
Rico, particularly with disadvantaged communities suffering 
from Hurricanes Irma and Maria.
    Would you describe that effort as having a lasting impact 
on FEMA community relations? Is the experience transferrable to 
other government community areas of potential conflict, you 
think?
    Ms. Ratliff. Mr. Chairman, yes, absolutely. FEMA showered 
our staff with praises for the work they did on those 
deployments, and we do believe there are lessons learned from 
that activity that we can use elsewhere.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you.

                             CRS RESOURCES

    I understand that CRS plays a role in the Department of 
Justice's ongoing effort to strengthen relationships between 
the local communities and law enforcement officials. Could you 
talk about the resources that CRS uses to help inform its 
understanding of the police perspective in a conflict between a 
community and its officers?
    Ms. Ratliff. Thank you for that question, Congressman. One 
of our newest programs that we piloted last year is called 
Strengthening Police and Community Partnerships, or SPCP. And 
it is a facilitated dialogue program that we have found to be 
effective when local law enforcement would like to take action 
to address often historical tension, often around race, but it 
can be around any of our jurisdictional categories.
    So, for example, in fiscal year 2018, we conducted two such 
programs: One was in Erie, Pennsylvania, and one was in Topeka, 
Kansas. In those programs, we worked with the local police, and 
these programs were conducted at their request, bringing in 
community groups for a day-long session of working together, 
the community and the local law enforcement, in small groups to 
identify what was working well in the city, what could be 
better, reporting out and then switching the groups up, and the 
last part of the day identifying solutions that then were put 
into a report and turned over to a council.
    The council in both cities is comprised of local law 
enforcement and officials as well as community group 
representatives. The council in both cases has been working 
since that session to implement actions that were identified 
during the actual day of the dialogue.
    For example, I can tell you that the Erie, Pennsylvania, 
council is still meeting. In fact, I believe they have a 
meeting next week. They have scheduled training. They are 
working on a victims' assistance program, and they are asking 
CRS to support some work in schools to address tensions as 
well.

                                 ANTIFA

    Mr. Aderholt. Thank you. According to a New York Times 
article, the Antifa movement believes that violence is a 
justifiable form of protest. Has CRS attempted to engage with 
the members of this community in an effort to prevent their 
violent acts or hatred they espouse towards law enforcement and 
people with whom they disagree?
    Ms. Ratliff. Congressman Aderholt, as I have mentioned 
earlier, part of being neutral is to reach out and be willing 
to dialogue with all stakeholders. I can tell you, though, that 
when we at times have reached out to Antifa, they don't return 
our call.
    Mr. Aderholt. You have attempted to engage?
    Ms. Ratliff. We have in certain cases, yes, absolutely 
attempted.
    [Clerk's note.--The Department responded for the record:]

    In response to a question from Ranking Member Aderholt, Ms. 
Ratliff stated that CRS attempted to engage with Antifa groups, 
but that they ``don't return our call.'' To correct that 
statement, there are some instances where CRS has successfully 
engaged with Antifa groups, and they recognize that CRS's focus 
on reducing the potential for violence serves the interest of 
all parties.

    Mr. Aderholt. And as far as training CRS' staff to maintain 
neutrality, you know, there may be times when they might tend 
to identify or maybe sympathize with one side over the other in 
a community conflict. What do you do to try to maintain that 
neutrality and try to make sure that they are going into it 
from a neutral stance?
    Ms. Ratliff. We focus on the importance of neutrality, 
every year. In fact, this summer we had our annual staff 
conference. And one of the significant activities of the 
conference, led by our general counsel and our regional 
directors, was a panel where we reviewed various case scenarios 
and discussed neutrality implications and actions and better 
actions that could be taken to emphasize neutrality. So it is a 
very important topic to us, and we do weave it into our 
professional development activities.

                         CRS STAFF INVOLVEMENT

    Mr. Aderholt. Are there any activities that CRS staff are 
advised not to participate in, because they exceed the role of 
a neutral facilitator?
    Ms. Ratliff. Congressman Aderholt, we have some general 
guidelines. Much of neutrality is a case-by-case basis, but, 
for example, we have some very clear guidelines that if a 
conciliator is at a demonstration, they shouldn't be buying a 
tee shirt and wearing it or wearing a button. There are some 
very black-and-white guidelines. But a lot of the challenge of 
neutrality is not so clear-cut and something that we work at 
and discuss all the time.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.

                          CRS DIRECTOR VACANCY

    Deputy Director Ratliff, I want to ask you about the 
vacancy at the top of CRS. According to the Washington Post, 
the position of Director of CRS is one of 145 key positions in 
the Federal Government requiring Senate confirmation that has 
not yet received a formal nomination from the current 
administration.
    We are now nearly 3 years into this administration's term 
and your director position remains vacant. I suppose that is 
why you are here instead of a Director to testify.
    The question is, what are some of the challenges that you 
have faced over the past 2 years, given that you are serving, 
really, in an acting role at CRS? Are there limitations on the 
Acting Director that are not imposed on a Senate-confirmed 
Director?
    Ms. Ratliff. Congressman Cartwright, I can't think of any 
specific limitations other than just time. Many of us at 
headquarters are serving in more than one position, and 
covering the bases and making sure that balls don't drop is a 
challenge that we all face. Every one of us at CRS has multiple 
duties.
    For me, as the deputy, I am focused on strategic planning, 
keeping the trains running, making sure that the staff have 
what they need to do their work and supporting them.
    Mr. Cartwright. We certainly thank you for that. I guess my 
followup question is, can you think of a good reason why a 
Director has not been nominated?
    Ms. Ratliff. Congressman, I am not aware of the plans in 
that regard or the reasons behind it.

                             MISSION OF CRS

    Mr. Cartwright. All right. I want to jump over to a topic 
the chairman just raised, and that was about the mission of 
CRS. According to the mission statement itself, it says: The 
United States Department of Justice community relations service 
serves as, quote, ``America's peacemaker,'' unquote, for 
communities in conflict by mediating disputes and enhancing 
community capacity to independently prevent and resolve future 
conflicts.
    And I appreciated your description of your work in Erie, 
Pennsylvania, in response to Congressman Aderholt's question.
    One of the key elements of the CRS is that it is 
independent of litigators, as the chairman mentioned, and 
independent of those who investigate and prosecute crimes 
within DOJ. And let me tell you why independence is really a 
key element. According to many advocacy organizations, it is 
this independence that permits local leaders, like the folks in 
Erie, to ask for assistance in preventing violence, without 
fear of instigating lawsuits and/or prosecutions based on the 
request, and participation in planning and prevention.

                               CRS BUDGET

    Over the past two budget cycles, this administration 
proposed moving CRS' functions to the Civil Rights Division 
while eliminating nearly three-quarters of its staff and two-
thirds of its budget, as we have discussed. Putting aside the 
obvious issues with the staffing and the funding, I want to 
talk about the wisdom of merging CRS into the Civil Rights 
Division.
    Now, Assistant AG Lee Loftus stated in 2018, quote: ``We 
are very aware that there are some potential issues if you 
combine them, because there needs to be some segregation 
between CRS and its responsibilities under the Civil Rights Act 
and the function that the Civil Rights Division may have in its 
regular investigative and prosecution responsibilities,'' 
unquote. He also stated, quote: ``So when CRS moves in, there 
is going to have to be some type of segregation so that we 
don't cross those lines,'' unquote. Now, we are very mindful of 
that and to the extent that we need different authorizing 
language in our legislation, that will be part of that fiscal 
year 2019 budget process that we work out on the Hill, unquote. 
That was AG Lee Loftus in 2018.
    So there seems to be a tacit recognition by the DOJ and 
this administration that there are serious legal issues with 
respect to this proposed merger. The overall savings from this 
proposed move would be $10 million, which is a lot of money but 
represents a small fraction of the overall DOJ budget.
    My concern is this merger would potentially reduce the 
efficacy of the CRS by eliminating that key independence from 
prosecutors. Do you agree with the civil rights advocacy groups 
that CRS should be a separate component under DOJ and not a 
part of the Civil Rights Division?
    Ms. Ratliff. Congressman Cartwright, the Department is 
committed to moving forward if Congress adopts the proposal in 
a way that preserves CRS' critical impartiality and need for 
confidentiality.
    Mr. Cartwright. Well, last question: As Deputy Director of 
the CRS and really the top person in charge of managing it 
right now, do you believe that CRS can be as effective with 
less independence, one-quarter of your current staffing, and 
one-third of your current budget?
    Ms. Ratliff. I am committed to supporting CRS' work however 
our agency is structured. We will continue to work as 
efficiently and effectively as we are able under any scenario.
    Mr. Cartwright. Thank you.
    Mr. Chairman, I yield back.

                              HATE CRIMES

    Mr. Serrano. Thank you. The CRS website notes that 90 
percent of hate crimes are violent and that about 48 percent of 
all hate crimes are motivated by racial bias, yet your website 
also notes that less than half of all hate crimes are reported 
to law enforcement.
    In our hearing this year with the head of the Civil Rights 
Division, we discussed the largest barriers to combating hate 
crimes was underidentification and underreporting. Last year, 
the Department set up a hate crimes website.
    How is CRS helping communities become more aware of the 
prevalence of such crime and to improve such reporting? Is the 
website increasing awareness of DOJ's CRS resources?
    And secondly, the website only seems to contain resources 
in English. Given the victims of hate crimes do not always 
speak English as a first language, what can we do or what are 
we thinking of doing to deal with that particular issue?
    Ms. Ratliff. Mr. Chairman, that was a lot of questions. I 
will try to answer all of them, and if I leave one out, please 
remind me.
    I will start with the hate crimes website. There have been 
over 100,000 visitors to the website since it was launched last 
year across all 50 States. That is one way we are hoping that 
awareness is getting out. The website was launched as a phase 
one, with plans to enhance it as we move forward, including 
adding information in Spanish in FY2020.
    Reporting hate crimes is often a function of trust. CRS 
focuses many of our programs on setting up opportunities for 
communities who might not feel trust to network and get to know 
local law enforcement, so that those relationships are in place 
and hopefully there will be trust to facilitate reporting.
    We also have two educational forums, the Hate Crimes Forum 
and the Protecting Places of Worship Forum, that include panels 
of Federal and local law officials often an Assistant U.S. 
Attorney or the U.S. Attorney even will attend--to talk to the 
participants, and these would be community members, about what 
is the Federal hate crime law, is there a State hate crime law, 
how do you report, what are victim services?
    Those are forums that we have conducted throughout the 
country. Even just this fiscal year we have conducted nine Hate 
Crime Forums and 14 Protecting Places of Worship Forums. We 
have just completed guides for how to conduct those forums. 
They are an A to Z guide for if a community wants to put on a 
forum without us or even with our help. The guides are a form 
of capacity building that we will be handing out and making 
available on our website, so that any community who wants to 
put on such kinds of educational sessions can do so.

                     POLICE AND COMMUNITY RELATIONS

    Mr. Serrano. I have one last question: One of the bigger 
issues in the country has been for a while now but certainly 
recently more than before is the relationship between the 
police and the community. And there is so much work that needs 
to be done there to create a better situation, and many 
communities are trying to do that. There has to be law 
enforcement within law enforcement to deal with discrimination 
cases. There has to be programs of understanding and coming 
together.
    What does your agency--how does your agency deal with that, 
and what resources are available at DOJ and in your office to 
reach out to communities on this particular issue?
    Ms. Ratliff. Thank you for the question, Mr. Chairman. As I 
described with the Erie, Pennsylvania, example, one of our 
programs that we developed last year is called Strengthening 
Police and Community Partnerships, or SPCP. It is a program 
that is customized for some of the scenarios you have 
described. When there are historical tensions or a recent 
incident between police and community groups and the police--
often there is a new police chief who is willing to try to make 
a fresh start with the community, we will set up a day-long 
session. And these are planned not in a vacuum, not just with 
the police chief, but with a planning group that includes the 
key community members so there is buy-in and credibility in the 
session. The structure of the programs is to sit the parties 
down, to talk through their perceptions of what works and what 
doesn't in the city, and then what do they think could be done 
for improvement.
    We do not come in and impose solutions. If solutions are 
not generated locally, based on their understanding of what 
would work, it cannot be successful. So we are behind the 
scenes facilitating those discussions, and then we set up a 
council that will take the solutions that have been identified. 
We put it in a report. And then they meet, on their own 
cadence, to implement the solutions that the community and the 
law enforcement identify.
    So this is not just a one day and it is solved session. 
This is a day session that then lives on through this council 
that is comprised of law enforcement as well as community 
group, representatives who then implement solutions that they 
think will address the issues that were raised. That is one of 
our programs that is very customized to the scenario you 
describe.
    We also have a similar program called the City-SPIRIT, 
where if the police issues are just part of a larger range of 
challenges, we can do a similar facilitated dialogue session 
that is not just focused on police related issuses in the 
community, but includes the participation of other city 
officials.
    And we also have community dialogues tailored to race and 
other jurisdictional issues, to enable community groups to come 
together, express their perceptions, and hopefully build 
relationships and trust to improve those relationships over 
time.
    Mr. Serrano. Well, I appreciate that. There is so much that 
needs to be done in that area, and it is not an easy one at 
times, but one where there are a lot of people who want the 
situation to be better, that there is trust in their local 
police, that there is support for their local police, but that 
the local police also respect and understand and not bring any 
of their personal feelings they may have growing up or 
something into their job.
    So it is a very difficult situation, but one that we must 
deal with and must resolve. With any community that has a 
relationship between the police and the community, it just 
won't work for either side. So thank you.
    Mr. Aderholt.
    Mr. Aderholt. Chairman, I don't have anything else.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. No more questions.
    Mr. Serrano. Well, we thank you. You are probably glad to 
hear the last three comments. We thank you for the work you are 
doing. We hope you understand that our comments are not meant 
to be critical, but, rather, we have certain beliefs.
    And we also understand that you can't get up here and agree 
with us on why you are not getting more resources and more 
support and so on. And it is all part of what we are dealing 
with in this country, trying to deal with a lot of things.
    But I personally, from my personal viewpoint and a 
prerogative I always take on my birthplace, do appreciate the 
fact that you pay attention to the territories of Puerto Rico 
and the others. If I accomplish one thing in Congress, it is 
that little by little it is beginning to change the language. 
It always was the 50 States, and now you hear a lot of chairmen 
of committee and ranking members say the 50 States and the 
territories, because we are one family, and a lot of people 
seem to forget that.
    Thank you so much.
    Ms. Ratliff. Thank you for this opportunity.
    Mr. Serrano. Meeting is adjourned.

    [Clerk's note.--The Department did not answer questions 
submitted for the record.]

                                    Thursday, September 19, 2019.  

 OVERSIGHT HEARING: SCIENCE, TECHNOLOGY, ENGINEERING, AND MATHEMATICS 
                           (STEM) ENGAGEMENT

                               WITNESSES

KAREN MARRONGELLE, ASSISTANT DIRECTOR FOR EDUCATION AND HUMAN 
    RESOURCES, NATIONAL SCIENCE FOUNDATION
MICHAEL KINCAID, ASSOCIATE ADMINISTRATOR FOR STEM ENGAGEMENT, NATIONAL 
    AERONAUTICS AND SPACE ADMINISTRATION
    Mr. Serrano. Good morning to all. I would like to welcome 
to the subcommittee Dr. Karen Marrongelle, Assistant Director 
of the National Science Foundation for Education and Human 
Resources; and Michael Kincaid, Associate Administrator for 
STEM Engagement at NASA.
    Both NSF and NASA play important roles within the Federal 
Government in advancing science, technology, engineering, and 
mathematics, and efforts to inspire young students to pursue 
these fields. These partnerships have provided great 
educational opportunities for students in the STEM disciplines, 
and have helped maintain American competitiveness and 
innovation on the world stage.
    Notwithstanding the congressional action in providing 
robust funding for STEM, the administration persists in trying 
to eliminate or reduce funding for STEM programs both at NASA 
and NSF respectively.
    Since January 2017, there has been a consistent effort to 
undermine the Federal agencies that make the United States the 
world leader in science and technology. For example, over the 
past 3 years NASA's budget request has not prioritized funding 
for the STEM engagement, requesting just $37.3 million in 2018 
and zero funding in 2019 and 2020. This committee has rejected 
these proposals and has instead provided healthy levels of 
funding for popular and effective programs, such as the Space 
Grant Program, EPSCOR, and MUREP.
    In the case of NSF, the Education and Human Resources 
Directorate has had budget requests with a 14 percent decrease 
in fiscal year 2018 and 9 percent decrease in fiscal year 2020, 
and, again, this committee has filled in the gaps and provided 
robust funding to continue the STEM mission. Advancing STEM is 
about investing in a better tomorrow; it is about educating our 
young students in fields that will determine the future of 
billions of people around the world.
    The subcommittee is committed to continue providing the 
resources necessary to build a workforce for tomorrow, create 
good-paying jobs at home, and advance scientific progress. We 
have been very focused on providing robust funding for STEM 
initiatives to ensure that young men and women of diverse 
backgrounds have access to a STEM education and that our STEM 
fields fully reflect the great diversity of our nation.
    Thank you again to both of you for being here today. Thank 
you for your service and we look forward to hearing your 
testimony.
    And now I would like to turn to my good friend and 
colleague Mr. Aderholt, our ranking member.
    Mr. Aderholt. Thank you for yielding, Mr. Serrano, and 
thank you for holding this important hearing on STEM and how we 
can better look at that, and see what is happening in that 
world and how we can better assist from the appropriations 
standpoint.
    I would like to welcome today's witnesses, of course, Mr. 
Mike Kincaid and Dr. Karen Marrongelle, to the Commerce, 
Justice, Science Subcommittee.
    Given that NASA and the National Science Foundation are 
leaders in the Federal STEM efforts, we are tasked with 
carrying out the President's 5-year STEM strategic plan. And I 
look forward to hearing how annual funding supports your 
agencies' STEM programs, how you work in coordination with your 
Federal partners to not duplicate STEM efforts, and how to 
address challenges that continue to exist in the STEM fields.
    Here on the Commerce, Justice, and Science Subcommittee, we 
do have a long bipartisan history of supporting STEM, and we 
aim to improve the quality and effectiveness of the education 
for students in the STEM fields by promoting engaging learning 
experiences and unique opportunities for students to contribute 
to the agencies' scientific initiatives.
    We still have a long way to go to address a lot of the 
barriers and the gaps that exist in the field, but I think we 
are very proud of the progress that we have made to expose more 
students, just like in the district I represent in Alabama, to 
STEM opportunities.
    Just recently, I joined with the NASA Administrator, Mr. 
Bridenstine, at a school in my congressional district, Arab 
High School in Arab, Alabama, where we toured the school and 
spoke to students about NASA's support for the student robotic 
program, and emphasized the very need for STEM education.
    STEM education provides a pathway for many high-quality and 
fulfilling careers, while helping boost the U.S. innovation, 
economic competitiveness, and national security.
    In the United States' race against China for high-tech 
supremacy, it is essential that we as a nation develop more 
future scientists and engineers. Our ability to innovative and 
lead in fields like artificial intelligence, quantum cyber, and 
nanotechnology depends on our ability to motivate and train 
today's students. Hopefully, this is exactly what the programs 
that we are going to be talking about today are doing.
    And, finally, speaking of our reference to remain ahead of 
China in scientific innovation, I would like to--it would be 
extremely worthwhile for this subcommittee to follow up with a 
hearing to consider NASA's budget amendment to accelerate the 
U.S. return to the moon in 2024. A subsequent NASA hearing 
would be a valuable opportunity to better understand how 
taxpayer dollars are being spent on human exploration programs, 
including the development and utilization of the SLS Rocket and 
the exploration of the upper stage production of Orion 
capsules, and the extent to which the agency is well-positioned 
to receive an additional $1.6 billion to support the Artemis 
mission.
    As the Trump administration recognizes, the United States 
is once again in a space race and now the stakes are even 
higher. And while the United States remains far ahead, China is 
striving to become a dominant space power. I don't think anyone 
would deny that. STEM engagement efforts hold the key to many 
groundbreaking scientific endeavors, not the least of which is 
the U.S. world-class space program.
    So, again, thank you, Mr. Chairman, for your organizing the 
hearing today, and we look forward to the testimonies of our 
guests here today and to hear from them, and I yield back with 
that.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Dr. Marrongelle, you are recognized at this time for your 
statement. We hope you can keep it to 5 minutes. As always, 
your full statement will be in the record.
    Dr. Marrongelle. Thank you.
    Good morning, Chairman Serrano, Ranking Member Aderholt, 
and other distinguished members of the subcommittee. My name is 
Karen Marrongelle and I am the Assistant Director of Education 
and Human Resources at the National Science Foundation. It is a 
pleasure to be able to testify before you today on the subject 
of STEM engagement with a focus on STEM education investments 
at the NSF.
    I joined NSF last October from Portland State University in 
Oregon, a veterans and nontraditional students-serving 
institution. As a first-generation college graduate, I am 
passionate about access and success in higher education, 
especially for students who have not had opportunities to 
thrive in the STEM disciplines.
    As my colleague from NASA will describe, scientific 
achievements like the moon landing can be life changing and 
motivating for people of all ages. We know there is a long road 
between an initial spark of interest in STEM to a successful 
career in STEM. At NSF, we want to understand the many roads 
leading from those initial STEM sparks.
    NSF is the only Federal entity charged with supporting 
education research at all levels, in all science and 
engineering fields, and in all settings. Combining the best 
that we know from research about learning and cognition with 
exciting ideas about how to teach STEM is a winning combination 
for inspiring and preparing the next-generation STEM workforce.
    In this hearing, I hope to convey to you my excitement 
about STEM education and why I think the work we do at NSF is 
so important for the future of the nation.
    Why is research on STEM education so important? First, it 
provides the evidence to help ground decisions on what to 
implement. We need the answers to questions like what are the 
most effective ways to teach the concept of force? How do we 
prepare teachers to teach engineering design to students from 
diverse backgrounds? And questions of particular interest to me 
as a mathematics educator, why are fractions so difficult to 
learn, and how can we make mathematics a magnet rather than a 
stumbling block? Education research will help us get the 
answers.
    For example, in the 1980s, NSF funded pioneering work at 
Carnegie Mellon University using artificial intelligence to 
help high school students learn algebra. The tutoring system 
was tested in a trial involving 146 schools in seven states 
with more than 18,000 students. Today, Carnegie Learning is a 
private company providing mathematics tutoring products used by 
half a million students per year in school districts in at 
least seven states.
    STEM education research can help us to imagine and prepare 
for the education of the future. NSF currently funds a project 
at New York University using what we know about the importance 
of having kids explain concepts during learning, but how 
difficult this can be for middle school students who don't want 
to be embarrassed by giving a wrong answer to their peers. In 
this project, middle school students teach a robot about 
geometry, while the robot provides expressive feedback and 
social support. Students refine their own understandings of 
geometry, while enhancing self-reflection and motivation during 
problem solving, all with a robot who probably won't make them 
feel embarrassed by their mistakes.
    The robots of the future may revolutionize education 
because they can be programmed to take advantage of our 
discoveries about learning and teaching, they can be 
customized, and they provide safe, nonjudgmental learning 
environments.
    STEM education research also helps us prepare the workforce 
of the future. Scientists and engineers constantly make 
discoveries that change the shape of their disciplines, 
requiring new education and training at every level. NSF's 
Advanced Technological Education Program focuses on the 
education of technicians for cutting-edge, high-technology 
fields such as advanced manufacturing, precision agriculture, 
biotechnology, and cybersecurity. Our graduate training 
programs support students working across disciplinary 
boundaries to solve some of the most challenging problems 
facing our world today. And this year, with a gift from the 
Boeing Company, we are tackling how best to re-skill employees 
through online training.
    Finally, education research is key to understanding how we 
can broaden participation in STEM. NSF is instrumental in 
uncovering what it takes to keep students on the road to 
reaching their STEM goals, and we do this by working with and 
learning from a variety of institutions to paint a picture of 
what works across the United States. We expect that the 
comprehensive NSF INCLUDES Program will add to our existing 
efforts. Its national network already has over 20,000 
participants and close to 900 partners. The program is intended 
to scale up proven practices through partnerships to engage 
everyone in STEM.
    In summary, NSF's investments in education allow us to 
advance research on teaching and learning, broadening 
participation, and preparing the STEM workforce. NSF's research 
portfolio provides the knowledge capital that underpins a broad 
spectrum of nationwide STEM engagement initiatives at NSF, 
federally, in schools and institutions of higher education, 
online, and in libraries, museums, and other learning contexts 
across the country.
    I will be pleased to answer any questions that the members 
may have. Thank you.
    Mr. Serrano. Thank you for your testimony.
    Associate Administrator for STEM Engagement--Mr. Kincaid, 
you are recognized.
    Mr. Kincaid. Thank you, Mr. Chairman.
    Chairman Serrano, Ranking Member Aderholt, and members of 
the committee, I am pleased to have this opportunity to discuss 
NASA's endeavors in STEM engagement. NASA is committed to 
achieving its exploration goals and to reigniting America's 
passion for space science, aeronautics, and space exploration. 
As NASA continues to move forward with Artemis, we envision 
students across this nation joining us on that journey. NASA's 
efforts with students attract the next-generation workforce and 
stimulate interest in STEM careers across the nation. Similar 
to Apollo, we envision creating the Artemis generation.
    NASA's STEM engagement efforts are part of a larger Federal 
effort to inspire students to study STEM.
    NASA, NSF, and the Office of Science and Technology Policy 
jointly lead the Committee on STEM Education, known as CoSTEM, 
which coordinates STEM education efforts across the government. 
NASA is proud to work with our Federal partners to maximize the 
impact of these investments in STEM.
    Congress passed the America Competes Reauthorization Act of 
2010, which directed the Federal Government to establish CoSTEM 
and required us to develop a Federal STEM education strategic 
plan every 5 years.
    In December 2018, we released a new 5-year strategic plan 
that focuses on building strong foundations for STEM literacy, 
increasing diversity, equity, and inclusion in STEM, and 
preparing the STEM workforce for the future.
    NASA's investments in STEM support those goals. Our STEM 
engagement strategies focus on three areas: creating unique 
opportunities for students to contribute to NASA's work, 
building a diverse future workforce by engaging students in 
authentic learning experiences, and strengthening understanding 
of STEM by enabling powerful connections to NASA.
    NASA's Office of STEM Engagement manages a mission-driven 
program comprised of four projects, which engages students at 
all levels and supports institutions. Now I would like to 
highlight these four projects.
    The pictures to the right of me--to the left of me, the 
right of you--show examples of how thousands of students have 
engaged with NASA through challenges and competitions. I know 
you are familiar with Space Grant, with consortia in all 50 
states, D.C., and Puerto Rico. Over 1,000 affiliate members 
engage students in NASA's mission through direct student 
awards, competitions, challenges, research opportunities, and a 
variety of student engagement activities. Space Grant is a 
powerful vehicle to build the Artemis generation across the 
country.
    The Minority University Research and Education Project, 
known as MUREP, invests in minority-serving institutions via 
competitive awards. MUREP enhances the research, technology, 
and academic capabilities of these institutions through multi-
year grants providing NASA unique benefits to students who have 
historically been under-served and under-represented in STEM.
    NASA EPSCoR directly contributes to the NASA mission by 
fostering partnerships among NASA research entities, industry, 
and academic institutions, while incorporating state priorities 
and needs. Through competitive awards, NASA EPSCoR bolsters the 
capacity of institutions that have historically been under-
represented in research awards.
    Finally, the Next Gen STEM Project was established last 
year to focus on NASA's efforts to engage K through 12 students 
and provide support to informal education institutions. We have 
developed a suite of evidence-based pilot activities that 
engage middle school students in NASA's mission. Next Gen STEM 
also makes investments in museums and informal institutions 
through competitive awards, and supports NASA's Museum 
Alliance.
    NASA STEM engagement investments can make a powerful 
impact. Last year, our efforts reached over a million students 
and educators. NASA provided over 32 million in direct 
financial support to more than 8,000 students in internships 
and fellowships. Nearly 40 percent of these opportunities were 
filled by women and 30 percent of our awards went to racial or 
ethnic minorities.
    It truly is an honor to speak with you today and thank you 
again for this opportunity. I am happy to answer any questions.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Serrano. Thank you. My first question is for both. The 
reason we are holding this hearing is because the 
administration's budget request for STEM education programs are 
wholly inadequate to our nation's needs.
    The fiscal year 2020 budget proposals for NASA and NSF 
include enormous cuts in STEM education funding. At NASA, the 
budget proposal included eliminating STEM education programs 
and at NSF your proposal included a cut of $87 million from the 
Education and Human Resources account.
    If the budget request was to be enacted, what impact would 
that have on the STEM workforce capacity building at 
undergraduate universities and K-to-12 STEM education for both?
    Mr. Kincaid. I will go first, okay.
    Chairman, thank you for the question. You know, the Office 
of STEM Engagement is just one part of NASA's effort to develop 
the next generation of the workforce. So we are very concerned 
about making sure that we are developing tomorrow's engineers 
and scientists, and we use NASA's missions to inspire kids in 
all different ways.
    It is true that we had to make some difficult choices in 
the budget process this year, but we do understand and fully 
appreciate that Congress has a very strong opinion about these 
programs and we make it a priority to implement that to the 
best of our ability. We do appreciate the broad bipartisan 
support that we enjoy and we hope to continue to merit that 
support in the future.
    Mr. Serrano. So you were consulted, obviously, then in 
these cuts----
    Mr. Kincaid. I was aware----
    Mr. Serrano [continuing]. In reaching these cuts or you 
were aware?
    Mr. Kincaid [continuing]. I was aware of the cuts.
    Mr. Serrano. But just the Administrator in that case was 
consulted? Or it was just sent down the way it usually happens?
    Mr. Kincaid. I am the Associate Administrator for STEM 
Engagement, it is my job to implement the work that you guys 
give us and the appropriations. We are set up to implement the 
funds that you will choose to appropriate for us.
    Mr. Serrano. Well said. [Laughter.]
    Mr. Kincaid. Thank you.
    Dr. Marrongelle. At NSF, similar to NASA, a reduction in 
our budget in EHR will result in fewer awards that we will be 
able to make, fewer innovations that we will be able to fund, 
fewer discoveries that we will be able to make.
    That said, with the generous fiscal year 2019 budget that 
we were given, I am very pleased at how responsibly we were 
able to allocate those funds and the number of projects that we 
were able to fund.
    For instance, we were able to add an alliance project in 
our NSF INCLUDES network this year based at the University of 
Pittsburgh, which is tackling a really interesting problem. We 
have increased the number of pre-college programs, especially 
for inner city minority youth, who take part in those programs 
and are successful and become interested in STEM, but we have 
realized that when they go to gain admission to colleges in 
their localities, they are having trouble gaining college 
admission. University of Pittsburgh recognized this problem and 
has now developed a national network to figure out how to 
credential pre-college programs and overcome this barrier, so 
that we can keep those kids on track to achieving their STEM 
dreams.
    It is projects like these that with whatever budget money 
we receive we are going to be able to continue to do this work, 
we will be able to do less of it with a lower budget.
    Mr. Serrano. Let me as a follow-up ask, is this simply a 
budget gimmick? Does NASA and NSF leadership expect the 
committee to backfill these major gaps each year?
    Mr. Kincaid. I am not sure that I can answer on behalf of 
NASA leadership. You know, we are here to talk to you about the 
work that we do and the----
    Mr. Serrano. Well, we can answer from our side. I mean, the 
reason you alluded to a generous increase is because this 
Chairman and Mr. Aderholt and our leadership agree in helping 
NASA and NSF, especially in the STEM field, and we would like 
to see every so often you folks initiating the asking rather 
than us filling the holes that have been left by some other 
people.
    But we know how things happen around here. Just know that 
on this side of the room you have people that want to help, but 
we need help over there also in making the case why you need 
the money we are giving you, because these days--and I am not 
trying to be political at this hearing, but Mr. Aderholt knows 
that I don't do that--but these days, to build a wall, money 
could come from anywhere, so you have to be making an argument 
all the time on behalf of what you have and what you need.
    Mr. Kincaid, the same question for you and you have 
answered already, so I don't want you to think that I was just 
praising the doctor for what she said, we want you to also be 
an advocate and a cheerleader.
    Congress has robustly funded four major programs, Mr. 
Kincaid, the STEM Engagement Appropriation; the National Space 
Grant College and Fellowship Program; the Established Program 
to Stimulate Competitive Research (EPSCoR); the Minority 
University Research and Education Project; and the STEM 
Education and Accountability Project. Each of these programs 
inspire youths to pursue the fields to advance science, 
technology, engineering, and mathematics.
    Are these opportunities fairly disseminated and can you 
give us examples of how each are administered?
    Mr. Kincaid. Chairman Serrano, thank you for the question, 
it is a great question. And I think it was alluded to, the 
Space Grant is a really powerful element of that opportunity. 
The fact that Congress has directed us to create consortiums in 
all 50 states, the District of Columbia, and Puerto Rico 
enables us to make sure that we are meeting local needs in 
those states. Space Grant works together to bring affiliates it 
could be higher education institutions, museums, science 
centers together to provide opportunities.
    We also look to Space Grant to help us make sure that 
EPSCoR institutions that are eligible for EPSCoR funding, as 
well as minority-serving institutions, in those states are able 
to access the opportunities that NASA has. We do put a premium 
on making sure that we are reaching all segments of our 
community, because we really do in order to secure and we 
talked about wanting to improve the diversity of this future.
    Mr. Serrano. Doctor, let me give you a follow-up question 
before I turn to Mr. Aderholt. Do you feel that there are gaps 
in existing programs that should be addressed? That is, are the 
STEM education needs in our country that NSF could potentially 
help address, but which are currently outside the scope of 
NSF's existing STEM education programs?
    Dr. Marrongelle. Thank you for the question. I am very 
proud of the work that we do through a variety of our programs. 
We reach students from infancy through to working adults, we 
work in formal settings and schools in all sorts of colleges 
and universities, from community colleges to liberal arts 
colleges to research-intensive universities, and then we do 
quite a bit of work outside the formal school setting. Work 
with museums, with television programs, work to get the word 
about STEM out and really reach the broadest population 
possible.
    We have, as you know, programs that focus on specific 
under-represented groups of students and institutions. We have 
programs through HBCU-up, through tribal colleges and 
universities, our new Hispanic-serving institutions program. 
Those institutions can and do achieve awards at NSF through the 
whole suite of programs that we offer at the Foundation.
    Where we have gaps is really in the number of questions 
that are out there about effective ways of teaching and 
continuing to evolve what we know about how people learn. We 
have those questions that remain that span all groups of 
students of all ages, of all geographic locations, and those 
are the questions that oftentimes we just don't get the full 
and complete answers to.
    Mr. Serrano. Thank you, thank you to both.
    Mr. Aderholt.
    Mr. Aderholt. Thank you. And these questions will be 
directed to both of you as well.
    Studies have shown that STEM education can provide workers 
with better employment opportunities, of course, wages that are 
higher and often double the national average, but there are 
millions of students in rural parts of America that face 
barriers to having access to high-quality STEM education. Some 
of the barriers would include teacher retention, shortage of 
mathematics and science teachers, inadequate resources, limited 
access to broadband services, just to name a few.
    In your opinion, what do you believe is the biggest barrier 
students in rural areas face in having access to high-quality 
STEM education?
    Dr. Marrongelle. This is a great question and thank you for 
it. We have been funding a lot in the arena of rural STEM 
education. In a recent review of our portfolio, we have some 
350 projects that, in some way, are looking at how STEM 
education is being implemented in rural communities and the 
specific challenges.
    I just came from a meeting yesterday at the Education 
Commission of the States where I heard a lot from educators at 
the State level who have particular concerns around ensuring 
access to STEM for rural students.
    As you highlighted, some of the major challenges are 
teacher recruitment and retention and teacher recruitment and 
retention in STEM subject matter. Recruiting a mathematics 
teacher or a science teacher to go to and stay in rural 
communities is one of the great challenges.
    Technology can also provide a challenge. It can provide 
opportunities, but depending on broadband access, that can also 
provide a challenge.
    We have several projects at NSF that are specifically 
looking at how we can address that challenge and how we can 
offer out-of-classroom support for students, as well. We found 
that partnering with libraries in rural communities, community 
groups, community centers, 4-H clubs; these are ways that we 
can get STEM professionals who are embedded in the community, 
have STEM understandings and knowledge to provide, to get them 
connected with kids outside of the classroom as we continue to 
work on the problem of recruiting and retaining teachers in 
rural areas.
    Mr. Aderholt. All right.
    Mr. Kincaid. I would add to what Karen said by just talking 
a little bit about some of NASA's activities. Again, I would 
refer back to Space Grant. The fact that it is in every state 
allows us to meet the needs of students wherever they might be 
and asking them to bring together affiliates, consortiums of 
organizations together in a state to make a difference, I 
think, is a key aspect.
    Part of why it is key is that we can show up with NASA 
content that they can distribute. I look at something like NASA 
STEMonstrations. These are start videos that were produced 
onboard the International Space Station and they are for use in 
teachers' classrooms to understand complex physics and science 
kinds of concepts. For us to be able to provide real-life 
examples that are very visual for students to be able to see is 
a real opportunity that we can partner with our other Federal 
partners to get that information out there.
    Thanks for the question.
    Mr. Aderholt. What are your Agencies doing to provide more 
opportunities in rural areas to broaden STEM programs on a 
nationwide basis and how do you evaluate the effectiveness of 
the programs in the initiative that you did mention?
    Mr. Kincaid. I will start by saying that evaluation and 
trying to make sure that what we are doing makes sense is 
really a key part. I stepped into this role two and a half 
years ago and it was an area that was probably not our strength 
and so I actually called Karen's predecessor and said, You 
know, the NSF has so much more experience in evaluation of 
basic research of education. They have truly been an invaluable 
partner to us to be able to come over, spend time with them, 
take some lessons learned from them, and I think there has been 
some opportunities for us to collaborate and learn from each 
other.
    Evaluation is critical. Space Grants and EPSCoR, MUREP, 
each of our grantees helping us provide the data of the 
implications and impacts they are making is a critical element 
of the appropriation that you sent us.
    Dr. Marrongelle. And just to add on to what Mike was 
describing, the heart and soul of what we do at NSF is we aim 
to understand what is working for whom, under what conditions. 
Any projects, any of the 350 projects that I mentioned, we are 
gleaning information from those projects to understand where 
are the projects making a difference and if they are not making 
a difference, what went wrong and what information can be 
shared out about, Don't go down that road, but instead, try 
this because this has been a proven practice.
    We love partnering with NASA, and other Federal agencies on 
answering those fundamental questions and getting the 
information out.
    Mr. Aderholt. Last December, the administration released 
its 5-year strategic plan for STEM education and it was titled, 
``Charting a Course for Success: America's Strategy for STEM 
Education.'' I understand the plan called for building strong 
foundations for STEM literacy, increasing diversity, as you 
have already mentioned, an inclusion in STEM and preparing for 
STEM workforce for the future.
    As part of this 5-year STEM initiative, you both serve as 
co-chairs on the subcommittee on Federal Coordination in STEM 
Education and I think it is commonly called ``FC-STEM.'' How 
does the annual NSF and NASA funding help carry out this 5-year 
plan and assist you in your role on the FC-STEM?
    Mr. Kincaid. Thank you, Chairman, for the question, and 
yes, Karen I visit virtually every Friday morning. We talk 
about FC-STEM and what we are doing and how we can work, not 
just our two Agencies, but all the Agencies together. I have 
got to tell you that these last two years, it has been exciting 
to see the Agencies wanting to come together. We have unique 
aspects. There are things that we do that are unique to us, but 
there are opportunities where we can collaborate and work with 
others and find out about things that I may not know about in 
my area that they are working on that we can partner with.
    I am excited about where we can go with this. It is, 
certainly, when we looked at our three overarching strategies 
for STEM engagement and we wrote those before the new 5-year 
plan came out, we were really gratified to see that they just 
dovetailed very nicely. We talked about diverse future 
workforces, and making sure that students were building, 
enabling contributions from our students into NASA's workforce.
    Dr. Marrongelle. Yes. It has been really amazing to work 
with Mike and all the Federal partners on this plan. I started 
in October, so when I came in, the plan was just getting 
finalized and I was really pleased to learn that NSF staff, as 
I'm sure NASA staff, were really instrumental in the 
development of the plan. We did get a lot of public input into 
what should be in the plan.
    When I read the plan, there is NSF fingerprints all over 
it, which means that it is--it dovetails very nicely with the 
programs that we have. It also, then, enables us to make 
further tweaks to the existing programs to better align with 
what's in the plan.
    You know, everything at NSF that we do fits into one of the 
3 goals that you have just described. This really is a 
blueprint for our work. It describes the work that we do, and 
as we move forward to implementation, we have 5 inner-agency 
workgroups that are set up that are rolling out how the Federal 
agencies are responding to the plan, how we are doing it in a 
coordinated way where we are not overlapping with each other, 
but rather, drawing on each other's strengths. It is really 
exciting work to be part of and to see how this is going to 
make a difference. It is already making a difference for the 
work that we are doing for the Nation.
    Mr. Aderholt. According to information that we received, 
the annual funding for propes for STEM education are typically 
in the range of $2.8 billion to $3.4 billion. Given that this 
is a significant Federal investment, how is FC-STEM working to 
ensure that Federal STEM efforts are not duplicated?
    Dr. Marrongelle. This is part of the interagency workgroup 
agenda that I described. Because we are meeting regularly, as 
Mike described--leadership for FC-STEM meets weekly. We meet 
with FC-STEM monthly. We have regular, ongoing conversations 
about what are the unique aspects of our Federal agencies and 
our unique contributions to the STEM Education Federal 
Portfolio. Where are places that we can partner to strengthen 
ties and ensure that the investments are widespread, and look 
for places where there might be duplication, but more 
importantly, where there are opportunities for collaboration.
    As an example, the NSF INCLUDES National Network recently 
had 5 Federal agencies join that network. Mike can describe 
what NASA is doing in that arena, but it is really exciting 
because we are ensuring that as we take a collective approach 
to broadening participation of STEM throughout the nation, it 
is not just NSF onboard, and we are able to reach communities 
by partnering with NASA or the Department of Educationor NOAA 
or NIH that, otherwise, we would not have had the chance to 
reach those communities to understand and learn from them and 
get the word out to a broader audience.
    Mr. Kincaid. I would add to Karen's statement by saying 
that, as she mentioned, one of the five IWGs (Interagency 
Working Groups) is looking at transparency and accountability. 
While our team that looks at evaluation and making sure the 
work we are doing is making a difference, we really have 
learned a lot not only from NSF, but from those regular 
conversations.
    You know, when you talked about how much money the Federal 
Government pays, the more we can learn from each other and not 
try to evaluate in our individual spaces, I think we can be 
more efficient and truly more effective to build the workforce 
that we talk about.
    As for NSF INCLUDES, you know, there is a number of things 
that we are working on together and as I have dug into NSF 
INCLUDES, what's interesting is they are looking at networks of 
organizations that already exist that we want to help make 
stronger to really broaden participation in our nation. And for 
NASA, those line up perfectly with our goals. To be able to 
have our network interact and leverage NSF's network, I think, 
can only benefit both us and NSF and the community. I am 
pleased to be part of that.
    Mr. Aderholt. Okay. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And, Dr. Marrongelle and Mr. Kincaid, thank you for being 
here and thank you for your testimony.
    One of the essential roles of NSF and NASA and our entire 
Government is in promoting STEM education is to inspire the 
next generation about science, to show them how important 
science is, and how much we value it as a society. What we do 
here in government, with respect to science matters. There are 
subtle and ``not so subtle'' messages that our Nation's leaders 
send to our citizens in our treatment of the scientific 
community and how we make policy and funding decisions related 
to science.
    When the administration's budget slashes funding in key 
research areas from studies of our bee pollination crisis to 
the impact of mining, that sends the wrong message about how we 
value science here in the United States. When scientists across 
the government resign in protest, citing, this administration's 
systemic suppression of climate-change research, that sends a 
clear message about whether the Government accepts widely 
understood scientific conclusions regarding the connection 
between human activity and climate change. It sends a message 
that politics will be valued over science and that the 
administration does not want to engage with science that fails 
to agree with its stated policy objectives.
    I want to ask some quick questions, and this doesn't even 
require a yes-or-no answer, just raise your hand if you agree, 
okay. Number one: Do you agree that scientific research should 
be conducted free from improper, political, and outside 
influence?
    It is a ``raise your hand'' question.
    Dr. Marrongelle. [Witness raises hand.]
    Mr. Kincaid. [Witness raises hand.]
    Mr. Cartwright. Oh, good, I knew you could do it.
    Number two: Do you agree that Federal agencies have an 
important responsibility to set a standard with respect to 
integrity of scientific research and its results?
    Dr. Marrongelle. [Witness raises hand.]
    Mr. Kincaid. [Witness raises hand.]
    Mr. Cartwright. Good. I am proud of you so far.
    Do you believe that in a potentially life-or-death 
situation, where the attention of the country is focused on our 
scientists, this would be an especially important time to 
protect scientific integrity?
    Mr. Kincaid. [Witness raises hand.]
    Dr. Marrongelle. [Witness raises hand.]
    Mr. Cartwright. Let the record reflect the witnesses raised 
their hands in the affirmative to all three questions. Look, 
you are here at the CJS Subcommittee hearing room and they 
provide us with equipment here; they give us pencils, they give 
us highlighters. One thing they don't give us is black 
Sharpies, okay. And we can all roll our eyes at a President 
trying to cover up his misinformation with a Sharpie, and those 
memes were a lot of fun, too, were not they?
    But the pressure on our scientific agencies to be complicit 
in this farce and reenforce false and dangerous information is 
what really disturbs me. The lack of will by scientists to 
stand up for the truth in science was disheartening.
    Now, I know it would have been immensely difficult to speak 
the truth in the face of the Secretary of Commerce and the 
White House Chief of Staff threatening to fire you. I know 
that. An NOAA meteorologist anonymously commented on the 
agency's attempt at self-censorship, ``This is the first time I 
have felt pressure from above to not say what truly is the 
forecast. One of the things we train on is to dispel inaccurate 
rumors and, ultimately, that is what was occurring.''
    NOAA's chief scientists called NOAA's response political 
and a danger to public health and safety--NOAA's chief 
scientists.
    Look, we need to build faith in our scientists so people 
trust them. They trust weather reports. They trust vaccines. 
They trust climate science.
    What NOAA did in response to political pressure hurts faith 
in science as an institution and I fear things like that will 
damage the appeal of science as a career to the next 
generation. We need brave people to do what is right. Now, if 
either of you are asked to misrepresent science for political 
reasons, would you make a different choice from that made at 
NOAA? How would you handle the situation?
    Dr. Marrongelle.
    Dr. Marrongelle. Thank you for your question. We stay true 
to the science that we do at NSF. We are about basic, 
fundamental scientific research and we enable this basic 
research to be done throughout the United States. We make 
incredible discoveries like the black hole discovery just this 
summer. We also, on a ship that involved students aboard, 
discovered microplastics in the ice in the Arctic, and we 
continue to support the research that goes on and we will 
continue to do that, as is our mission at the National Science 
Foundation.
    In the education and human resources directorate, we 
continue to get the word out about those scientific discoveries 
and the importance of STEM education and the excitement of 
doing science and engineering work throughout the country.
    Mr. Cartwright. Mr. Kincaid, please?
    Mr. Kincaid. Your question caused me to reflect. Thirty-two 
years ago, I started at the Johnson Space Center as a human 
resource person. I am not a scientist. I am not an engineer. On 
day one, they talked about what we do matters to humans in 
space, and so the work that we do is important.
    From the very beginning, we speak up if we see something 
that doesn't make sense. I feel like NASA and NASA leadership 
has continued to set a standard throughout my career that we do 
what's right and we bring you the data. We bring you 
information that you and other decision-makers can use.
    Mr. Cartwright. I can tell you my questions are making you 
uncomfortable and you should be uncomfortable.
    Do you believe that scientists, particularly those whose 
work has immediate life-and-death consequences, brazenly 
misleading the public could have long-term impacts on public 
perception of science?
    Mr. Kincaid. I didn't understand the first part of your 
question. I'm sorry.
    Mr. Cartwright. I will read it again.
    Do you believe that scientists, particularly those whose 
work has immediate life-and-death consequences, brazenly 
misleading the public could have long-term impacts on public 
perception of science?
    Dr. Marrongelle. I think that is possible. I think there is 
a lot about public perception of science that we still don't 
know about, that we are still finding out. The answers to how 
the public views science, how the public consumes science, how 
the public takes the findings of science and makes decisions 
about their daily lives and the choices that they make. This is 
an open question that we continue to try to understand and 
explore no matter the environments, within which we are 
currently operating.
    Mr. Cartwright. Will you both commit to standing up for 
scientific integrity, even in the face of political pressure?
    Dr. Marrongelle. Absolutely.
    Mr. Cartwright. Thank you.
    I yield back, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mrs. Roby.
    Mrs. Roby. Well, good morning. You get a softball from me. 
[Laughter.]
    You know, I have two kids, 14 and 10, and it is crazy how, 
you know, children and their skills seem almost innate when it 
comes to technology with a tablet or a phone or whatever it may 
be. I mean, I know if I get stuck, I just hand it to them and 
say, Figure this out for me.
    And so, you know, we have this workforce Gen Z, and my 
kids, and their generation, and I just want to know, as it 
relates to STEM jobs and helping push children in that 
direction--here's the softball--what can we do better? And I'd 
like to hear from both of you.
    Dr. Marrongelle. Sure. Thank you for the question. Yes, 
there is a lot that we are currently doing and there is a lot 
that we could do better. I also have a 9-year-old, so I 
understand exactly where you are coming from.
    We have been funding several projects through the Computer 
Science for All program that are equipping today's teachers 
with information about computer science, computing, and 
technology, both at the elementary levels, K through 8, and 
then at the high school levels. High school, we get more 
intensive training with teachers and they are starting to 
introduce computer science courses. We are seeing these 
introduced throughout the country. A new computer science AP 
exam was recently introduced just two years ago, which has 
really increased the number of women and minorities taking 
computer science and enrolling in computer science and 
succeeding at that exam.
    At the elementary levels, we are doing intense professional 
development with teachers to make sure that they know how to 
incorporate technology in the best ways into their classrooms. 
Often times teachers will show up into classrooms and they 
have, you know, a stack of ThinkPads and a smart board and we 
have to make sure that they are getting the professional 
development and the support to integrate those tools into their 
teaching. We know they can, but they just need a little support 
doing that.
    Mrs. Roby. So, I am just going to interrupt you for a 
second because it made me think, how do you guys identify 
underserved communities so that you can make sure that these 
resources are getting into communities that haven't had access?
    Dr. Marrongelle. Right. Great question.
    There are several ways and one is through the EPSCoR 
program at NSF, and EPSCoR is government-wide, so that 
certainly locates states where we have additional need. But 
then in our calls for grant proposals, there are different ways 
that grant proposers can identify how they are defining 
underserved, whether it is geographically or rural or urban, 
whether it is low-income, whether it is groups who, 
historically, have not had opportunities in STEM. There are a 
variety of ways that our proposers can identify the ways in 
which they see underrepresented needs in their communities 
because it is local.
    Mr. Kincaid. Now, I would add to that how we reach students 
depends on the audience and what age they are. When I think 
about your first question, I also have 3 kids and 2 are 
college-aged, but one is 11. How I would inspire 11-year-olds 
across the country is a little different than 18-year-olds.
    I was thinking about a couple of thoughts. What you have in 
front of you is a little booklet that we created and it is 
about forward to the moon and going back to the moon and what 
that might look like with Artemis. Giving students a chance to 
have hands-on experiences that they can help better understand 
concepts is an opportunity that I think NASA and our Federal 
agencies have.
    I also think about something that we have. We have 
something called NASA EXPRESS. It is a weekly email that goes 
out to about 40,000 educators across the country with 
information about content that teachers can use in the 
classroom to connect with them.
    We talked briefly about rural. It is challenging to figure 
out ways to get information handed to them, and NASA, as a 
small agency, is not going to be able to send a person to every 
place, but we can send through digital sources, through 
STEMonstrations I briefly mentioned, through other resources 
and partnerships. I think there is a real opportunity here to 
make a difference.
    Mrs. Roby. Well, that is great. And we appreciate the work 
that you are doing and thank you, again, for being here today.
    And any additional information that you want to send our 
way--I know we put out a weekly newsletter--not weekly--maybe 
twice a month about grant opportunities, so our constituents 
are aware of what monies are available. Obviously, we don't 
write the grants, but we do want to make sure that folks that 
are looking for these opportunities and want to pursue them 
know that they are there. So, I just want to make sure that we 
are in contact with you so that we have the most up-to-date 
information about how these different monies can be utilized, 
particularly, in my district.
    So, I look forward to continuing to work with you and thank 
you, again.
    Mr. Serrano. Thank you, Mrs. Roby, and thank you for 
adhering to the 5-minute rule.
    Mrs. Roby. I didn't know that I did, but great. [Laughter.]
    Mr. Serrano. I am trying to send a message here--I am 
trying to get you to send the message.
    Ms. Meng.
    Ms. Meng. Message received. [Laughter.]
    Ms. Meng. I want to piggyback off of Mrs. Roby's comments 
and questions. And it is no surprise that we have a similar 
line of questioning, as a fellow colleague and a wonderful mom, 
I wanted to also add that I have a 9-year-old and an 11-year-
old and also a niece who is now fascinated with STEM subjects 
and a large part of that is due to her science teacher in 
elementary school. And I wanted to, I guess, get--and you don't 
have to answer this today--but I wanted to get a better sense 
of some of these programs that you are talking about and maybe 
what the footprint is in New York state, selfishly, my 
district, but would be more interested in finding out about 
those opportunities and how we can work even more closely 
together.
    But also as you talk about the diverse and amazing talent 
pool of students in the U.S., but diversity is not always 
reflected, as you know, in business, academia, and even 
government. And so, I wanted to know what can Congress do to 
better support your efforts legislatively, as well, to help 
improve that diversity and increase opportunities.
    And also, what can our business community do to be better 
partners. They say they are concerned about it, but I am just 
curious what you think.
    Dr. Marrongelle. Thank you. Those are great questions and 
we will certainly get back to you with specific information 
about New York, where there are many exciting projects 
happening.
    This year we partnered with the Boeing company on two 
separate projects. They gave us $11 million to partner with 
them. A million of it went to our NSF INCLUDES program and it 
was focused on bringing women back into the STEM workforce who 
have had a gap in the STEM workforce with a particular focus on 
veteran women. We were able to award some projects that are 
figuring out ways that we can reach those women and get them 
back into, at the post-secondary level, back into programs 
where they can get credentialed and degrees in the STEM 
disciplines. It was very exciting and it was wonderful to see 
Boeing step up in that way.
    The other way that we are working with Boeing with ten 
million of that $11 million was on re-skilling their current 
workforce and they are interested in figuring out, really being 
part of the solution for the nation, how do we ensure that the 
workers of today are going to have the skills for tomorrow, and 
how do we do this using the technological tools that we have 
available to us with online platforms, the data that are 
generated from those platforms, and ways to fit education into 
the spaces of people's lives, which particularly affects women 
who have encountered challenges in that respect.
    If we have more companies like Boeing stepping up and 
working with all of our agencies, that is one example of a way 
that we can really make forward progress.
    Mr. Kincaid. It really is a great question and you really 
touched on a number of different ways that NASA can reach 
people, whether that is through our partnerships with our 
companies that we work with or whether that is the partnerships 
that Space Grant is required to build. When they build their 
affiliate network, they bring in partnerships and a wide range 
of companies.
    I also point out to you another partnership that we had. As 
part of the 50th-anniversary activities we brought together 
industry, different agencies together to look at how could we 
use the fiftieth anniversary to engage kids. It is really cool, 
we had a chance to--if you have ever taken your kids to the 
National Park Service--my daughter likes to become a junior 
ranger when you go to one of those locations--we actually 
partner with them on Spaceflight Explorer. The National Park 
Service, we provide the content; they distributed 50,000 of 
these across the national parks this last year for students to 
become junior rangers in spaceflight exploration.
    Again, I think we have to go through non-traditional ways 
to find mechanics for students to connect with STEM that we may 
not normally think of.
    Ms. Meng. Thank you. And a second, quick follow-up question 
on a related topic, but more in terms of higher education, 
minority-serving institutions. These institutions tend to have 
relatively low educational and general expenditures, but enroll 
high proportions of financially needy students. A lot of these 
schools have challenges that affect their ability to obtain 
financial support and might affect their ability to compete for 
the larger multi-year, multimillion-dollar Federal grants and 
contracts to support STEM education.
    I wanted to ask what NASA and NSF might be doing to help 
these institutions that might lack that ability to effectively 
compete.
    Mr. Kincaid. Again, that is a really great question. About 
a third of NASA's budget goes to what we call MUREP, Minority 
University Research and Education Programs, and so, that is 
money set aside to work with minorities and institutions to do 
exactly what you talked about, build capacity for them to 
compete for other awards. We reached them in a number of ways, 
through direct reach, because we have contacts with minority 
HBCUs and MSIs across the country. We also work with our Space 
Grant network; again, they are a logical partner to work with.
    The third thing I mentioned is something we call 
``technology infusion roadshows.'' A couple of times a year we 
will go to a different part of the country and we will provide 
information from our Space Technology Mission Directorate, as 
well as our office of small business to go out and talk to 
minority-serving institutions to help them be better prepared. 
We have been in New Mexico and Atlanta this year and we will be 
in Puerto Rico in November. It is a concrete way that we can 
show up and help universities navigate their way through that 
process.
    Dr. Marrongelle. The NSF is deeply committed to this work; 
in fact, this week, I have several program officers who are at 
Claflin University in South Carolina doing outreach to HBCUs 
and other MSIs in that region, specifically focused on working 
with universities who have not been successful or have not even 
applied for NSF funds through the education and human resources 
directorate.
    We do this type of outreach regularly, and we do it 
geographically spread. We have a staff associate who has done 
an incredible amount of work in the Pacific Islands that has 
led to successful grant applications from universities in Guam 
and to the Mariana and Samoa, Marshall, and Carolina Islands.
    We take seriously the notions of in-reach, as well, so 
ensuring that the staff within the NSF building are also 
educated and updated on the challenges facing MSIs and other 
institutions who have not historically had success at NSF.
    Finally, we partnered with the National Academies two years 
ago to study STEM at MSIs, and I think just as you described, 
one of the findings was the research support at MSIs is not at 
the same levels as other institutions, which really calls into 
question how competitive they can be. We have been taking the 
findings of that report very seriously, as we think about 
planning our outreach.
    Mr. Serrano. Thank you. And if I can interject here, you 
don't know how refreshing it is to hear the territories 
mentioned.
    I will be leaving this place next year after 30 years in 
Congress and 46 in public office, and if I accomplished 
something, it could be that I instilled in folks that 
territories are not states, but they are American citizens and 
should be included in everything. But I don't think I could 
have accomplished that if we didn't have people like yourselves 
who understood it before I brought it up. And that is 
important, so it is nice to hear.
    And it doesn't make me feel bad as chairman of this 
committee to have a year and a couple months to keep saying it. 
Thank you.
    Ms. Kaptur, you have one minute. [Laughter.]
    Mr. Serrano. You see, here's my plan. If I give you a 
minute and you stretch it to 5, we will make the time limit.
    Ms. Kaptur. Well, Mr. Chairman, I know you to be a very 
fair person. [Laughter.]
    Let me just say it is an honor to be here with you----
    Mr. Serrano. Thank you.
    Ms. Kaptur [continuing]. Especially this morning, and, of 
course, all of our colleagues.
    I wanted to begin with a brief statement that I would be 
remiss if I did not register my strong objection to the 
administration's budget proposal to eliminate the STEM programs 
at NASA in its fiscal year 2020 budget, and I also wanted to 
lodge my objections to the proposed offset for the Artemis 
program budget and the proposal to repurpose funding from the 
Pell Grant program to fund an accelerated moon landing.
    For me, this is a nonstarter, and I don't think we should 
cannibalize one education program for another purpose. So, I 
just wanted to begin with that.
    My questions really involve STEM, directly. We thank you 
for your life dedication to learning for the future 
generations. And I just wanted to begin with a suggestion and a 
question that relates to American ingenuity in space.
    I represent a company called Cedar Fair and among its 
facilities across the country, over 26 million people walk 
through their gates every year. In my district, we have 
something called Cedar Point, the largest roller coaster in 
America. It is a marvel of physics when you look at it and 
engineering, and just at that site, 3.6 million visitors come 
every year, largely, youth who have the guts to get on some of 
those rides.
    And I understand there is a precedent to writing STEM 
partnership agreements with theme parks. Can you elaborate on 
what steps you might take to make a partnership agreement with 
this company if they would be willing. I haven't asked them, 
but I just think there is enormous opportunity to influence the 
thinking of young people and teachers and others who pass 
through those gates. So, that is question one.
    Questions two has to do with districts like mine and, 
frankly, the chairman's--Chairman Serrano's district. If you 
were to look at the distribution of the members of Congress 
here and the mean incomes of the districts from which they 
come, out of 435 members, my district ranks 407 in the country 
in terms of mean income of its citizenry. Congressman Serrano's 
district--Chairman Serrano's district ranks 435. And so, the 
district number one is Congresswoman Eshoo, who comes from the 
tech belt in Northern California.
    So, if one looks at what's happening to our economy and the 
distribution of assets in this society, it is very unequal, and 
my question is, what steps might you take to make your outreach 
more sensitive to the economic variations across districts in 
the country and what might you do working with our Department 
of Energy labs, all of which need Americans to apply for 
positions within them, where people will be retiring, 
particularly in the areas of nuclear thermal propulsion, 
battery storage, resource utilization? There are a lot of 
areas--cyber--where we need people that we don't have right now 
as we transition to generations taking over these positions.
    So, the first one has to do with, can you work more 
effectively with theme parks to advance STEM and, secondly, in 
terms of your work across the government of the United States, 
could you somehow add more sensitivity to mean incomes of 
districts in linking with DOE to assess what might exist within 
them so we get a fair distribution of STEM recruitment across 
the country.
    Mr. Kincaid. Thank you, Congresswoman.
    You know, NASA is also looking for nontraditional ways that 
we can reach students through partnerships and, yes, we have 
worked with other theme parks to take NASA content to implement 
that. We have worked with Hollywood studios. We have worked 
with different entities to figure out how do we get role models 
and interest in STEM and lots of different sources. We would be 
happy to work with you. I visited with you and your staff 
yesterday. I would be happy to spend more time talking with 
Cedar Fair about that, I would be interested to hear more.
    I would also point out to you that there is something 
called the NASA Museum Alliance. It says museum, but it really 
gets at all of our informal education institutions. So, it 
could be visitor centers. It could be science centers, 
libraries, different entities. Over 1,000 members are part of 
that, and what we want to do is provide them with information 
that they can use for the constituents in their area.
    You and I talked yesterday about some of the issues with 
the Great Lakes and the science issues that can be applied 
there. NASA's Earth Science Missions have content that I think 
would be useful and perhaps different than maybe would apply to 
a group of students in Arizona. Being able to work with folks 
in your district through the Museum Alliance would be a great 
opportunity.
    The other part of your question went to the Department of 
Energy. I would just point out that the Department of Energy is 
part of our FC-STEM. When we meet monthly, as Karen and I were 
briefly talking before about how FC-STEM brings together 
different Federal agencies to look at things we can do. One of 
our interagency working groups is collaborations and 
partnerships, and I think I can speak for Karen, we would be 
happy to visit with our colleagues over at the Department of 
Energy to see if there is a way that we can continue to work 
together. And I know that NSF already has some work in that 
area.
    Ms. Kaptur. Do you provide scholarships for those young 
people in any way?
    Mr. Kincaid. We don't provide scholarships directly. We 
tend to provide internships. We want to give them real-work 
experience and we----
    Ms. Kaptur. Are those paid internships?
    Mr. Kincaid. Those are paid internships. This last year--in 
fact, thanks for asking me--we hosted over 8,000 students and 
fellows that received over $32 million in salary for those 
times and 40 percent of them were women and 30 percent were 
ethnic or underserved populations. Your point is a good one 
about needing to reach all of America. Thank you.
    Dr. Marrongelle. Thank you for your questions.
    With regard to theme parks, we have a very robust program 
that focuses on informal science education, and we partner with 
museums, with television programs, we help produce large-screen 
films, and theme parks would certainly fit within the realm of 
our informal science-education program. As you pointed out, 
there is so much physics to be learned at an amusement park and 
we know that teachers have taken advantage of that, but that is 
certainly something that would fit very well within our 
informal learning program.
    Those programs reach millions of people. They really have 
impact. The Magic School Bus, in fact, was just highlighted 
yesterday on 1-A on NPR. NSF was an early supporter of The 
Magic School Bus and folks called into the program to talk 
about the impact that the show had on their career choices and 
their decisions to pursue science.
    With regard to outreach, so your point is very well taken 
and the data show that there are differences in academic 
achievement in the STEM disciplines based on income differences 
from families. So, we know that this is a problem.
    As I discussed earlier, NSF takes this very seriously and 
we have been purposeful in our outreach and focusing on 
communities that have not had access to NSF, have not had 
success at NSF and we will continue to do that.
    We have a couple of programs that specifically focus on 
low-income, high-achieving students and S-STEM is one of those 
programs, Scholarships for STEM. This is a program funded by H-
1B visa funds and, in fact, there is a new grant to the 
University of Toledo just this year that is focusing on getting 
kids into engineering and engineering technology programs and 
it supports them with scholarship funds and brings them in as a 
cohort and provides the supports that those students need to be 
successful.
    There are S-STEM programs all across the nation. In fact, I 
was just at a PI meeting last week. There were over 600 people 
at that PI meeting. S-STEM really has had a huge impact on 
reaching kids who may not have the money to pursue their higher 
education and it is providing not only the dollars in their 
hands, but the curricular innovations that they need to be 
successful.
    Finally, in regard to national labs, we have several types 
of partnerships with national labs, but one unique one is our 
Louis Stokes Alliance for Minority Participation in science 
works with the Brookhaven National Lab and provides community 
college students internships at Brookhaven. That is just one 
example of the types of partnerships through our programs that 
we can provide to students in conjunction with the labs.
    Ms. Kaptur. Thank you, Doctor.
    I hear the gavel, Mr. Chairman.
    Thank you, Mr. Kincaid.
    Mr. Serrano. Doctor, this committee has been able to 
robustly fund a new Hispanic-serving institutions program over 
the past few years. Are we seeing any results from this yet? 
And a follow-up would be what initial indicators should we be 
looking for to see if this new program is working well?
    Dr. Marrongelle. Thank you for the question.
    This is such an exciting program to get to know at NSF. As 
you point out, this is only just a couple years in, so we don't 
have results yet. We are having a PI meeting later this fall 
and we hope to see some preliminary results.
    What I really enjoyed about the way--the approach that NSF 
took to this program is that it was developed with direct input 
from Hispanic-serving institutions, so faculty, students, 
administrators, community members had an opportunity to meet 
with NSF staff through conferences and listening sessions and 
had direct input into what are those specific needs. There were 
three needs that were raised during those sessions.
    The first is critical transitions, so looking at 
transitions from students in community colleges to four-years, 
high school to college. The second was the need to promote 
innovative cross-sector partnerships. And the third was to 
better understand the teaching and learning of STEM in 
Hispanic-serving institutions.
    As a result of that direct input, our call for proposals 
was crafted around those priority areas and we have many 
exciting projects. We have over 60 projects now funded through 
this program that are addressing those critical-need areas 
identified by the HSIs, themselves.
    Mr. Serrano. And how many schools did you say we had?
    Dr. Marrongelle. We have around 60 projects. We can get you 
the exact number.
    Mr. Serrano. Sixty?
    Dr. Marrongelle. Yeah, six zero.
    Mr. Serrano. I would like to see that. That would be good.
    [The informations follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kincaid, a 2016 film entitled--details the struggles of 
three African-American women in Hampton, Virginia, who were 
mathematicians and engineers, critical to the Apollo missions. 
The unit was segregated by race and sex and suffered from the 
discrimination that accompanied such segregation.
    Additionally, a former colleague of ours, Congresswoman 
Louise Slaughter, may she rest in peace, was a microbiologist 
and often told the story that her first job after receiving her 
master's degree was to sell soap for Proctor & Gamble, rather 
than practice her skill.
    Could you describe efforts within the NASA STEM program to 
address opportunities for women and minorities.
    Mr. Kincaid. Absolutely. Thanks again, Chairman, for the 
question.
    You know, that movie was a powerful one and it was fun for 
me to take my 11-year-old daughter--she was 8, I guess, at the 
time--to go see the role NASA played. While it was a difficult 
time in our country, I think NASA played an important role for 
those engineers to really make a contribution to NASA's space 
program. I think that is true today.
    I think NASA continues to be able to provide role models, 
whether that is astronauts in space on the space station or 
whether it is--our Administrator likes to say--the first woman 
to step foot on the surface of the moon. I think these are 
powerful images that can really truly shape the way that kids 
see themselves growing up.
    I think we provide a number of resource opportunities. I 
briefly mentioned that of the 8,000 interns this last year, 40 
percent were women and 30 percent came from an underserved 
background. I think NASA continued to make a difference there.
    When I think about some of the programs that we have with 
MUREP, Minority University Research and Education Programs, we 
recently awarded 8 institutions as part of our MIRO award. It's 
the Minority Institution Research Opportunity. How do we make 
sure that we can help minority-serving institutions across the 
country have access to NASA's work. One of those was in Puerto 
Rico.
    So, it is a great opportunity, I think, to be able to 
connect people throughout the country, not just at NASA's 
centers, but with work that NASA does.
    Mr. Serrano. And as everyone knows, I have an interest in 
what's happening at the territories. Are there any unique 
challenges to reaching STEM students in the territories and 
what programs have been shown to be most effective in reaching 
these populations?
    And, you know, when we say ``reaching the territories,'' 
some people may think that is an improper question, but--you 
don't have to comment on this--we had a situation where people 
were told that the reason Puerto Rico could not be helped right 
away was because it was an island surrounded by water in the 
middle of the ocean, and I sarcastically or profoundly 
suggested it is the same way it was invaded by the military in 
1898, we could probably find a way to get there during a 
hurricane, but we are still waiting for their response.
    But, what about reaching to the territories?
    Mr. Kincaid. I think it is an important question, and we 
highlighted a couple of things already that I could probably 
draw your attention to. One is one of our Space Grant 
consortiums is in Puerto Rico and making sure that we can help 
them. I would also say that our new solicitation is further 
strengthening the role that we play for the Virgin Islands and 
Guam by partnering them with Hawaii and South Carolina, 
respectively. Being able to provide that information to 
students in those areas is important.
    The technology roadshow that I briefly talked about where 
we go out on the road, the next one happens to be in Puerto 
Rico. I think there is an opportunity for us to take our 
content and go wherever that might be, whether that is in 
Puerto Rico or Wyoming, wherever that might be. We need to be 
at places that may not otherwise find NASA content. Thanks for 
the question.
    Dr. Marrongelle. Similarly, for NSF, I described some of 
the outreach that we have done with the Pacific Islands. Puerto 
Rico was a host site of a listening session in the development 
of the HSI program and provided invaluable input. We have 
INCLUDES awards that involve Puerto Rico. The Virgin Islands 
was just the recipient of a new Alliance award from NSF 
INCLUDES this year.
    We take very seriously the outreach to the territories in 
ensuring that people there have access to NSF, that they 
understand that NSF is approachable and supportive of the work 
that goes on and we are constantly looking to update our 
outreach activities.
    Mr. Serrano. Well, we appreciate and we hope you continue 
to focus on that and focus on all the states and territories.
    And with that, we recognize the legendary Mr. Aderholt.
    Mr. Aderholt. Yes. Thank you, Mr. Chairman.
    I would just follow up on what we talked about FC-STEM a 
little earlier. I just wanted to follow up with a question. Are 
you looking into any public-private partnerships and how you 
can leverage STEM funding initiatives from that respect?
    Mr. Kincaid. I would say one of the five Interagency 
Working Groups is looking at strategic partnerships and why I 
think our efforts initially we are looking at how do we get the 
current Federal agencies to work together, you know, that is 
the first challenge is to get us all talking, I think we want 
to make sure that those partnerships are more than--so, I guess 
we get ourselves as organized as we can--external organizations 
is a really critical part of what will come----
    Dr. Marrongelle. Yes--thank you. I mentioned the Boeing 
example. That has yielded such great collaboration with the 
thinkers at Boeing and that is something that we of course 
would be looking for ways to bring that type of partnership to 
FC-STEM.
    Mr. Aderholt. Ms. Marrongelle, let me address this question 
to you. According to the National Science Board's science and 
engineering--for 2018, last year STEM's bachelor degree awards 
totaled more than $7.5 million globally. Half of those degrees 
were conferred in India and China, 20 percent were conferred in 
the European Union countries and only 10 percent in the United 
States.
    Just your thoughts, your concerns that you might have about 
the (indiscernible) conferred in the United States, compared to 
other countries that could, of course, obviously impact our 
competitiveness and especially China.
    Dr. Marrongelle. Thank you for the question. This is 
something that I think about every day, of course. We would 
like to see more students attain STEM degrees. We know where 
some of the gaps happen. We know that in some of the STEM 
disciplines, but not all, students will enter college wanting 
to major in STEM and then decide to switch their major. 
Mathematics probably has the highest number of students 
switching out of mathematics as a degree when and if they 
switch degrees in college.
    We are taking a look at why this is happening, and this is 
not a new problem; this has been going on for decades. I think 
some of the projects that we have been funding are taking a 
look nationally at what's happening in classrooms and college 
campuses, what is the type of instruction that students are 
experiencing and when is it positively impacting them and 
contributing to their retention and a degree, and when is it 
setting them off course and having them decide not to pursue a 
STEM degree.
    As we have access to larger datasets from online courses, 
from more sophisticated data collection, we are able to 
interrogate these problems at a level that we haven't been able 
to in the past. And so, I am very hopeful that we are going to 
make even greater progress and greater strides in understanding 
how we keep students in the STEM disciplines once they decide 
to be there.
    Just like the award at the University of Pittsburgh that I 
mentioned earlier, we are ensuring that when students show an 
interest in STEM early on, those pathways are open to them and 
they don't have doors closed as they are attempt to go attain 
STEM degrees.
    Mr. Aderholt. Do you have any thoughts on that? Well, Mr. 
Kincaid, let me switch to you just a second regarding the Space 
Grants and the changes. Recently, of course, NASA proposed 
changes to the Space Grant program for fiscal year 2020 through 
2024 and the changes include removing the distinction between 
designated and non-designated states and reducing annual 
funding to support mission directorate competitions.
    My question to you would be, given that--of course I 
represent a designated Space Grant state, and it could lose 
funding with these proposed changes. Can you take just a second 
and explain what drove NASA to make the changes to this Space 
Grant program.
    Mr. Kincaid. Thank you, sir.
    Yes, when I started this job two and a half years ago I 
spent two full days spending time with the Space Grant 
directors from across the country. They get together once a 
year and they spend time. We were in North Dakota and I 
listened to the concerns they had and the strengths that they 
saw in the program and it was, frankly, a very insightful 
conversation.
    When Congress directed us to create the Space Grant program 
in 1989, we initially selected 25 states. The next year, 
Congress appropriated more funds and they started this process 
where people would graduate the two tiers that you discussed.
    As I dug into it, from the 17 states that did not receive 
the same amount of money--it is a couple-hundred-thousand-
dollars difference between the two--they are very concerned 
that they hadn't had an opportunity to be able to compete for 
this higher amount. So, I spent time visiting with them about 
that and at the last time we had a competition for the 17 
states to make it into what you referred to as ``designated,'' 
and what we refer to as ``designated'' was 2004, so it had been 
15 years.
    I thought about considering a competition process, but, 
frankly, I think Space Grants, in general, have done a really 
good job over the years. The other thing that they told me is 
those states that had competed told me how onerous and 
burdensome the process was to go through the Federal Government 
of graduating. It made sense to me that we would fund them 
equally.
    It is true that the 35 states are coming down a little bit 
in order to bring up the other 17 states.
    Mr. Aderholt. Well, rather than simply removing all 
designations, did you consider reopening a competition to see 
which of the states that are currently non-designated were 
actually willing go through that process and to become a 
designated state?
    Mr. Kincaid. I did. Again, in talking to the states that 
had gone through that process to become designated, as I dug 
into it--again, it had been 15 years since we had gone through 
it--I really felt like most Space Grants would have succeeded 
and to put all 17 states through a process seemed onerous and I 
wanted to figure out a way to make it simpler.
    At the end of the day if I was going to give awards to 51 
out of 52, it made sense to go ahead and just provide everyone 
the same amount of money.
    Mr. Aderholt. If Congress were to provide additional 
funding for Space Grant in 2020, fiscal year 2020, would that 
funding go to the states to be used for additional Mission 
Directorate competitions?
    Mr. Kincaid. Yes, the money would definitely go to the 
states. The amount of money that we have kept at NASA to run 
the program has stayed relatively flat from '17, '18, '19, and 
I don't see any reason why that would change in the future. It 
is our goal to take the funds that we receive and send it out 
to Space Grants to be able to accomplish the things that we 
have talked about in today's hearing.
    Thanks for the question.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    So the NSF's website states that the mission of the NSF is, 
quote, ``to promote the progress of science; to advance the 
national health, prosperity, and welfare; to secure the 
national defense. NSF is vital because we support basic 
research and people to create knowledge that transforms the 
future. This type of support, number one, is a primary driver 
of the U.S. economy; number two, enhances the nation's 
security; and, number three, advances knowledge to sustain 
global leadership.''
    And if I haven't already made myself clear, I want to make 
sure you both understand that I view this as a critically 
important part of our discussion today and it should be the 
starting point for how we view STEM education in this nation.
    As a member of this subcommittee, I am proud to say we have 
always supported science and STEM education in a bipartisan 
manner, and I do want to thank our ranking member, Mr. 
Aderholt, for his participation and unwavering support.
    Looking at the administration's fiscal year 2020 budget 
request, the NSF would have realized a 12 percent cut overall 
and a 10 percent cut to the Education and Human Resources 
Directorate, the NSF's flagship graduate research fellowship 
program would have been cut by 10 percent, and the Robert Noyce 
Teachers Scholarship would have been cut by 25 percent. The 
NASA budget would have seen a 5 percent increase, but the 
science budget would have been cut by nearly 9 percent, and the 
Office of STEM Engagement would have been entirely zeroed out.
    Let the record reflect Mr. Kincaid reluctantly nodded in 
the affirmative.
    It would have eliminated the Space Grant Program, which Mr. 
Aderholt was just discussing, the Established Program to 
Stimulate Competitive Research, and the Minority University 
Research and Education Project.
    Mr. Kincaid, as the Associate Director of STEM Engagement, 
I assume this would have meant that you would have been out of 
a job, but the good news for you, NASA, NSF, and really this 
country is that this subcommittee rejected these cuts again on 
a bipartisan basis.
    I know that in all likelihood neither of you think these 
cuts to STEM education are a good idea, while you are here to 
represent the administration and its budget requests for your 
respective agencies. I am not sure there is much to be gained 
by forcing you to defend what you undoubtedly understand is the 
indefensible.
    Instead, I would like for each of you to take a message 
back to your respective agencies and to this administration: 
enough with these budget requests with Draconian cuts to 
science and STEM education. Members of this subcommittee may 
disagree on occasion about a wide range of subjects, the one 
thing we agree about again and again and again on a bipartisan 
manner is that we will not tolerate budget requests that have 
the effect of hurting science and STEM education in this 
country. It is simply not going to happen and you need to pass 
on to your bosses that they are wasting everybody's time with 
these proposed cuts.
    So I have some questions. Do you believe it is important or 
even critical to our national security, economic development, 
and global leadership position in science and technology that 
we have a really strong recruitment and development program 
with respect to STEM education?
    Dr. Marrongelle. Yes, sir.
    Mr. Cartwright. Do you agree with the prevailing consensus 
that the U.S. is falling behind relative to global STEM 
education, both in terms of funding and participation?
    Mr. Kincaid. I think we continue to face a challenge in 
that area, falling behind is the part that made me think--I 
think we have actually made some strides in that area, but I 
think it is continuing to be a challenge to----
    Mr. Cartwright. I just looked at a recent USA Today 
article, it says China's top university now leads the world 
with the most citations in math and computer research, and is 
making similar gains with other highly cited STEM research. Did 
you catch that article?
    Dr. Marrongelle. I have heard those statistics previously, 
yes.
    Mr. Cartwright. Yeah. Do you believe that Federal STEM 
education programs have a positive impact on whether young 
students, particularly women and minorities, eventually go on 
to pursue advanced STEM degrees and careers in STEM?
    Dr. Marrongelle. Yes.
    Mr. Cartwright. Elaborate on that, if you would.
    Dr. Marrongelle. Sure. I think through some of our 
evaluation and research we have shown the impact that our 
programs, both in formal school settings and in informal 
settings, have on motivating students, on showing them that 
there are pathways, providing ways of imagining opportunities 
in STEM for people who may not have even been imagining that. I 
think that for our programs that specifically focus on low 
income and groups of people who have not had access to 
opportunity, we are showing that those people can break the 
barriers and they can overcome the statistics that are not 
working in their favor.
    Mr. Kincaid. I would add to that, when I think about FC-
STEM looking across the Federal Government, to your question, I 
know my colleagues and other mission agencies like NOAA and NSF 
and other places want to use our content to be able to make a 
difference for kids; it is critical.
    Mr. Cartwright. Well, in light of your answers, it is plain 
and obvious that we are all on the same page here. And we are 
not privy to what goes on behind the scenes at your agencies, 
but do us all on this subcommittee the favor of passing on the 
message that we are not cutting these programs, they are too 
valuable for our nation, and do your bit in pushing back on 
these cutbacks, will you?
    I yield back.
    Mr. Serrano. Thank you.
    Before we close, let me just take a moment to make a 
comment and just to reiterate what Mr. Cartwright has said. 
This committee is unique in many ways. It is my favorite 
subcommittee, not because I'm chairing it, but it was always my 
favorite subcommittee even when I was not chairing it, and past 
Republican chairmanships have seen the same way we see STEM 
education and the growth of education within what your agencies 
do.
    At the expense of getting Mr. Aderholt in trouble with his 
colleagues, because, you know, our colleagues want us to be 
tough, you know, on behalf of the party, but he has been a 
pleasure to work with on these issues, because he also 
understands and supports. And these issues not only help 
Americans, but they also help certain regions of the country, 
certain states like Mr. Aderholt's state, which have NASA 
facilities and have--other states that have both of your 
involvements.
    I think it is important to send the message back that we 
may not always be here and if you keep sending us--not you, but 
if you keep sending us budgets that hurt these agencies, you 
may actually get a group of people up here someday soon, who 
knows when, who would agree, and that would be devastating for 
our country. And I mean for the country and the territories, 
you know, the whole country.
    So, thank you for your testimony today. I hope it wasn't 
too difficult. We did not expect you to agree with us on how 
bad these cuts are, but we could tell by the twinkle in your 
eyes that you agree with us. And I just probably got you in 
real trouble.
    Anyway, thank you so much and thank you for your service to 
our country.
    Dr. Marrongelle. Thank you.
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                     Wednesday, October 16, 2019.  

OVERSIGHT HEARING: NASA'S PROPOSAL TO ADVANCE THE NEXT MOON LANDING BY 
                                4 YEARS

                               WITNESSES

JAMES F. BRIDENSTINE, ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE 
    ADMINISTRATION
KENNETH D. BOWERSOX, ACTING ASSOCIATE ADMINISTRATOR FOR HUMAN 
    EXPLORATION AND OPERATIONS, NATIONAL AERONAUTICS AND SPACE 
    ADMINISTRATION
    Mr. Serrano. The subcommittee shall come to order.
    I would like to welcome NASA Administrator, Jim 
Bridenstine, and Acting NASA Associate Administrator for Human 
Exploration and Operations, Kenneth Bowersox, to the 
subcommittee this morning.
    Earlier this year, NASA commemorated the 50th anniversary 
of the landing on the Moon, which remains the single most 
successful and famous mission in NASA's history. Just a week 
before our CJS bill was marked in subcommittee, NASA submitted 
a $1.65 billion budget amendment that intended to start the 
effort to advance the return of humans to the Moon by 4 years. 
Such little time prevented us from adequately considering the 
proposal. This hearing will give us an opportunity to obtain 
more information from NASA regarding its revised plans for 
returning to the Moon.
    While all of us on this subcommittee would like to send the 
first woman astronaut into deep space, we want to do it in a 
responsible way--from the perspective of safety, cost, and 
likelihood of mission success.
    As most of you know, I have been a strong supporter of NASA 
during my 29 years in Congress, and we provided NASA more than 
$22.3 billion for fiscal year 2020 in our House bill. However, 
I remain extremely concerned about the additional cost to 
accelerate the mission to the Moon by 4 years. Some experts 
have said an additional financial resources needed to meet the 
administration-imposed 2024 deadline could exceed $25 billion 
over the next 5 years compared to the original 2028 schedule. 
To date, NASA has not provided the committee with a full cost 
estimate, despite repeated requests.
    At a time of huge financial needs across numerous 
government programs all competing for funding within the budget 
caps, an additional $25 billion cost would severely impact 
vital programs, not only under this subcommittee, but across 
all non-defense subcommittees.
    Another concern that I have is the lack of a serious 
justification for such a cost. Since NASA has already 
programmed the lunar landing mission for 2028, why does it 
suddenly need to speed up the clock by 4 years--time that is 
needed to carry out a successful program from a science and 
safety perspective.
    To a lot of Members, the motivation appears to be just a 
political one--giving President Trump a Moon landing in a 
possible second term, should he be reelected.
    Not even NASA's own leadership has enough confidence in the 
success and safety of advancing this timeline. NASA Acting 
Associate Administrator Bowersox, who is a former astronaut and 
here with us today, referred to the 2024 Moon landing date as 
difficult to achieve in a House Science hearing just last 
month, saying, quote, `` I wouldn't bet my oldest child's 
upcoming birthday present on anything like that.''
    Additionally, NASA's Manager for the Human Landing System, 
Lisa Watson-Morgan, was quoted in an article about the timing 
of the mission saying, quote, ``This is a significant deviation 
for NASA and the government. All of this has to be done on the 
fast. It has to be done on the quick. Typically, in the past, 
NASA is quite methodical, which is good. We are going to have 
to have an abbreviated approach to getting to approval for 
industry standards for design and construction, and how we're 
going to go off and implement this. So this is a big shift, I 
would say, for the entire NASA community too,'' unquote.
    We cannot sacrifice quality just to be quick. We cannot 
sacrifice safety to be fast. And we cannot sacrifice other 
government programs just to please the President.
    Before asking for such a substantial additional investment, 
NASA needs to be prepared to state which NASA missions will be 
delayed or even canceled in the effort to come up with an 
additional $25 billion.
    Overall, I remain extremely concerned by the proposed 
advancement by 4 years of this mission. The eyes of the world 
are upon us; we cannot afford to fail. Therefore, I believe 
that it is better to use the original NASA schedule of 2028, in 
order to have a successful, safe, and cost-effective mission 
for the benefit of the American people and the world.
    Thank you once again, Administrator and Acting Associate 
Administrator, for being with us today, and I look forward to 
hearing your testimony.
    And now I would like to recognize at this time my good 
friend, the ranking member, Mr. Aderholt, for his opening 
comments.
    Mr. Aderholt. Thank you for yielding, Mr. Chairman. And, 
first of all, I want to thank you for your leadership on this 
subcommittee, your willingness to have hearings throughout the 
year, but in particular for this hearing.
    Regardless of party labels, the House of Representatives 
will miss your leadership, your professionalism, and your 
kindness. And we look forward to working with you, of course, 
through the rest of this Congress and we have a long way to go. 
So we know you are not leaving yet, but I would be remiss if I 
didn't mention that this morning.
    I also appreciate the Ranking Member, Kay Granger, being 
here today, and for her engagement with these issues. She has 
put a lot of hard work and expertise into defense issues and on 
the space issues over the years for her district and her state, 
and for the country.
    And also I would like to express my gratitude to the 
President and the Vice President for taking a real active 
interest in NASA. And, compared to other agencies, it 
represents a very small part of the national budget, but which 
continues to serve the dreams, it serves the ambitions of the 
entire Nation, especially young people. And that is evident 
when I go into schools and have a chance to talk about things 
related to space and everyone is still very interested in it as 
ever.
    Mr. Administrator, Mr. Bowersox, thank you both for being 
here today, and I strongly support the President's goal to land 
the first woman and the next man on the Moon in 2024. In 
support of that goal, I believe we owe it to the taxpayer and 
to the mission to make sure the program remains focused. 
However, to make it to the Moon by 2024, NASA will need 
sustained congressional investment and taxpayer support.
    The Artemis program cannot afford to suffer the kinds of 
delays, the setbacks, and the cost overruns, which have 
sometimes become what is known as business as usual in our 
space program. On the contrary, the Artemis era is supposed to 
be characterized by unparalleled accountability and agility.
    Today, I will have questions regarding whether NASA is 
still committed to getting to the Moon by any means necessary.
    As an ardent supporter of deep space exploration, and also 
as a fiscal conservative, I am concerned that NASA could 
undercut its flexibility and incur unnecessary costs by 
forgoing opportunities to leverage existing assets in an 
attempt to simultaneously foster a commercial space economy. 
Director Bridenstine, this past March, Vice President Pence 
declared in his comments, `` If NASA is not currently capable 
of landing American astronauts on the Moon in 5 years, we need 
to change the organization, not the mission,'' and I couldn't 
agree more.
    The administration's ambitious, but critically important, 
2024 Moon plan will be the ultimate test of NASA's judgment and 
its accountability.
    Finally, the rockets and the capsules and the transfer 
vehicles, and the descent and ascent landing systems, must 
above all be systems which will keep our astronauts alive 
during the mission and bring them back to Earth safely.
    As our Nation embarks on complex new deep space endeavors 
with unprecedented private sector involvement, safety must be 
our number one priority. Hence, NASA's ability to ensure safety 
in the commercial crew program will be a bellwether, and I 
appreciate the Administrator's comments noting that the 
commercial crew program must receive the contractor attention 
it deserves.
    So, again, I thank you both for being here today. It is an 
honor for us to have you here before our subcommittee.
    And thank you, Mr. Chairman, for holding this hearing 
today. And, at this time, I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt, and thank you for 
your kind comments.
    We are honored this morning to have our Ranking Member with 
us, a person that I respect a lot, and a person that I will 
remember for her way of dealing with people in such a friendly 
and professional way, and bipartisan wherever she could, which 
was like three percent of the time, but----
    [Laughter.]
    Only kidding, only kidding. Ms. Granger.
    Ms. Granger. Thank you. Thank you, Chairman Serrano, and 
thank you, Ranking Member Aderholt. Thank you for holding this 
hearing and also for your attention to space and your 
involvement. I am old enough, I remember the space programs it 
was where everyone was sitting at their television, their 
black-and-white television, and watching it, and it was good 
for America and it was good for all of us.
    Welcome, Administrator Bridenstine, and welcome, Mr. 
Bowersox. Thank you for your stewardship to the National 
Aeronautics and Space Administration. It is important to all 
Americans and it is our Nation's space exploration goals.
    In March, your agency was challenged with returning our 
astronauts to the surface of the Moon within the next 5 years. 
I strongly support this accelerated 2024 goal and the Artemis 
program, appropriately named after Apollo's twin sister, 
sending American astronauts, including the first woman, to the 
south pole of the Moon will showcase the global leadership and 
technological advances of the United States. It will also 
enhance our national security by allowing us to establish a 
strategic presence on the Moon.
    Our Nation is facing serious threats in space, specifically 
from China. I have had classified briefings that would shock 
any reasonable person and that clearly made the case that we 
must accelerate the Artemis program.
    My advocacy for the Artemis program was solidified after 
learning about China's capabilities and their future plans. 
Unfortunately, the U.S. has largely fallen behind in space 
research and development, and will soon be outpaced by the 
Chinese if we don't take action immediately.
    The only way to protect both our national security and our 
economy is to dominate space and beat the Chinese and other 
near-peer adversaries. Space, I believe, is the next high 
ground, and we have to take it.
    The decision to accelerate our Nation's return to the Moon 
and establish a sustainable presence there will require 
significant investment by this and future Congresses. As a 
result, support for this ambitious, but important, 2024 
timeline will be accompanied by great expectations, both in 
terms of schedule, cost, and safety.
    Administrator Bridenstine and Mr. Bowersox, we recognize 
that you have a tough job ahead of you. I am committed to 
working with you to ensure that NASA can advance our Nation's 
exploration priorities as effectively and as efficiently as 
possible. And I look forward to working with Chairwoman Lowey, 
Chairman Serrano, and Ranking Member Aderholt in funding for 
NASA's programs as the appropriate process moves forward. And I 
yield back.
    Mr. Serrano. Thank you.
    Before I ask the Administrator for his comments, people who 
know me would wonder what is wrong with me if I don't do a 
shout-out here. We spend a lot of time in the city of 
Washington, it is like a second home to all of us, so a shout-
out to the Nationals for pulling the upset of the century. 
[Laughter.]
    And people thought they couldn't do it. It should be a 
lesson to all of us--just keep trying and you can pull it off. 
And now if I can only get the Yankees to turn it around against 
Houston. [Laughter.]
    But, anyway, that is another issue.
    Mr. Administrator, 5 minutes. We will include your full 
statement in the record. So, please, go ahead.
    Mr. Bridenstine. Yes, sir. Thank you, Mr. Chairman.
    Before I became the NASA Administrator, the President had 
issued Space Policy Directive No. 1, and that direction was to 
go to the Moon; to go sustainably; to go with commercial 
partners and international partners; to utilize the resources 
of the Moon that we discovered back in 2009, the hundreds of 
millions of tons of water ice on the south pole. The water ice 
represents life support: it is air to breathe, it is water to 
drink, it is in fact rocket propellent. Hydrogen is the same 
rocket fuel that will power the Space Launch System and it is 
the same rocket fuel that has powered the Space Shuttles.
    We are going to use the resources of the Moon and then, 
ultimately, we are going to take all of this knowledge that we 
learned in this architecture, at the Moon, and we are going to 
go to Mars. That was all in the President's first space policy 
directive.
    When I became the NASA Administrator, we put together a 
plan. Given our current budgets, what will it take to achieve 
this? We came up with a plan, as you identified, that put us on 
the Moon in 2028, if budgets remain fairly constant.
    The challenge that we have as a Nation is that, the longer 
programs go, the more political risk that we have. When we look 
back in history, we look back to the 1990s, the Space 
Exploration Initiative, it took decades in time and it 
eventually got canceled. We look at the Vision for Space 
Exploration in the early 2000s; again, it took many, many years 
and it eventually got canceled.
    The question is, how do we reduce risk? There is two types 
of risk, there is technical risk and then there is political 
risk. The political risk, it is not partisan, it is just when 
programs go too long, people start losing confidence and then 
money gets redirected other places.
    Mr. Chairman, I heard you very clearly say slow and 
methodical, yes. NASA is all about doing things step by step 
and building on one lesson after another. What we are trying to 
change as a culture is that word ``slow.'' We don't want to be 
slow, and I think going fast makes sure that we will have 
successes. I also think that by going fast, to the Ranking 
Member's position--we put ourselves in a position to lead the 
world.
    Right now, we have international partners, 15 of them are 
with us on the International Space Station. We have had 
astronauts from 19 different countries on the International 
Space Station. We have had experiments from 103 different 
countries on the International Space Station. China is moving 
fast and they are going to the Moon.
    The last time they landed on the Moon, they landed on the 
far side of the Moon, that was in the beginning of this year, 
they landed with a small probe, and it was the first time in 
human history anyone had landed on the far side of the Moon. 
They took out a two-page ad in The Economist magazine and made 
very clear that they are the world's leader in Space 
Exploration and that everybody in the world should partner with 
them. Well, I think that is the wrong position.
    We have political risk that we need to deal with. It is 
political risk from programs taking too long; it is political 
risk from a geopolitical standpoint, making sure that our 
partners are with us, and not with them. I think those are 
important reasons to move faster.
    We do not want to take any undue risk, we do not want to 
put any lives at stake, but I can tell you the history of NASA 
might be a little more slow than what is necessary, and we are 
changing the organization. As Representative Aderholt said, if 
we can't land on the Moon within 5 years, we need to change the 
organization.
    I believe that with all my heart and I will tell you why, 
because in the 1960s President Kennedy announced at my alma 
mater, Rice University, we are going to land on the Moon before 
the decade is out. At the time we didn't have the Johnson Space 
Center, we didn't understand the orbital dynamics of going to 
the Moon. We didn't have the launch facilities, we didn't have 
a rocket that could get to the Moon, we didn't have any of 
these capabilities that we now have to our advantage. They had 
to go from scratch. They didn't have the miniaturization of 
electronics, they didn't have the ability to store power in 
smaller quantities, they didn't have the ability to reuse 
rockets, and do all of these other things that are on the cusp 
of changing how we do spaceflight.
    If we can't do it today within 5 years, when they did it 
within 8 years and really 7 years back in the '60s, I think we 
do need to change how we do things and I think it is important 
that we go faster.
    I heard the Ranking Member say that we need to leverage 
existing assets. If we go fast and if we want to land on the 
Moon in 2024, which we want to do, and that is if we wanted to 
go fast, how fast could we do it? Well, 2024 is how fast we 
could do it. At the end of the day, I think it is important to 
note that that is not a guarantee, but it is within the realm 
of what is possible, and a lot of things have to go right to 
make that a reality, and what we are asking for in the budget 
request, is to give us an option to make going fast a 
possibility.
    So I think these are all important things that we need to 
talk about today and, Mr. Chairman, I appreciate you having 
this hearing. Ranking Member, I appreciate your comments as 
well. And I look forward to answering any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Serrano. Thank you.
    We will now begin the first round of questions where each 
member will receive 5 minutes.
    The Appropriations Committee has repeatedly asked for 
information regarding the additional costs of moving the Moon 
mission up by 4 years. To date, we have received no response. 
It is hard to justify any extra spending on this effort in the 
current fiscal year when we don't know the costs down the road.
    What is the additional cost associated with moving up the 
schedule for the next Moon landing by 4 years from 2028 to 
2024? And, further, can you please break the cost down by year 
for the upcoming 5 years?
    So let me just tell you on a personal level, although we 
are here in public--and you know me, we have dealt in the past 
on a personal level--this is not just about finding the money, 
it is about where this President is known to go find monies 
when he needs them. Now, if he came to us and said no wall in 
return for 2024, you might get a few Democrats to agree with 
that, right? Maybe more than that. But he is probably going to 
say lower Pell Grants, lower food stamps, lower education 
dollars, and that is not acceptable and that is the problem.
    But I asked you a question and, I'm sorry, I didn't give 
you time to answer it.
    Mr. Bridenstine. The request for 2020 includes an 
additional $1.6 billion. You know, I have been very clear with 
everybody I have talked to, the goal to get to the Moon needs 
to be bipartisan; it has to be apolitical. If when we go to the 
Moon we are doing so by cutting the Science Mission Directorate 
of NASA, that will create a partisan divide that we do not want 
to have as an Agency. If we try to take the money from the 
International Space Station, that will create a parochial 
fight, maybe with Members from Texas, Florida, or Alabama, 
about the International Space Station.
    Now, those are the two big areas where NASA has money, but 
I don't think that the right approach is to cannibalize those 
programs to achieve the Moon landing. I have been very clear 
with everybody I have talked to on both sides of the aisle, the 
goal should be additional resources, not cannibalizing one part 
of NASA to feed another part of NASA.
    That being said, when we did the budget amendment, the $1.6 
billion, we were operating under previously established budget 
caps. I think it is fantastic that an agreement was made 
between Republicans and Democrats to raise those budget caps, 
that gives NASA a great chance.
    I also want to say, Mr. Chairman, we are grateful for the 
mark that you did in the House, because you did great work, 
especially on behalf of the Science Mission Directorate, and 
that is really good for the Agency. I want to take nothing away 
from the House mark. It is also true that, when we go forward 
with trying to get to the Moon in 2024, that requires 
additional resources.
    I understand the concern with the out-years and we want to 
give you the out-years. We are working right now inside the 
administration with the Office of Management and Budget, and 
the National Space Council, to come up with what those out-year 
numbers are, to get a consensus within the administration about 
what we are willing to put forward. Once we have that, we want 
to give it to you as absolutely soon as possible.
    I would also say that the budget submit for 2021 is due in 
February and certainly we will have it in the 2021 budget 
submit without question.
    If we look at what the Senate has already done, they 
actually fenced the money pending getting the full report on 
what the out-years look like, they fenced the 2020 money based 
on what the out-years look like. I think that is maybe a good 
solution, something to consider. I think at the end we want to 
give you those numbers, we are not ready just yet, but 
certainly we still want to move forward.
    Mr. Serrano. At the expense of beating a subject to death, 
you were very clear that you don't want to take money from 
other NASA programs, because you don't want to hurt those 
programs, I don't want to go to the Moon by taking money from 
people who can't afford to survive in this society to the level 
that they should survive in this society. And so that is a big 
problem that we have to get over, where that money is going to 
come from.
    Your fiscal year 2020 budget justification was delivered to 
the committee earlier this year and it is still available 
online. In looking at the outyears budget chart that is 
included in that budget, what parts of NASA's budget do you 
anticipate would need to go down during a 2021 through '24 
period compared to the numbers displayed on your earlier budget 
chart in order to pay for the additional costs associated with 
the schedule change on the Moon landing? What is the cost to 
other priorities to achieve this effort?
    Mr. Bridenstine. My objective is to let everybody know that 
cannibalizing certain parts of NASA to fund another part of 
NASA, that is not my goal. Certainly, we are going to need 
additional resources, and I have been clear that, you know, 
whether you take it from Station, whether you take it from the 
Science Mission Directorate, those are the two areas where 
there is money, when we do that, it creates either parochial 
fights or partisan fights, and I am trying to maintain NASA's 
apolitical, bipartisan approach.
    I would say that my goal is to not cut any of NASA's budget 
in order to finance the Moon agenda. The budget submit for 2021 
will be delivered in February of next year.
    Mr. Serrano. I am having a little trouble getting my 
message through, so I will try it one more time and then I will 
drop it. Okay? You don't want to hurt NASA. Would you please 
understand that NASA has support from Members of Congress.
    Mr. Bridenstine. Yes.
    Mr. Serrano. NASA has support from this committee, as our 
mark showed, as our bill showed. NASA has the support of the 
American people, including the very people you would hurt. But 
would you keep that support if the people knew that eventually 
it would have to take money from their very- needed situation, 
you know, a factory worker who needs a little extra from the 
Federal Government to help feed his family, and now NASA is 
going to go to the Moon 4 years earlier based on taking money 
from them. You know, I don't need an answer for that, just to 
think about that as we go forward.
    Mr. Bridenstine. Thank you, sir.
    Mr. Serrano. And my time has been used up. So, Mr. 
Aderholt, of course.
    Mr. Aderholt. Thank you.
    Regarding the comments you made about SLS production work 
after your visit to Michoud back--I think it was mid-August 
that you were there, I was wondering how you think things are 
currently going for work on the SLS rocket, especially 1 
through 3.
    Mr. Bridenstine. Absolutely. I will tell you, we have had 
some very challenging conversations with Boeing, and of course 
you have seen that in real time maybe in the public. I would 
also tell you that they have responded in a very positive way 
to the challenges that we have had with SLS development.
    Number 1, we have now started--or in fact we have completed 
the integration of the engine section. The engine section, 
which was the holdup, got delayed, and we started integrating 
the rest of the rocket in the horizontal, which enabled us to 
integrate the SLS rocket while the engine section was still 
under development. Previously, if you do the vertical stack, 
everything has to wait on the engine section. Well, we changed 
that. We started integrating the horizontal and Boeing did 
great things in order to make that happen.
    The engine section is now complete, the engine section is 
now integrated into the rocket itself. By the way, we are very 
satisfied with how fast things are moving now. At this point 
the engines themselves are being integrated into the engine 
section, and as soon as that is complete, there will be 
probably a month or two, maybe a little bit longer, of testing 
at Michoud. I think by the end of this year we will be moving 
the SLS rocket out of the Michoud assembly facility and moving 
it to the Stennis Space Center for testing, for what we call a 
green-run test.
    Boeing has in fact responded very well and we are very 
pleased with where the SLS is right now.
    Mr. Aderholt. So you are confident that it will be 
delivered on time?
    Mr. Bridenstine. Well, the new time, yes, sir.
    Mr. Aderholt. Yes. And of course, as you mentioned, I have 
heard work that is progressing more quickly----
    Mr. Bridenstine. Yes.
    Mr. Aderholt [continuing]. On the second core, maybe 40 
percent faster?
    Mr. Bridenstine. A lot, yes. What we learned on the first 
SLS is paying dividends on the second SLS, so things are moving 
a lot faster.
    I don't know, Ken, do you want to address that?
    Mr. Bowersox. I would just say that that is true. We are 
moving faster on the second core, but we are still finding new 
challenges, right? They are still new rockets and even on the 
second core I think we might find a new challenge or two, but 
overall the trend is positive.
    Mr. Aderholt. But does it seem to you that the work is 
indeed faster than Core No. 1?
    Mr. Bridenstine. Absolutely.
    Mr. Aderholt. Yeah. No question about that?
    Mr. Bridenstine. Without question.
    Mr. Aderholt. All right. I understand there is growing 
confidence among the prime contractors for SLS to be able to 
produce two rockets a year starting in 2024, and they believe 
they could deliver a Block 1B in 2024. What do you think? Do 
you think it could be done?
    Mr. Bridenstine. It depends what Boeing is willing to 
invest, quite frankly. We don't have currently the 
appropriations necessary to achieve that. If we were to do 
that, we might need some more infrastructure that currently 
doesn't exist.
    Ken, I don't know, do you want to address that?
    Mr. Bowersox. Well, what I would say is, we haven't seen 
the performance yet that would indicate that we are guaranteed 
the second core we would need for a Moon landing in 2024. We 
are open to considering those types of options, we are looking 
for that type of progress, but we just haven't seen it yet, 
sir.
    Mr. Bridenstine. To be clear, I am confident that, given 
our current rate of production, we will have three SLSs 
available and the third one would be for Artemis III that takes 
us to the Moon in 2024. I think that is fully within the realm 
of possibility, but a lot of things have to go right to make 
that happen. Adding an additional SLS into the mix, I am not 
confident that that could happen.
    Mr. Aderholt. All right. Understanding the complexities of 
integrating the SLS, as both of you do, do you have any reason 
to believe that the broad agency announcement for the Human 
Landing System presents a viable opportunity for offerers to 
engage the prime contractors and forge the necessary agreements 
in order to incorporate an SLS into the proposals before the 
response deadline that is in November 1st of this year?
    Mr. Bridenstine. Again, this would be a question for Boeing 
specifically. They would need to look at the SLS and come up 
with an SLS derivative that would be made available to the 
offerers for the Human Landing System and then figure out how 
they would deliver that to those offerers. I think it would 
require investment from Boeing to do that and the goal would be 
that those offerers would select Boeing as their provider of 
that launch service, but it would be a launch service.
    I think it is in the realm of what is possible, if Boeing 
wanted to make those investments.
    Mr. Aderholt. Do you want to comment on that?
    Mr. Bowersox. I would just concur with the Administrator.
    Mr. Aderholt. Okay. All right. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Let me recognize our Ranking Member, Ms. Granger.
    Ms. Granger. Thank you.
    Administrator Bridenstine, could you pretty succinctly--to 
me, there are three questions. One is, why should we accelerate 
this at the cost it is? What is the primary importance of that 
change and whether it is worth that very large investment? And 
then focus on the sensitivity of the national security and say 
what does it mean to taxpayers. So we are talking about how you 
pay and what it costs. Talk to us about that and say then, then 
how does that benefit our taxpayers?
    Mr. Bridenstine. Oh, it is huge. This, I think, goes to 
what the chairman was talking about earlier about the 
tradeoffs.
    We look back at Apollo, and we just celebrated 50 years of 
Apollo, everybody in America loved it. We saw 500,000 people on 
the National Mall celebrating 50 years of Apollo. I know all of 
us, we have seen 500,000 people on the National Mall before, we 
have never seen 500,000 happy people celebrating something 
good. [Laughter.]
    Mr. Bridenstine. That was a very, very great day for NASA, 
it is a great day for America, and it is 50 years later. The 
inspiration that came from that moment in time was 
transformational for our Nation and transformational for people 
that, you know, went into the STEM fields that otherwise never 
would have done that. You walk around NASA and you ask folks, 
hey, why are you here? They will tell you where they were when 
Neil Armstrong and Buzz Aldrin walked on the Moon, and I'm sure 
the people that are of age on this committee could probably 
tell me where they were on that day as well.
    I will tell you, the sad thing is--and this is why we need 
to go faster--I am the first NASA Administrator from that day 
to this day that was not alive when that happened. I think that 
is a big challenge. The reality is, I don't have that memory, 
and we have got to make sure that we don't have another 
generation that goes by that doesn't have that memory. When it 
happens, we need to make sure that it is the United States of 
America leading a coalition of Nations that makes it happen.
    Going to your question about what is the value to the 
taxpayer, all of that I think is tremendously valuable to the 
taxpayer. It was a piece of ultimately winning the Cold War; I 
am not going to say it was the preponderance of it, but it was 
a piece of it.
    Now, all that being said, remember, some people will be 
watching this--I know on TV, some people watching, are going to 
watch on Dish Network or DirecTV, maybe they have Internet 
broadband from space. I come from Oklahoma, rural Oklahoma, if 
you don't have broadband from space, you don't have broadband. 
Communication, navigation, GPS technology, born from this 
little Agency called NASA.
    The way we do disaster relief, national security, and 
defense, all of these capabilities--I should say, a lot of 
these capabilities born from a little Agency called NASA. The 
way we predict weather, weather satellites are purchased by 
NASA, and of course the program management of those weather 
satellites is NASA. How we understand climate and how it is 
changing is done by NASA. The way we produce food, we are 
increasing crop fields, decreasing water usage, and preserving 
nitrates in the soil. All of these technologies come from NASA. 
The way we produce energy and do it cleanly without greenhouse 
gas emissions. Methane leaks, those kind of things, we can 
detect it from space instantaneously, help the oil companies 
prevent getting fined from the EPA.
    These are things that are transforming how the world moves 
forward and these technologies and capabilities have elevated 
the human condition for all of humanity in ways that, if you 
asked Neil Armstrong and Buzz Aldrin, why are you going to the 
Moon, they wouldn't have said any of that, because they 
wouldn't have known, but now we know. The return on investment, 
we are less than half of a percent of the federal budget, and 
you look at what we have been able to deliver by creating 
technologies and capabilities that get commercialized, that 
elevate the human condition, I think the return on investment 
is just outstanding.
    Ms. Granger. Thank you.
    Mr. Bridenstine. Thank you.
    Mr. Serrano. Thank you. You are not scoring any points by 
reminding people that you are younger than some of us. 
[Laughter.]
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you, Messrs. Bridenstine and Bowersox, for being 
here. I don't think it is any secret that as a member of the 
NASA and Planetary Caucuses, I share your enthusiasm for NASA, 
and I believe in your mission and I support your people, and I 
am willing to bet that everybody on this subcommittee feels the 
same way.
    Mr. Bridenstine. Thank you, sir.
    Mr. Cartwright. We are appropriators and we have to deal 
with the dollars and cents.
    Mr. Bridenstine. Yes.
    Mr. Cartwright. And we have to evaluate budget requests. 
And I appreciate your comments about not cannibalizing one part 
of NASA for another, but the fiscal year 2020 NASA budget 
requested an overall reduction of $480 million, including a 
reduction in the science budget of $600 million and the 
complete zeroing out of the Office of STEM Engagement. You 
submitted that, didn't you, Administrator?
    Mr. Bridenstine. Yes, that was in the budget submit.
    Mr. Cartwright. So we have to drill down on this stuff. 
This subcommittee rejected those cuts for fiscal year 2020, 
just as we did in fiscal year 2018 and 2019. We increased 
NASA's funding by $815 million, which fully funded the lunar 
landing program and robustly funded scientific discovery and 
STEM education. If you are detecting a pattern there, you are 
right.
    Look, the 2020 NASA budget request evidently did not 
adequately fund Artemis, because a mere 2 months later you 
submitted this $1.6 billion supplemental request for increased 
Artemis funding. And what I am trying to do is I am grappling 
with the true cost of the program and whether NASA has a firm 
grasp on it, how much money you need for Artemis and when you 
are going to need it.
    So the first question is, at what point did you realize 
that the fiscal year 2020 budget request was insufficient to 
fund the Artemis program?
    Mr. Bridenstine. Well, I would say for that budget request 
there wasn't an Artemis program at the time. We put together a 
budget to land on the Moon at the earliest possible date 
without any changes to the budget or with, you know, changes to 
the budget based on inflation. At the end, we were able to 
say--and it was a stretch, but we could say we could land on 
the Moon in 2028. And----
    Mr. Cartwright. I don't mean to interrupt you----
    Mr. Bridenstine. Yes.
    Mr. Cartwright [continuing]. But the question is asking, 
when did you realize that the 2020 budget was going to be 
insufficient for the Artemis program?
    Mr. Bridenstine. After the 2028 date came out, there were a 
lot of people that said that is too long. The challenge is, 
when these programs last a decade, there is risk from a 
budgetary perspective.
    Mr. Cartwright. Okay, I think I am with you. So it was 
after the acceleration of the program----
    Mr. Bridenstine. That's right.
    Mr. Cartwright [continuing]. That you realized you didn't 
have enough money, that makes sense. And so you didn't know--
before submitting the fiscal year 2020 budget request, you 
didn't know about that acceleration; fair?
    Mr. Bridenstine. We had not planned to accelerate at that 
point.
    Mr. Cartwright. All right. Now, you have described the $1.6 
billion supplemental request as a down payment and here is what 
we are kind of grappling with, Administrator: what is the total 
cost of the whole program? I mean, you go to buy a car and 
there is a car salesman standing there, and what do you ask 
him? You ask him how much is the car.
    Mr. Bridenstine. Right.
    Mr. Cartwright. And when he comes up to you and he says, 
well, it is only going to be $2,000 in the first year. And you 
say, yeah, but I am asking you how much the car is. And he 
says, what do you mean? I mean, after the first year, how much 
do I have to pay for this car? And he says, oh, no, those are 
the out-years. And, you know, that is not acceptable. You need 
to know the total cost. And you have said, I think in response 
to the chairman's question, you don't have those figures.
    Mr. Bridenstine. Well, we are working through with the 
Office of Management and Budget, and the National Space 
Council, to come up with an administration consensus for what 
the total cost will be, and we will submit that in February.
    Mr. Cartwright. February of this coming year, you are going 
to have those figures for us?
    Mr. Bridenstine. It will be part of the budget submit in 
February, yes, sir.
    Mr. Cartwright. Okay. And do you know sitting there today 
how much extra the whole project is going to cost because of 
accelerating it?
    Mr. Bridenstine. There are a lot of different options that 
would be available. Some of the options increase the 
probability of success, some of the options decrease the 
probability of success, and based on the range of options--and 
these are what we are looking at as an agency and working with 
the Office of Management and Budget attempting to come to a 
resolution on--for example, you know, I really believe it would 
be in the interest of success to start off with at least three 
different human landing systems that we could then down-select 
to two human landing systems. We have dissimilar redundancy and 
that gives us a higher probability of success.
    If the budget constraints put us in a position where we can 
only have one human landing system, we put ourselves in a 
position where a contractor could have pricing power that could 
get us in a position where we have cost overruns and schedule 
delays. I don't know that that is in the best interest of the 
agency, it is not in the best interest of success. But here is 
what we know: we know that more money early reduces costs, but 
if we go inexpensive early then the likelihood is that cost 
goes up over time.
    These are all different trades that we are looking at at 
this point for the out-years that we are anxiously anticipating 
delivering in February.
    Mr. Cartwright. All right. Finally, Science Committee 
Chairwoman Eddie Bernice Johnson raised an issue regarding the 
specific appropriations language included with the $1.6 billion 
supplemental request and I want to follow up with you on that 
point. Is it your understanding that the language in the 
supplemental request would allow NASA to transfer funds from 
other agency accounts to pay for Artemis?
    Mr. Bridenstine. That is not the intent. The intent is to 
have as much flexibility as possible within Artemis. There are 
some things that go fast and some things where we find what we 
don't know. There are unknown unknowns that we have to be 
prepared for and that flexibility gives us that.
    I have heard people having concern that we are going to 
take money from the Science Mission Directorate to fund Human 
Exploration and Operations; that is not my intent, nobody I 
have talked to at NASA indicates that that is anybody's intent.
    Mr. Cartwright. And specifically, I am going to quote her, 
she said `` the language would give you carte blanche authority 
to move funds among NASA's accounts from this year forward if 
you determine that transfers are necessary in support of the 
establishment of the U.S. strategic presence on the Moon,'' 
unquote, and you are saying that is not so?
    Mr. Bridenstine. Look, this has to be bipartisan and I 
think, if we put ourselves in a position where, you know, one 
side of the aisle is not happy with what we are trying to 
achieve, we will not be successful. We want to make sure this 
is apolitical and bipartisan as much as possible. I think, 
again, cannibalizing the Science Mission Directorate to achieve 
the objectives of Human Exploration--which, by the way, I don't 
think they are exclusive of each other--that narrative gets 
promoted a lot, but I don't think they are exclusive. I think 
they work hand-in-hand--I think it is within the realm of we 
don't have any desire to do that----
    Mr. Cartwright. All right.
    Mr. Bridenstine [continuing]. We want to make sure that we 
have the support of both sides of the aisle.
    Mr. Cartwright. So no cannibalism in the February figures?
    Mr. Bridenstine. Right.
    Mr. Cartwright. Thank you.
    Mr. Bridenstine. Agreed, we agree on that.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. And thank you, 
Administrator Bridenstine and Associate Administrator Bowersox, 
for being here today. I really appreciate it.
    Under NASA, the American space program has been a symbol of 
world leadership and national pride. At this crucial point in 
our history, we must use our investments wisely and work even 
harder to advance sound policy if we expect to maintain 
American leadership in the space domain.
    To help NASA centers across the country engage with 
commercial industry and become better stewards of their under-
utilized infrastructure, we have introduced H.R. 4304, the NASA 
Enhanced Use Lease Authorization Act of 2019. This bill will 
reauthorize NASA's EUL agreement authority for 10 years and is 
supported by Representatives from both sides of the--of both 
parties, and across the country, from Virginia to California 
and everywhere in between.
    Administrator, can you elaborate on the ways NASA centers 
across the country have successfully used EUL agreements to 
reduce operating costs and improve NASA facility conditions?
    Mr. Bridenstine. Absolutely. I think there are some really 
good examples of infrastructure that would include buildings, 
for example, where a private company wants to use a building 
that NASA is not using currently, and part of the way they have 
access to that building is to make it usable and improve it. 
Then, after a period of time, NASA has the rights to that 
building again in the future, or they could continue their 
lease.
    These are all good things where NASA can partner with the 
private sector. We have similar kind of agreements for launch 
facilities and of course, as you are familiar with at Stennis, 
test facilities. I think there is lots of opportunity to 
improve NASA's facilities by partnering with the private 
sector.
    Ken, do you have anything to add to that?
    Mr. Bowersox. Well, I think you have hit a couple of those. 
The launch pads at the Cape, there are lots of production 
facilities and operations facilities at the Cape where we are 
using those types of agreements. At just about every center 
where we have got spare capacity, we are trying to find users 
from outside NASA who can come in and take advantage of those 
facilities. It has been really helpful to us.
    Mr. Palazzo. Not reauthorizing EUL, what would happen?
    Mr. Bridenstine. It would be really bad for NASA. It would 
be really bad for our private sector partners. Please, 
reauthorize it.
    Mr. Palazzo. Well, great. And that please also to my 
colleagues on this committee. If you haven't signed onto H.R. 
4304, I know Ms. Kaptur and I would appreciate it if you would 
take a hard look at it and we will get it to you.
    So another question is, you know, I am proud to represent 
Stennis Space Center, where NASA has tested every rocket since 
the Apollo program. And, as I am sure you know, the SLS core 
stage is scheduled to ship from Michoud to Stennis this 
December for the green-run engine test. We are encouraged by 
the progress on SLS this year as we near the completion of the 
first flight rocket for Artemis I, and continue to see the 
rocket for Artemis II being built.
    Given your rationale for SLS undergoing the green-run test 
and the plan to conduct a similar green-run test on the 
exploration upper stage at Stennis, do you believe the lunar 
lander provider should also conduct a similar green-run engine 
test as part of the development program? And, if not, what is 
the rationale for not putting the landers through the same 
thorough and rigorous testing as the SLS core stage and the EUS 
at Stennis?
    Mr. Bridenstine. I will start and then I am sure Ken will 
have some thoughts on this as well, because he is an astronaut 
that has had the experience of riding on these kind of 
vehicles.
    I think it is important that we recognize that what the 
commercial providers ultimately provide, a lot of it could have 
already been tested. We are not saying how to land on the Moon, 
we are asking them to propose to us how they would do it and if 
to go from the Gateway, which is that space station in orbit 
around the Moon, to get to the surface of the Moon and back to 
the Gateway, if to do that we are using hardware that has been 
tested significantly, you know, a transfer vehicle, an descent 
module, an ascent module, you know, when you talk about 
propulsion, there could be solutions that have a lot of history 
that we wouldn't necessarily need to green-run test. However, 
there could be brand new designs with brand new capabilities 
that might be necessary.
    I don't want to prejudge what NASA is going to require, but 
certainly depending on the solutions that we get presented, we 
will have, of course, thoughts on it.
    Ken.
    Mr. Bowersox. Yes. All I will say is, we are going to very 
carefully look at all the test plans that we get back from the 
human landing system providers once the proposals are all in. 
To talk a whole lot more in detail wouldn't be good right now, 
since we are in blackout for the proposals. Depending on the 
type of engines they have, Stennis might be a great place for 
testing, but other types of engines we have done at different 
places in NASA and companies have done at other places around 
the country, but they will be thoroughly tested before they get 
to the Moon.
    Mr. Palazzo. Thank you for your responses.
    I yield back.
    Mr. Serrano. Mr. Case.
    Mr. Case. Thank you.
    The overall purpose of the hearing is to discuss with you 
whether the big picture, long-term fiscal and operational 
considerations have been thought through, were thought through 
when we got a pretty sudden and unexpected request for a 
supplemental appropriation. So it is one thing to deal with a 
supplemental appropriation, it is another thing to deal with 
kind of the implications of it over the long term. And you have 
commented in response to the chair's question that you would be 
submitting with the fiscal year 2021 budget a long-term out-
year projection for this particular proposal; correct?
    Mr. Bridenstine. Yes, sir.
    Mr. Case. And does that submission include an updated, full 
life cycle mission cost assuming a '24 mission?
    Mr. Bridenstine. Yes.
    Mr. Case. Okay. Does it include--you are proposing to 
outsource, essentially, a lot of this work; right? So you are 
going to have a whole bunch of development partners out in the 
private sector on fixed-contract situations, that is your 
intent; right?
    Mr. Bridenstine. Yes.
    Mr. Case. Okay. That is going to take a lot of internal 
supervision, because that is a lot of money running wild out 
there and, if not adequately overseen, it could easily get away 
from you, budgetary-wise as well as, I would suspect, quality-
wise.
    So do you anticipate that in your recalculation of an 
accelerated mission, you would beef up your oversight 
capabilities inside NASA?
    Mr. Bridenstine. Well, I think we have pretty good 
oversight capabilities already. What we are doing is we are 
applying the lessons of the past.
    If you look at how we resupply the International Space 
Station right now, we do it with what we call commercial 
resupply. What that means is NASA doesn't purchase, own, and 
operate the hardware; we buy a service from a robust commercial 
marketplace. That robust commercial marketplace was in fact 
developed by NASA with our investments where we invest our 
money, our commercial providers invest their money. We started 
off with three different providers, we down-selected to two, 
but now they are competing against each other on cost and 
innovation, which does drive down cost, it makes sure that we 
are continuing to innovate to drive down cost, and the goal is 
to create a competitive environment. Because we did commercial 
resupply that way, the cost savings have been significant. We 
are on the cusp of having success with commercial crew as well.
    The interesting thing is, when we do programs in this 
fashion, the contractors don't come back to NASA and ask for 
more money all the time. In fact, they both want to be first. 
Our engineers are embedded with their engineers, our, you know, 
finance folks are working with their finance folks, our 
development and the fixed price that you mentioned before, that 
fixed price has milestone payments associated with it, we are 
controlling the process all along the way.
    But the goal here is to have as much as possible we want 
NASA to be a customer of services, especially for low-Earth 
orbit, and then ultimately not just a customer, but also have 
providers, numerous providers that compete against each other.
    Now, that is how we are doing the low-Earth orbit 
activities, but we need to go to the Moon. To get to the Moon 
on schedule, we are going to need to use the SLS rocket, and 
that is going to be a great program going forward for long 
periods of time.
    Mr. Case. Okay. Let me----
    Mr. Bridenstine. Different--it is a mix.
    Mr. Case. I got it. So I would suggest to you that is a 
concern of mine, at least----
    Mr. Bridenstine. Yes, sir.
    Mr. Case [continuing]. That you be able to watch big, 
accelerated contracts.
    And then, number two, do you anticipate that a corollary of 
your proposal to accelerate would also be an acceleration of a 
Mars mission, is that sequential? In other words, is that a big 
picture, long-term consideration that this committee should 
know about? Because if it may not only be about the Moon that 
you are asking an accelerated program for and I don't think we 
would want to be surprised on that one. We would want to know 
what the big picture, long-term plan is for the overall deep 
space exploration.
    Mr. Bridenstine. Yes, sir. Congressman Case, you are 
hitting the nail on the head, which is the sooner we get to the 
Moon with an architecture that is sustainable, we need to learn 
how to live and work on another world, that is what enables us 
to go to Mars. When we go to Mars, we have to be there for a 
long period of time. We have to use the Moon as the proving 
ground so we can get to Mars.
    If we delay the Moon program, by definition we are delaying 
the Mars program. If we accelerate the Moon program, we are by 
definition accelerating the Mars program. That is a great 
question and a good point.
    Mr. Case. Thank you. I hope we get that information in the 
context of fiscal year 2021 as well.
    Mr. Bridenstine. Yes, sir. We will make sure--we will have 
strong Mars content in the budget request.
    Mr. Case. Thank you.
    Mr. Serrano. Ms. Meng.
    Ms. Meng. Thank you, Administrator Bridenstine and 
Associate Administrator Bowersox, for being here today.
    Administrator Bridenstine, earlier this year when you were 
here you testified about what NASA is doing to increase 
opportunities for women in STEM careers at the agency. I wanted 
to circle back to something specific you said in your comments 
about spacesuits and the then-canceled all-female space walk. 
You said, quote, `` It should be noted that the spacesuits are 
in essence little spaceships. Each one of them is designed 
specifically not just for the astronaut, but also for the 
mission. The challenge is, we only have a certain number of 
spacesuits,'' end quote.
    You also stated publicly at a Senate Commerce hearing that 
NASA is looking at a spacesuit architecture that is flexible to 
allow astronauts to conduct missions in low-Earth orbit and the 
Moon.
    With yesterday's announcement of NASA's two new spacesuit 
designs for Artemis, I wanted to ask a few questions. One, do 
we know how many years did NASA need to research and develop 
spacesuits that Neil Armstrong and Buzz Aldrin used?
    Mr. Bridenstine. Oh, that is a good question. I honestly 
don't know, but I will be happy to make sure I get that back to 
you. The question is, how long did it take to develop the 
original Moon-walking spacesuits. We will look that up.
    Ms. Meng. Thank you.
    What lessons did NASA learn from the canceled all-female 
space walk at the International Space Station that might help 
with the research and development of the next generation 
spacesuit?
    Mr. Bridenstine. I think we had already learned the 
lessons. It kind of made it very transparent that spacesuits 
are very difficult, because they are so large, and we need 
spacesuits. The history of NASA is to build a spacesuit that 
works and then try to downscale it and, when we do that, it is 
a lot harder than starting small and then upscaling it for 
larger people. We need a spacesuit that can go from the 1 
percent to the 99 percent in size.
    I think we have already been investing, as you saw it 
yesterday with the announcement, in making that possible, not 
just for space flight, but also for walking on the surface of 
the Moon; we are very committed to it, we have been committed 
to it for a long time. The space walk that you referenced 
obviously highlighted why we have been committed to it.
    I know Ken probably has something to say on the spacesuits.
    Mr. Bowersox. Well, I was just going to say that on the way 
here this morning, I got to check the TVs in our ops center 
there at NASA headquarters, and I saw the two women on orbit 
right now preparing their spacesuits to go outside, and that 
was really exciting for me to see, you know, and we hope to see 
that EVA really soon.
    Part of the problem we had last time was, you know, we were 
resizing the suits for the spacewalkers who are going to go out 
on this EVA, but the suits at that time needed even more work 
than what we are doing for this particular EVA. That was part 
of our issue.
    Mr. Bridenstine. We are doing the all-woman space walk here 
in a matter of days. We are very excited about it.
    Ms. Meng. What challenges and maybe key milestones must be 
met with a 2024 time line to bring astronauts to the Moon--
research, testing, deployment?
    Mr. Bridenstine. Right. The SLS rocket, the biggest, most 
powerful ever built that will take our astronauts to the Moon, 
is at Michoud. It is going to come out of the facility here by 
the end of the year and go to Stennis to get green-run tested. 
The Orion crew capsule and the European service module are 
complete, they will be testing soon up at the Glenn Research 
Center in Ohio. All of that is positive.
    The challenges that we have right now, we have to start 
with a human landing system. You can't land on the Moon if you 
don't have a landing system. That is one of the reasons why we 
did the amended budget request. We are underway with the 
development of Gateway, which is a small space station that 
will be in orbit around the Moon for 15 years. Think of it as a 
reusable command module, just like Apollo, except it doesn't 
get thrown away at the end of the mission. It is going to be 
used over and over again by multiple missions over the course 
of 15 years and probably longer. The spacesuits, of course, are 
a big piece of the architecture as well.
    The SLS rocket, the Orion crew capsule, the European 
service module, the Gateway, and the human landing system and 
the spacesuits. Now, at the same time, we are doing commercial 
crew, which will be launching in the first part of next year to 
low-Earth orbit.
    Just know this, Congresswoman, as an Agency, we have more 
under development now than at any point in NASA's history and 
these are big programs. We are working really hard right now to 
make all this a reality and we are confident with where we are. 
Especially when it comes to commercial crew, we are confident; 
SLS and Orion, we are confident. Gateway and the human landing 
system have some outstanding issues, just because they are so 
early in the development process.
    Ken, did you want to add to that?
    Mr. Bowersox. The only thing I would just emphasize is that 
our biggest technical challenge is getting the landers ready 
for 2024, that is the most challenging part of what we have got 
to develop, and we are excited to take on that challenge.
    Ms. Meng. Thank you. I yield back.
    Mr. Bridenstine. Thank you.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    And welcome----
    Mr. Bridenstine. Thank you.
    Ms. Kaptur [continuing]. Administrator. We are really glad 
to have you here this morning and I know how hard you work at 
your job.
    Mr. Bridenstine. Thank you.
    Ms. Kaptur. And also, Mr. Bowersox, thank you so very much 
for your service to our country.
    I wondered if we could just step back a second from the 
budget request directly and I wanted to ask you about the 
timetable, the change in timetable, and how the date, the 
accelerated date of 2024 was chosen.
    And then if you could provide for the record, if you 
haven't already done it, the original timeline, the budget 
proposal for that, and then the accelerated timeline and the 
budget proposal for that. I think it would be very helpful to 
us.
    And it is quite--I mean, it is a significant change, and 
one of my questions for the American people is, though we 
support you in your efforts to land on the Moon and Mars, I go 
back to a report that Norm Augustine did many, many years ago 
where he said unmanned flight could provide us with a great 
deal of research, data, and space results, whether it is 
commodities or whatever, than human space flight. When you add 
humans into the mix, it becomes much more expensive.
    I am wondering whether you have read that report and 
whether you believe that to be outdated. And my primary 
question is, how was the date of 2024 chosen, as a starter 
here.
    Mr. Bridenstine. Great question. There are two things with 
the 2024 date. A number of things changed.
    Number one, when we came out with the date of 2028, that 
was based on, you know, budgets not changing significantly, 
within inflation. There were people, people in Congress, 
members of the administration, that said 2028, that is 10 
years, and programs that last 10 years, obviously, they get 
cut. Historically, that has been the history of NASA, going 
back to the Space Exploration Initiative in the 1990s, the 
Vision for Space Exploration in the early 2000s, and here we 
are and this is going to be Lucy and the football again. How do 
we retire as much risk as possible to ensure success? And the 
answer was, well, we need to go faster.
    If we are going to go faster, then the next question was, 
where do we get the money? Do we cut Science? Do we cut 
Station? My response was, neither, we need to get new money, 
because those will create political or parochial divides 
between Members of Congress that we don't want to create.
    We got an additional appropriation--or a request for 
appropriation of $1.6 billion and that accelerated the 
timeline. It is not just the risk of these long programs, there 
are also some other changes that have happened. China landed on 
the far side of the Moon for the first time in human history. 
They are going to be landing on the Moon, according to them, 
they are going to be landing humans on the Moon in 2030. When 
they landed on the far side of the Moon, they took out a two-
page spread in The Economist magazine saying that they were the 
world's leader in space exploration and all the countries and 
nations need to partner with them. They are building a space 
station, all of these things.
    The question is, do we want to lead the world in space or 
do we want to yield that to somebody else? The decision, I 
think, or the appropriate decision is to maintain the 
leadership and keep our partnerships.
    Ms. Kaptur. As you look forward, what are the--and I would 
ask you for the chart, 2028 versus 2024 and the appropriated 
dollars that are necessary in both scenarios.
    Mr. Bridenstine. Yes.
    Ms. Kaptur. Could you pinpoint a few of the most difficult 
technologies or systems that require concerted effort to 
achieve the objective?
    And, in achieving those, has NASA a deep experience in 
working, for example, on the energy technologies with the 
Department of Energy, let's say, and some of their labs? Could 
you discuss a little bit about ways in which other parts of the 
Federal Government might help you achieve your objective if it 
isn't directly in your budget, let's say?
    Mr. Bridenstine. Absolutely. This goes to your first 
question about robotic science versus human exploration. In 
fact, we do partner with the Department of Energy on a lot of 
our robotic missions, because they use nuclear power, what we 
call radioisotope thermal generation, which ultimately powers 
our spacecraft when they go to Pluto. At Pluto, you know, solar 
energy is just not that robust at Pluto.
    When we go into deep space, we have to have different ways 
of getting propulsion. Radioisotope thermal generation is a 
form of nuclear and it is the only way we can do deep space 
exploration, so we work with the Department of Energy on those 
types of activities.
    When we send humans to Mars, it would be in the best 
interest of our Nation to use not radioisotope thermal 
generation, but in fact nuclear thermal propulsion, which would 
be an absolute game changer for how we do deep space 
exploration.
    I would also argue--and this would be, something for maybe 
the Armed Services Committee, that the Department of Defense 
(DOD) should have a significant interest in that capability for 
propulsion as well. I would imagine there would be some bleed-
over or crossover there from a capabilities perspective.
    I think when it comes to communications technology, I think 
there is a lot of opportunity there. When we talk about super-
heavy lift and the SLS rocket, I think that that could have a 
lot of applications for national security capability as well.
    I think there is a lot of crossover. These are things that 
we think about. It is one of the reasons the National Space 
Council was established, we can think cross-agency about how we 
do these kinds of programs.
    Ken, did you want to add anything?
    Mr. Bowersox. Just about everything we do in human space 
flight crosses over to what is being done say in the DOD. You 
know, I was assigned to NASA as a military astronaut, and that 
is part of the reason we do that is there is a lot of 
crossover. But the intent at NASA is peaceful use of outer 
space, right? To be able to use these technologies to build 
relationships with partners around the world.
    If you look at future exploration activities, the areas 
where we could probably cooperate the most are in the areas of 
nuclear propulsion and nuclear power for the surface, those 
would be game changers for exploration.
    Ms. Kaptur. Would you classify those as--for the record 
then, Mr. Chairman, could I just ask a listing of the most 
difficult technologies and systems that you face in achieving 
success in this project?
    Mr. Bridenstine. Sure.
    Ms. Kaptur. Thank you.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.
    And thank you, Administrator Bridenstine and Mr. Bowersox, 
for being here today. We appreciate your presence and your 
service to our country.
    As a Floridian, space exploration both interests and 
excites me. It is part of our state's culture and our economy. 
I have companies and constituents in my district who are 
working diligently to develop and build SLS, Orion, EGS.
    But, perhaps most importantly, human space flight can 
inspire our Nation, as we all know, and you talked about it 
earlier, Administrator, and help motivate future scientists and 
explorers.
    As you both I know are aware, supporting the goal of 
sending the first woman and next man to the surface of the Moon 
is a priority for all of us, as long as it is done safely and 
efficiently. Failure is not an option when pursuing an endeavor 
of this magnitude, because if we do fail it could threaten our 
ability to ever return to the Moon again. So we have to get it 
right, I am sure we all agree.
    I want to help NASA meet its goal of 2024, but I need to 
see a schedule and cost estimate to understand how best for us 
to do that.
    So, Mr. Administrator, with that, you have previously 
indicated that a full schedule for Artemis is being deferred 
until a new Associate Administrator for Human Exploration is in 
place, but it seems to me that NASA should be starting to put 
that schedule together now, so it can be provided to new 
leadership as soon as they take over in order to hit the ground 
running. So can you discuss what work, if any, NASA has been 
doing thus far to put together a schedule with analysis with 
respect to Artemis, particularly Artemis III?
    Mr. Bridenstine. Yes, sir. I think regarding having a new 
Associate Administrator for Human Exploration and Operations, 
what I wanted to make sure we didn't do is set a schedule for 
launching the SLS rocket specifically and set a schedule for 
launching commercial crew specifically until a new Associate 
Administrator for Human Exploration and Operations has had an 
opportunity to assess--because, again, accountability matters 
and, if I set the schedule and then they come in later, it 
might not be a good dynamic for accountability.
    That being said, this morning we announced that we will 
have a new Associate Administrator for Human Exploration and 
Operations, Doug Loverro, who I have known for many years. He 
testified before the committees when I was in the House of 
Representatives that I served on. I was on the Armed Services 
Committee Strategic Forces Subcommittee, Science Committee 
Subcommittee on Space. He is somebody who has worked in the 
space environment for a very long time, very successfully, with 
program management.
    That being said, our goal is to get you all of those things 
that you need in February. In February, we are going to do the 
budget submit for 2021 and we will have a run-out for all of 
the out-years in that 2021 budget submit.
    It is also true that if you look at what the Senate has 
already passed in their committee, they actually fenced the 
2020 numbers pending that submission in February 2021. So, I 
mean, I think that could be a solution for how to go about 
making sure that we are all in agreement on how to move forward 
and at the same time not moving forward without being in 
agreement on how to move forward.
    Mr. Crist. So you think that would be available by February 
of next year?
    Mr. Bridenstine. Yes, February, this coming February.
    Mr. Crist. This coming, yes. And that would include the 
cost estimate for Artemis III?
    Mr. Bridenstine. Yes.
    Mr. Crist. Okay. In addition to the schedule and budget, 
what other decisions or actions related to Artemis are on hold 
or otherwise may be impacted by the leadership uncertainty 
until it was announced this morning?
    Mr. Bridenstine. I think the big thing is, we have great 
program managers for every element of what is required to go to 
the Moon and eventually on to Mars. And of course Ken Bowersox 
has been the Acting Associate Administrator and he has done 
just an amazing job. Of course, having an astronaut who is an 
engineer who has worked in the private sector--by the way, a 
Navy astronaut--for a Navy guy, we like that. He has been 
doing--I see Palazzo laughing at me--we had this conversation 
when I was in the House. But Ken has done a wonderful job. I am 
looking forward to getting Doug Loverro on board and having him 
and Ken work together to achieve all of the great things we 
have established.
    Mr. Crist. Thank you, Mr. Administrator.
    Thank you, Mr. Chairman.
    Mr. Serrano. Mr. Administrator, part of the issue that I 
keep coming back to is the importance of knowing the full cost. 
We are appropriators. I won't be here after next year, but, you 
know, we always say about what we leave our children, I also am 
concerned about what I leave other appropriators after I leave. 
And if we find--or gut programs to find the over $1 billion 
when we are buying into the 2024 date and we don't know how 
much it is going to cost down the line.
    So I implore you, as you try to gather support from both 
sides of the aisle, to understand that, unless we know what 
this is going to cost at the end, it would be irresponsible for 
us to take the first step. And certainly for me--and this is 
not about me or about him or about the other one--I certainly 
don't want to leave these folks after I leave this year, and 
Mrs. Lowey leaves at the same time, with having to figure out 
how to pay the other $25 billion over a period of time. And so 
we need to hear from that you and we don't hear it and we don't 
see it.
    Now you spoke about February having those numbers. February 
may seem early in the year, but February, these guys behind me, 
these folks behind me are already working on numbers for what 
the budgets will look like and so we need to know earlier, much 
earlier. Okay?
    Mr. Administrator, as you know, the Aerospace Safety 
Advisory Panel evaluates NASA safety performance and advises 
the agency on ways to improve that performance. Since the March 
2019 announcement of the 2024 landing goal, has the Aerospace 
Safety Advisory Panel weighed in on any astronaut safety risk 
associated specifically with the new, sped-up timeline?
    And I have to tell you that that is a serious concern that 
I have heard from some people. By speeding it up, do we risk 
safety issues, do we run into safety issues?
    Mr. Bridenstine. I think there is a concern that I have 
heard and the concern is schedule pressure. Sometimes I think 
that schedule pressure is something we are concerned, it is a 
historically kind of challenging thing that NASA has to deal 
with, and the last thing we want to do is put any undue 
schedule pressure on anybody. That being said, I think it is 
important for us to have schedules, and I think it is important 
for us to be able to create milestones and then work to achieve 
those milestones.
    I think when you talk about accelerating programs, a lot of 
people talk about schedule pressure, I want to make sure that 
people don't feel pressure from a schedule perspective, but at 
the same time that we are working every day to achieve 
milestones. It is a very delicate balance and we work on that 
every day at NASA, and we have great folks that have been 
working these issues for many years.
    That being said, I think probably the ASAP has been focused 
on commercial crew, because that is the closest alligator to 
the canoe right now. I think we are getting to a good position 
on commercial crew, which is in the first part of next year we 
are going to launch American astronauts on American rockets 
from American soil for the first time since the retirement of 
the space shuttles, and I think that is going to be a great 
development.
    Mr. Serrano. Mr. Administrator, I, like Ms. Granger, saw 
the Moon landing on a small, black-and-white TV set, and it was 
very exciting. I just want to ask you a question off the wall 
here----
    Mr. Bridenstine. Okay.
    Mr. Serrano [continuing]. Out of left field, because I seem 
to remember as part of the conversation of the things we had 
learned or were able to create, if you will, as part of that 
whole mission, and one that I remember was something about the 
spacesuits having some abilities to move forward on people with 
disabilities or something, I don't know. Do you know what I am 
talking about at all?
    Mr. Bridenstine. I am not familiar with that, but it is 
certainly something we could look into. Are you familiar with 
it?
    Mr. Bowersox. No. We can look into it.
    Mr. Bridenstine. I will tell you, our goal and one of the 
reasons we are doing low-Earth orbit specifically commercially 
is because we want to see everybody be able to see themselves 
as flying into space. When we go to space commercially with 
maybe it is industry--what we are using the International Space 
Station for right now, two lines of effort that have 
transformational capabilities, one is industrialized 
biomedicine. The ability to compound pharmaceuticals in space 
in a micro-gravity environment is unlike what you can do on 
Earth. There are treatments that we can create in space.
    Right now, we are proving on the International Space 
Station that we can create human tissue using adult stem cells. 
What that means is we could get to a day where we can print 
human organs in 3-D in a way you can't do it in the gravity 
well of Earth, because it just goes flat.
    These are transformational, you know, industrialized bio-
medicine kind of things that I think will result in a day where 
we have massive amounts of capital--I think we are 3 to 7 years 
away from massive amounts of capital flowing into commercial 
space industry for human habitation in low-Earth orbit. The 
goal is, we want to see a day when everybody can see themselves 
as being an astronaut and I think having more people have more 
access to space is really good for the American economy; it 
helps our balance of payments, it becomes an export for the 
United States of America, it reduces the trade deficit.
    It is not just industrialized biomedicine, it is also 
advanced materials, it is fiber optics, technology we call 
ZBLAN, which will improve basically the way we do 
communications terrestrially, and other material sciences that 
can only be done in a micro-gravity environment of space.
    I really think the goal is to have everybody know that 
space--we want space to be for everybody and we are making 
those investments to make that a reality.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    I want to ask a little bit about commercial space launch 
vehicles. What commercial launch vehicles exist today or are in 
development that can or will be able to launch the HLS and get 
to the Moon to accomplish the goal of U.S. boots on the Moon by 
2024?
    Mr. Bridenstine. Okay. If we are taking humans, the only 
rocket that is going to be available to take humans by 2024 is 
the SLS rocket with the Orion crew capsule. There is no other 
way to accelerate that program other than SLS and Orion. That 
is to carry humans to the vicinity of the Moon, namely the 
Gateway.
    When we talk about what we need at the Gateway, we need a 
landing system, and that landing system could be carried to the 
Gateway. The only rocket that I can think of right now that 
exists would be the Falcon 9 Heavy, but there are a lot of 
other rockets under development, you mentioned development. It 
would be the Vulcan, which is a ULA product; one would be the 
Starship, which is a SpaceX product; one would be the New 
Glenn, which is a Blue Origin product. I can't think of any 
others offhand.
    Mr. Bowersox. There is a chance that Northrop Grumman Omega 
might be able to help as well. I am sure there are rockets we 
haven't even heard about yet.
    Mr. Aderholt. Well, how many of those are currently flying?
    Mr. Bridenstine. The Falcon 9 Heavy is the only one.
    Now, remember, and I think this goes to your question 
earlier, as you mentioned, there could be an SLS-derived 
commercial solution. We are not shutting the door on that 
opportunity. Of course, that would require some investment from 
Boeing to achieve, but certainly in the BAA that is an option.
    Mr. Aderholt. How many of these rockets are going to have a 
full engine test equivalent to the green-run test of SLS by 
2020?
    Mr. Bridenstine. I would say SLS and the Falcon 9 Heavy.
    Mr. Bowersox. Yes, it is probably something that any 
responsible provider would do, but, that is going to be up to 
them since they are commercial activities. It is a typical type 
of test that you do preparing a rocket to go into space.
    Mr. Bridenstine. If we are putting American astronauts on 
those vehicles, without question, it is not just up to them, it 
is up to us as well.
    Mr. Aderholt. And what is the contingency plan if for some 
reason the commercial rockets are not available by 2024?
    Mr. Bridenstine. Well, I think right now we have there is 
the Falcon 9 Heavy that is currently available and I think 
there are a number of others that are getting close.
    Mr. Aderholt. If the commercial is not available, then what 
is the contingency plan?
    Mr. Bridenstine. Go ahead.
    Mr. Bowersox. Well, I mean, we have got the potential for 
multiple commercial options, so we think that we would have all 
those options. If we didn't have any of those four vehicles 
flying, then we would look at what was available.
    Mr. Bridenstine. I think, Mr. Ranking Member, that would 
put us in a position to make landing in 2024 very, very 
difficult. If we don't have the additional rockets, then we are 
not going to be able to achieve the goal, but we are confident 
we will have those rockets.
    Mr. Aderholt. It is a pretty simple fact that, the smaller 
the capability to take cargo to Moon orbit, the more launches 
you will need to carry out of Moon mission; correct?
    Mr. Bridenstine. Yes.
    Mr. Aderholt. So I also want to focus in on Doug Cooke, who 
I am sure you are familiar with, former Associate Administrator 
for Exploration, he did an op-ed on September the 13th in The 
Hill, and in that op-ed he said that ``NASA's 2024 approach 
will require eight new developments, eight launches, and 
approximately 17 mission-critical operations to achieve its 
goal,'' quote-unquote.
    Are you familiar with that op-ed that he wrote last month 
and would you agree with that assessment?
    Mr. Bridenstine. So I do think--I have not read the op-ed, 
I would love to read it before commenting on it, if that would 
be all right, but I would be happy to take that for the record 
and give you my feedback.
    Mr. Aderholt. Okay. How many commercial launch vehicles 
will it take--well, let me go back one second. I know you 
haven't read the article, but would you agree with what he--his 
assessment on that?
    Mr. Bridenstine. Can you say it one more time?
    Mr. Aderholt. The approach would require ``eight new 
developments, eight launches, and approximately 17 mission-
critical operations to achieve its goal.''
    Mr. Bridenstine. I think that is a fair assessment.
    Mr. Aderholt. Okay. And how many commercial vehicles will 
it take to launch the human landing system, including having 
the Gateway in the critical path?
    Mr. Bridenstine. So that is open. We are not telling the 
commercial providers how they need to do their landing system. 
Some providers would indicate maybe they could do it with just 
one vehicle, others indicate maybe you might need three. The 
BAA, the Broad Agency Announcement for the landing system is 
out and, because of that, I don't know how much we can comment 
on those activities because of the blackout.
    Mr. Aderholt. Oh. So, basically, that is open right now?
    Mr. Bridenstine. We are not specifying how any of the 
commercial providers for the human landing system ought to--how 
their systems ought to be developed. We are waiting to have 
them tell us what their approach is and then we will assess 
their approaches.
    Mr. Aderholt. Okay. NASA's 2004 Exploration System 
Architecture Study notes that after a launch plan requires more 
than six to eight launch vehicles the likelihood of mission 
loss goes up dramatically. Does that concern you?
    Mr. Bridenstine. Yes, I guess the point is, the more 
launches, the more one of them could have, you know, a problem.
    Mr. Aderholt. Sure.
    Mr. Bridenstine. That certainly is an issue. I would also 
say we would need to look at the overall architecture and see 
what creates more risk and less risk, how we are building the 
architecture and for what reasons. You know, having a Gateway 
in orbit around the Moon is important for a lot of reasons. It 
is open architecture, so our international partners can have 
their own landing systems, you know, developed to be worked 
with the Gateway.
    Again, the way we are building the architecture is 
strategic in nature, it enables us to get to the Moon, it 
enables our commercial partners to have opportunities to get to 
the Moon themselves, our international partners to have 
opportunities to get to the Moon.
    I think in general we have to look at what we are trying to 
achieve, and then the cost and risk associated with that, and I 
think we have the right architecture at this point.
    I would also say, when we use different types of rockets, 
we have dissimilar redundancy. That actually reduces risk, 
because, if one fails, another can continue to move forward. 
The challenge we had in the 1980s after the Challenger accident 
is DOD and NASA, everybody was entirely reliant on shuttle and, 
when it went away, we were done. The DOD had no access to 
space. Not a good position to be in in the 1980s, we don't want 
to repeat that.
    Mr. Aderholt. This study I referred to, this 2004 study, it 
seems that it established benefits of using SLS-sized rockets 
for a lunar landing mission, from a mission- reliability 
standpoint. If that is the case, shouldn't NASA be working on 
completing SLS No. 4, since it may be needed to help with the 
Moon mission?
    Mr. Bridenstine. Certainly, in fact, we did a letter 
contract, I think we signed it this morning, for additional 
SLSs and exploration upper stage. These are underway right now 
and certainly we have a strong interest in seeing the fourth 
one be successful.
    Mr. Aderholt. And you said that was created this morning?
    Mr. Bridenstine. Yes. Did the letter go out?
    Mr. Bowersox. I think the announcement went out this 
morning----
    Mr. Bridenstine. Okay.
    Mr. Bowersox [continuing]. The signature was a little bit 
earlier, I believe.
    Mr. Bridenstine. Okay.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Serrano. Ms. Granger.
    Ms. Granger. Thank you.
    China is ahead of us in space and I think we know this. 
People that are supportive of this request have said to me, if 
we don't move now, China will own space, and who owns space 
owns the Earth and our technology in it. Knowing that 
situation, how would the 2024 timeline to return to the Moon be 
affected if the funding isn't provided in 2020?
    Mr. Bridenstine. I think of it as a range of probabilities. 
There is no definitive can we get there early if we don't have 
the money or if we do have the money. It is a range of 
probabilities.
    I think if we look at what the Senate mark was, it wasn't 
the entire budget request for the Artemis program, and because 
of that it reduces the probability of success to land within 5 
years, but it can't be ruled out either. It is achievable, it 
is just the level of risk goes up. I am not talking about risk 
to life, I am talking about risk to schedule.
    I think, when we move forward, we need to think about what 
puts us in the best probability of success. I think we put 
together a budget request that puts us in the best probability 
of success and I think that is what we are asking for.
    Ms. Granger. Thank you.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Bridenstine. We have been talking a lot about the 
importance of commercial partners, which obviously will play a 
key role in getting NASA back to the Moon and beyond, right?
    Mr. Bridenstine. That is right.
    Mr. Cartwright. And I was reading the 2020 budget request 
from NASA and also the $1.6 billion supplemental request and 
they both speak a lot about how NASA plans to leverage 
innovative commercial partnerships with launch vehicle 
providers and lander developers and companies like that.
    I want you to go into some more detail on that. Would you 
please describe how these fixed-price partnerships are helping 
NASA to reduce costs and accelerate development in the Artemis 
program.
    Mr. Bridenstine. NASA is doing a lot of things, I think, 
rightly, that are accelerating processes. The transition is--
and you are aware of this--that if we have a program we want to 
develop, we spend 6 months developing--maybe a year developing 
a request for information. Then industry spends 6 months to a 
year developing the information that we requested. Then we 
spend 6 months to a year reviewing that information and putting 
out a request for proposal. Then they spend 6 months to a year 
replying to those proposals.
    Over the course of 3 to 4 years, we finally get under 
contract, and, by the way, that doesn't include when all of the 
contractors protest the decision that NASA made, which costs 
the taxpayers lots of money, wastes a lot of time, and creates 
all kinds of problems for the country, which is not good.
    All that being said, what we are trying to do is we are 
trying to move faster, and the way to do that is where 
possible, where it makes sense, do, as you mentioned, 
partnerships with industry where we put forth American taxpayer 
dollars, they put forth their own private investment and 
collaboratively, we figure out what the solution is.
    Now, we are willing to do that because we expect that they 
will one day go get customers that are not NASA. Those other 
customers could be international partners--by the way, we want 
to be in agreement with them on who those partners are--but not 
just international partners; it could be commercial people who 
want to go to the Moon for different reasons. Maybe it is a 
technology that can only be developed in the microgravity or 
the low gravity of the Moon.
    It could be tourism. For goodness sake, there are people 
out there willing to go to the Moon for vacation. I don't think 
it would be much of a vacation, but many people do.
    As long as there are people willing to invest money in the 
capability to have customers who are not NASA, it drives down 
our costs and it increases access for everybody. NASA doesn't 
necessarily want to always be the purchaser, owner, and 
operator of all of the hardware. That being said, there are 
times when it is in our interests to be the purchaser, owner, 
and operator of the hardware. Then, by the way, some of the 
companies that develop that capability can even offer that 
hardware as a commercial-like opportunity for the future. There 
are different ways of doing different things.
    The goal that I think is important, is that we open the 
aperture of what is legally possible, and then stay within the 
confines of legal requirements that we have been given--don't 
go outside of that--but, ultimately, take advantage of what has 
been provided in the law to do public-private partnerships.
    Mr. Cartwright. Thank you for that answer.
    But knowing the vital part that private contractors are 
going to be playing, are you satisfied that NASA has enough 
personnel to do the work of overseeing--the oversight work to 
make sure that the private contractors are doing what they are 
supposed to be doing?
    Mr. Bridenstine. I think at this point we are in good 
shape. As programs move forward in a more robust way, we may 
need to reconsider the number of personnel that we have 
involved in these programs. I think right now we are okay. If 
our budgets do go up and we have more development, we could 
need more support.
    Mr. Cartwright. Thank you. I yield back.
    Mr. Serrano. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    NASA has a solicitation underway for industry to provide a 
human lander system that will be used to land astronauts on the 
Moon in 2024. It is my understanding that the SLS, with this 
exploration upper stage could launch the entire lander system 
on a single mission. NASA does not appear to be offering its 
own SLS vehicle as an available option to launch the HLS; 
rather, the solicitation instructs bidders to come up with 
their own SLS-derived commercial cargo vehicle solution.
    So, my question is: Has there been any discussion with NASA 
to offer the SLS as a government-furnished equipment to launch 
the lander system?
    Mr. Bridenstine. I haven't had any discussions regarding 
that with industry or folks that might have an interest in 
that. I do think this goes back to Representative Cartwright's 
question regarding kind of new approaches. Certainly, we 
thought it would be appropriate for SLS, if there is a 
commercially viable option for an SLS, that is an opportunity 
that any human-landing system provider or offeror could tap 
into, but that would be an agreement between them and, you 
know, Boeing for that activity or--I don't know--whoever. There 
are a lot of prime contractors involved in that program.
    I have got to be really careful because we do have that BAA 
on the street. We don't want to say what the right answer is. 
We want to leave it to the HLS providers to make that 
determination.
    Mr. Palazzo. All right. And with that BAA, you might not be 
able to answer the next question: Will splitting the lander 
system into three missions and assembling the system on orbit 
negatively affect mission risks and schedule?
    Mr. Bridenstine. Again, we are going to have to look at 
what the commercial providers, you know, demonstrate they are 
capable of doing. We will look at all of that and make 
determinations in the source selection process. Again, we are 
in a blackout, so----
    Mr. Bowersox. Yes, I don't want to talk about details, but, 
you know, the idea of doing everything with one big rocket 
versus doing it with smaller rockets, each approach has its 
advantages and disadvantages. One of the advantages of breaking 
things into smaller pieces is we tend to do better with smaller 
programs as we work through the management and production of 
those different items. Breaking them into chunks that we can 
handle could be very helpful.
    One thing you mentioned--I think this is interesting--you 
mentioned government-furnished equipment. Certainly, any 
offeror for a human-landing system has an option to request 
government-furnished equipment. If an offeror wanted to say to 
NASA, Hey, provide this as government-furnished equipment, in 
the BAA, that is perfectly appropriate for them to do that.
    Now, what that means is we have to look at it and say, Do 
we have an extra SLS that is available and are we willing--and 
this is the other challenge--are we willing to pony up the 
costs for that additional SLS, should it be available? Right 
now, we are not appropriated for that activity; that is a lot 
of money.
    I would say doing the GFE approach on that, again, I am not 
saying it's yes-or-no, offerors are going to have to offer, but 
it does look awfully challenging to accommodate that, just from 
an appropriations perspective, but also from a schedule 
perspective.
    Mr. Palazzo. Okay. Thank you.
    And I really appreciate your written and oral testimony 
here today.
    I yield back.
    Mr. Serrano. We have no further questions, here, but
    I understand Mr. Aderholt----
    Mr. Aderholt. If I could, what is the status of the 
parachute test in the Commercial Crew program?
    Mr. Bridenstine. Great question. My goodness.
    We have two different Commercial Crew providers. SpaceX 
right now is rapidly iterating testing of the Mark 3 parachute, 
which is the most recent design and materials. The goal here is 
we are trying to meet a specific factor of safety of 1.6, which 
there is a whole host of numbers that go into that calculation.
    We are confident that the Mark 3 parachute is the right 
system to achieve that margin of safety. What we are looking 
for now in that Mark 3 parachute is consistent and repeatable 
performance at that 1.6 level. We are going to be looking at 
the margins for every element of that parachute.
    SpaceX has said that by the end of the year, they think 
they could get as many as 10 drop tests done on the Mark 3, 
which would be--you know, if that is possible, that would be 
very positive. Then we are going to look and see how that 
matches with the Mark 2, and if it matches with the Mark 2, 
then we might not need to do as many drop tests. If those 
parachute deployments do not match the Mark 2, then we would 
probably need to do additional drop tests.
    These are all things that we are going to be analyzing in 
the coming days. With SpaceX, they have a static fire test 
coming up. They have a high-altitude launch abort test coming 
up, and then, of course, a lot of parachute testing. Remember, 
this is a development program; that means we are going to learn 
things that we were not anticipating and when that happens, we 
need to be prepared for it.
    Then on the Boeing side, with the Atlas V rocket and the 
Starliner, a lot of the similar challenges with parachutes that 
come from the asymmetry issue from a parachute deployment are 
affecting them, as well. Again, NASA is making sure that what 
we learn in each of these programs gets widely shared because 
we are putting humans on these rockets and we can't afford to 
have propriety information put some of our astronauts in 
jeopardy.
    Mr. Aderholt. And lastly, of course NASA, unfortunately, 
has a reputation for overseeing projects that are sometimes 
over budget and behind schedule. My question is, what has 
changed and how are you hoping to overcome the difficulties of 
that, that you have seen in the past?
    Mr. Bridenstine. Yes. The big thing is, I think the number 
one thing that we have to do as an Agency is go forward with 
realism. A lot of times, a contractor will tell us what they 
can achieve and then we accept it and then they advertise it to 
the public--and this is true for every contractor; I am not 
singling out any one--and then those schedules get publicized 
and then we are held to account for achieving them.
    I think in a lot of cases, it is not based on realism. When 
it comes to cost and scheduling, we need to bemore realistic in 
our assessments and know that these programs--this is a big difference 
and a lot of people don't know--there is a big difference between 
development and operations. When we had the space shuttle, that was an 
operations capability. We knew that we knew that we knew that we knew 
that we had the shuttle. Yes, there were delays, but we had the 
shuttle.
    What we are doing now with Commercial Crew and SLS, these 
are development programs, we don't know yet what we don't know. 
As we go through the development and testing, we learn things 
and then we have to make adjustments. It is a lot harder to pin 
down what a schedule is when you are not in operations and you 
are still in development. That being said, I do think we can 
get better at being more realistic at schedule.
    I can see that Ken has some thoughts.
    Mr. Bowersox. I think a big part of it is the initial 
estimates that we give people, right. You know, we tend to try 
and be a little ambitious and maybe a little bit optimistic in 
our initial cost estimates and schedule estimates and maybe we 
need to start off, you know, a little more--I won't say 
pessimistic--but realistic so we set out schedules and cost 
goals that we can meet.
    Mr. Aderholt. And last, let me just--what type of issues 
continue to slow you down and what additional authority do you 
need to stay on budget and to stay on schedule?
    Mr. Bridenstine. There is a very delicate balance among the 
contractors involved in this process and, quite frankly, we 
need all of them and we need them all to be successful. A lot 
of times what happens is there is contractor-on-contractor 
violence that ultimately undercuts what we are trying to 
achieve on a rapid schedule.
    Here's what we know: China is not going to slow down. That 
means that we, as a country, need to come together, figure out 
what the architecture is, be committed to a process and then 
move forward as rapidly as possible.
    Sometimes, contractors are constantly undercutting each 
other and that is not good for the agency. It is not good for 
our country. When we make a plan to move forward, we need to 
move forward. I think that is one thing.
    As far as authorities, I will take that for the record. I 
guarantee you, I will come up with some, but I might need a 
little time.
    Mr. Aderholt. Okay. Thank you.
    Thank you, Mr. Chairman, for the additional time.
    Mr. Serrano. Thank you.
    That brings us to the end of the hearing, gentlemen, and 
notwithstanding whatever questions may have been asked or 
comments made, we support the work that you do.
    Mr. Bridenstine. Thank you.
    Mr. Serrano. We appreciate the work that you do. We can 
differ on one issue and try to work it out, but, again, as I 
look at my last year in Congress, I am proud of the fact that I 
was able to deal with issues that ordinary people would think I 
was stereotypically not capable of dealing with and NASA 
supporting other things, and at the same time, looking out for 
the guy and the woman who are, you know, paying rent for the 
apartment and having trouble paying their mortgage.
    And so, all those folks who are already writing on Twitter, 
newspaper clippings, already--but not while we are sitting 
here--saying that I just killed the mission. I don't have that 
kind of power. I didn't kill the mission. I just asked some 
questions that I know that you know need to be answered before 
we move forward or not.
    So, I thank you for your work. If you want a list of people 
that I want to send to space, I will let you know. I am capable 
of doing that. Send all the Houston Astros, but anyway, I 
sincerely thank you for coming here today and for 
participating.
    And I thank you, Mr. Aderholt, for your input on making 
sure that we held this hearing. Thank you so much.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    [Material submitted for inclusion in the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     
                     
                     
                     
                     <all>
</pre></body></html>
